Office of Inspector General

SEMIANNUAL REPORT
 TO THE CONGRESS
  October 1, 2010–March 31, 2011
 Office of Inspector General

   SEMIANNUAL REPORT
    TO THE CONGRESS

October 1, 2010–March 30, 2011
                   Inspector General
                      HOTLINE
The hotline makes it easy to report allegations of fraud, waste, abuse,
mismanagement, or misconduct in the programs and operations of the United States
Agency for International Development (USAID), the Inter-American Foundation
(IAF), the United States African Development Foundation (USADF), and the
Millennium Challenge Corporation (MCC). Employees of USAID, IAF, USADF, and
MCC, contractors, program participants, or the general public may report
allegations directly to the Office of Inspector General (OIG). Complaints may be
submitted electronically by using e-mail or OIG’s online complaint form.

E-mail                ig.hotline@usaid.gov
Complaint form        http://www.usaid.gov/oig/hotline/hotline.htm

Individuals who are concerned about the confidentiality or anonymity of electronic
communication may submit allegations by telephone or mail.

Telephone     1-202-712-1023
              1-800-230-6539
Mail          USAID OIG HOTLINE
              P.O. Box 657
              Washington, DC 20044-0657

The Inspector General Act of 1978, as amended, and other laws protect persons
making hotline complaints. Individuals who contact the hotline are not required to
identify themselves and may request confidentiality when submitting allegations.
However, OIG encourages those who report allegations to identify themselves so
that they can be contacted if OIG has additional questions.

OIG will not disclose the identity of an employee of USAID, IAF, USADF, or MCC
who provides information unless that employee consents or unless the Inspector
General determines that such disclosure is unavoidable during the course of an
investigation.
                                                   CONTENTS
Message from the Inspector General .......................................................................... 1

Introduction............................................................................................................................. 3

Semiannual Report to the Congress............................................................................ 7
      United States Agency for International Development
      United States African Development Foundation
      Inter-American Foundation

Reporting Requirements .......................................................................................................... 8

Summary Table of Audits Conducted ................................................................................. 10

Significant Findings—USAID .................................................................................................. 11

      Peace and Security.......................................................................................................................... 11
            Afghanistan................................................................................................................... 11
            Pakistan ......................................................................................................................... 19
            Iraq................................................................................................................................. 24
            West Bank and Gaza ................................................................................................. 26
            Sudan ............................................................................................................................. 29

      Just and Democratic Government............................................................................................... 31
            Good Governance...................................................................................................... 31
            Rule of Law and Human Rights ............................................................................... 35

      Economic Growth and Prosperity ............................................................................................... 37
            Economic Security...................................................................................................... 37

            Environment ................................................................................................................ 40

      Investment in People ...................................................................................................................... 41
            Education...................................................................................................................... 41
            Food Security .............................................................................................................. 44
            Health............................................................................................................................ 46

      Management Capabilities ............................................................................................................. 54
            Information Technology............................................................................................ 54



                                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011                          i
            Employee Misconduct................................................................................................ 55
            Financial Management ......................................................................................................... 56
            Management Accountability ..................................................................................... 56
            Expanding Accountability.......................................................................................... 57
            Accountability Over Contractors and Grantees................................................. 58

Significant Findings—USADF and IAF.................................................................................. 63

Significant Recommendations Described Previously Without Final Action................ 65

Table of Investigative Activities............................................................................................. 70

Fraud Awareness Briefings..................................................................................................... 71

Incidents in Which OIG Was Refused Assistance or Information ............................... 73

Financial Audits—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use...................................................... 74

Performance Audits—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use....................................................109

Miscellaneous Reports—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use....................................................113

Statistical Table of Reports With Questioned and Unsupported Costs...................117

Statistical Table of Reports With Recommendations That Funds Be Put to
Better Use ...............................................................................................................................119

Reports Over 6 Months Old With No Management Decision...................................121

Significant Revisions of Management Decisions ..............................................................122

Management Decisions With Which the Inspector General Disagrees....................124

Noncompliance with Federal Financial Management Improvement Act of 1996 ....124

Significant Findings from Contract Audit Reports..........................................................125

Peer Reviews...........................................................................................................................127




ii        USAID OFFICE OF INSPECTOR GENERAL
Semiannual Report to the Congress—Millennium
Challenge Corporation...................................................................................................129

Introduction.............................................................................................................................131

Significant Findings..................................................................................................................133

      Just and Democratic Government.............................................................................................133
            Rule of Law and Human Rights .............................................................................133

      Economic Growth and Prosperity..............................................................................................133
            Economic Security....................................................................................................133

      Investment in People ....................................................................................................................134
            Health..........................................................................................................................134

      Management Capabilities ...........................................................................................................134
            Information Technology..........................................................................................134
            Financial Management..............................................................................................135
            Fund Accountability Statements............................................................................136

Significant Recommendations Described Previously Without Final Action..............144

Investigative Activities...........................................................................................................146

Incidents in Which OIG Was Refused Assistance or Information .............................146

Financial Audits—Questioned Costs, Unsupported Costs, and
Value of Recommendations That Funds Be Put to Better Use ...................................147

Performance Audits—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use....................................................150

Miscellaneous Reports—Questioned Costs, Unsupported Costs, and Value of
Recommendations That Funds Be Put to Better Use....................................................151

Statistical Table of Reports With Questioned and Unsupported Costs...................152

Statistical Table of Reports With Recommendations That Funds Be Put to
Better Use ...............................................................................................................................153

Reports Over 6 Months Old With No Management Decision...................................154

Significant Revisions of Management Decisions ..............................................................155

Management Decisions With Which the Inspector General Disagrees....................155


                                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011                       iii
Noncompliance with Federal Financial Management Improvement Act of 1996 ....157

Significant Findings from Contract Audit Reports..........................................................157

Peer Reviews...........................................................................................................................158

Abbreviations......................................................................................................................159




iv        USAID OFFICE OF INSPECTOR GENERAL
             MESSAGE FROM THE INSPECTOR
                      GENERAL
I am pleased to present the Semiannual Report to the Congress for the 6-month
period ending March 31, 2011. This report features highlights of oversight
activities of the Office of Inspector General (OIG) for the United States Agency
for International Development (USAID), the United States African Development
Foundation (USADF), the Inter-American Foundation (IAF), and the Millennium
Challenge Corporation (MCC).
During the reporting period, OIG activities 1 resulted in:

•     292 audits issued
•     $76,399,899 in questioned costs and $1,232,901 in funds put to better use
•     57 investigations opened and 48 investigations closed
•     3 arrests, 4 indictments, and 5 convictions
•     41 administrative actions
•     $60,763,307 in investigative recoveries and savings
•     94 fraud awareness briefing sessions with 2,303 attendees

Our audits and investigations focus on programs and operations that are at the
greatest risk for fraud, abuse, or mismanagement (e.g., those in high-risk
environments and those that employ funding mechanisms that may limit
oversight). We have centered our operations on foreign assistance programs
that are particularly important to the Congress and the administration, including
development efforts in Afghanistan and Pakistan and worldwide programs
addressing HIV/AIDS, malaria, and tuberculosis. We have provided oversight of
relief programs in countries that have been devastated by recent natural
disasters, and we have conducted oversight efforts in countries whose
governments are now in the midst of transition.

On behalf of the Inspectors General for the Departments of State, Defense, and
USAID, we issued the fourth Quarterly Progress and Oversight Report on the
Civilian Assistance Program in Pakistan on December 31, 2010. The report
highlighted a need for measures to assess the effectiveness of development
programs in Pakistan and noted that security threats continue to impede
program performance.

USAID has seen several successes in its implementation of HIV/AIDS prevention
programs, such as those in Namibia. Overall, the Agency’s efforts have improved


1
    MCC statistics are reported separately in the MCC portion of the report.



                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   1
the capacity of the Namibian health system to address the country’s HIV/AIDS
epidemic as well as improved access to essential commodities.

Following a year marked by unprecedented natural disasters, OIG has devoted
resources to examining USAID’s response to these tragedies. We have opened
an office in Port-au-Prince to provide further oversight of USAID programs
during Haiti’s recovery. During this reporting period, OIG audited USAID’s
response to the flooding in Pakistan and found that the implementers were
effectively meeting the immediate needs of victims by delivering food hampers,
hygiene kits, and medical supplies.

We have ensured that oversight of assistance programs in current areas of
crisis—including Egypt and Yemen—has continued with minimal disruption. In
some instances, we have been required to relocate personnel to alternate
locations to further their work.

OIG and USAID work closely together to hold corporate entities accountable
for their actions. Our investigations of fraudulent activity, corporate misconduct,
and poor contractor performance have resulted in conviction, suspension, and
debarment of high-profile development implementers. For example, in
December 2010, USAID suspended the Academy for Educational Development,
one of the Agency’s largest contractors operating in Pakistan and Afghanistan,
from entering into new U.S. Government contracts. In addition, OIG’s oversight
efforts led to a settlement with the Louis Berger Group to reimburse the U.S.
Government $69.3 million as a result of employee misconduct and violations of
the Federal False Claims Act.

This semiannual report further describes our activities and achievements and
includes comprehensive statistics and data regarding our work. We look forward
to working with the Congress and our partners and stakeholders to continue to
improve the efficiency and effectiveness of U.S. foreign assistance programs.



                                                   Donald A. Gambatesa
                                                   Inspector General




2     USAID OFFICE OF INSPECTOR GENERAL
                              INTRODUCTION

                    History and Mandated Authority
USAID’s OIG was established on December 16, 1980, by statutory amendment 2
to the Foreign Assistance Act of 1961. 3 On December 29, 1981, the President
signed the International Security and Development Cooperation Act of 1981, 4
bringing the USAID Inspector General under the purview of the Inspector
General Act of 1978. 5 OIG assumed audit and investigative oversight of USADF
and IAF in 1999 6 and of MCC in 2004. 7

The Inspector General Act of 1978, as amended, authorizes the Inspector General
to conduct and supervise audits and investigations. Our mission is to protect
and enhance the integrity of U.S. foreign assistance programs and operations
administered by USAID, USADF, IAF, and MCC. Some of our work is mandated by
statute or other requirements, and other work is performed at the discretion of
OIG. When identifying and prioritizing appropriate audit and investigative activity,
we consider stakeholder interests and needs, alignment with strategic goals,
program funding levels, and the risks associated with the agency programs, including
potential vulnerabilities in internal controls.


                             Areas of Responsibility
Audits. OIG audits activities relating to worldwide foreign assistance programs
and agency operations of USAID, USADF, IAF, and MCC. Audit activities include
performance audits and reviews of programs and management systems, financial
statement audits required under the Chief Financial Officers Act, 8 and audits
related to financial accountability of grantees and contractors.




2
    International Security and Development Cooperation Act of 1980, Public Law 96-533.
3
    Public Law 87-195.
4
    Public Law 97-113.
5
    Public Law 95-452.
6
 Consolidated Appropriations Act, 2000, Public Law 106-113, Division B, Section 1000(a)(7),
Admiral James W. Nance and Meg Donovan Foreign Relations Authorizations Act, Fiscal Years
2000 and 2001.
7
 Consolidated Appropriations Act, 2004, Public Law 108-199, Division D, Title VI, Millennium
Challenge Act of 2003.
8
    Public Law 101-576.



                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   3
Investigations. OIG investigates allegations of fraud, mismanagement, and
misconduct relating to the foreign assistance programs and agency operations of
our client agencies. Investigations of criminal, civil, and administrative violations
cover all facets of these worldwide operations. OIG also works proactively by
providing fraud awareness training and literature, audiovisual aids, and advice on
fraud prevention strategies for agency personnel and employees of foreign
assistance implementers worldwide.

Millennium Challenge Corporation. OIG is responsible for oversight of the
Corporation’s programs and operations worldwide. OIG’s MCC office has its
own performance and financial audit divisions, but it coordinates with the
Investigations and Audit offices for investigative and supplementary audit
support. Budget, information technology, and human resources support is
provided by the Office of Management.

Locations of OIG Offices. OIG carries out its audit and investigative work in
about 100 countries from offices in:

•   Baghdad, Iraq
•   Cairo, Egypt
•   Dakar, Senegal
•   Islamabad, Pakistan
•   Kabul, Afghanistan
•   Manila, Philippines
•   Port-au-Prince, Haiti
•   Pretoria, South Africa
•   San Salvador, El Salvador
•   Tel Aviv, Israel
•   Washington, DC

                           Joint Work and Partners
OIG participates on task forces and cooperates with other interagency groups.
In this reporting period, for example, OIG contributed to task forces to provide
oversight for accountability and transparency in USAID operations in Afghanistan
and Pakistan and to assist the Department of Justice in addressing procurement
and grant fraud, especially in Iraq and Afghanistan.

Southwest Asia Joint Planning Group. This group, formed to coordinate
oversight activities in Afghanistan and other countries in the region, issued its
most recent Comprehensive Audit Plan for Southwest Asia in March 2011. The
group comprises representatives of the Offices of Inspector General for USAID


4     USAID OFFICE OF INSPECTOR GENERAL
and the Department of State, the Government Accountability Office (GAO), the
Special Inspector General for Iraq Reconstruction, the Special Inspector General
for Afghanistan Reconstruction, the U.S. Army Audit Agency, the Naval Audit
Service, the Air Force Audit Agency, and the Defense Contract Audit Agency.

Afghanistan-Pakistan Subgroup. The U.S. Government’s efforts to stop
terrorism require support from the major oversight organizations to ensure
accountability and transparency in multi-billion-dollar programs implemented in
Southwest Asia. To avoid overlapping efforts and reduce the burden that the
oversight process places on overseas staff, a subgroup of the Southwest Asia
Joint Planning Group coordinates multiagency work to guard against fraud,
waste, and abuse in military and civilian programs implemented in Afghanistan
and Pakistan. The Afghanistan-Pakistan Subgroup comprises representatives of
the Offices of Inspector General for USAID and the Departments of State and
Defense, GAO, and the Special Inspector General for Afghanistan
Reconstruction. The subgroup acts as the central point for sharing information
and coordinating planned and ongoing audits, reviews, and inspections. The
subgroup is chaired by a representative from USAID OIG.

Iraq Council of Inspectors General. Oversight organizations operating in
Iraq meet quarterly to discuss ongoing and planned activities and to share
information, resolve conflicts, and avoid duplication. The Special Inspector
General for Iraq Reconstruction chairs the meetings, which are attended by
representatives of the Offices of Inspector General for USAID and the
Departments of State and Defense; other oversight offices within the
Department of Defense, such as the Army Audit Agency and the Defense
Contract Audit Agency; and GAO. Representatives located in Washington, DC,
and Iraq participate in these meetings, in person or by telephone.

Department of Justice Task Forces. OIG actively participates on two
Department of Justice task forces—the National Procurement Fraud Task Force
and the International Contract Corruption Task Force. The mission of both task
forces is to promote the early detection, prevention, and prosecution of
procurement and grant fraud associated with increased contracting activity for
national security and other government programs. Additionally, OIG formally
partners with the Federal Bureau of Investigation (FBI); an FBI agent is onsite in
Afghanistan and actively works USAID cases with OIG special agents.




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   5
6   USAID OFFICE OF INSPECTOR GENERAL
    SEMIANNUAL REPORT TO THE
           CONGRESS
    United States Agency for International
                Development
United States African Development Foundation
                           and
         Inter-American Foundation




                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   7
                 REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended (5 U.S.C. Appendix 3,
Section 5), and other public laws set forth congressional reporting requirements
for the Offices of Inspector General. There are 15 general categories of
reporting requirements.

The summaries of significant findings, starting on page 11, respond to
Requirements 1 and 2; responses to the remaining requirements follow the
summaries.

    1. Significant problems, abuses, and deficiencies uncovered.
    2. Recommendations for corrective action identified.
    3. Recommendations described previously on which corrective action has not
       been completed.
    4. Investigative activities, including matters referred to prosecutive
       authorities.
    5. Reports of incidents in which OIG was refused assistance or information.
    6. Questioned costs, unsupported costs, and the dollar value of
       recommendations that funds be put to better use.
    7. A summary of each particularly significant report.
    8. Statistical tables showing:
       a) The total number of reports at the beginning of the period for which a
          management decision had not been made, including the total dollar
          values of questioned and unsupported costs associated with these
          reports.
       b) The total number of reports during the reporting period, including the
          total dollar value of questioned costs and unsupported costs associated
          with these reports.
       c) The total number of reports during the reporting period for which a
          management decision was made, including the dollar value of disallowed
          costs and the dollar value of costs allowed.
       d) The total number of reports for which no management decision has
          been made by the end of the reporting period.
    9. Statistical tables showing:
       a) The total number of reports at the beginning of the period for which a
          management decision had not been made, including the total dollar
          values of recommendations that funds be put to better use.
       b) The total number of reports issued during the reporting period,
          including the total dollar value of funds put to better use.


8       USAID OFFICE OF INSPECTOR GENERAL
      c) The total number of reports during the reporting period for which a
         management decision was made, including the dollar value of
         recommendations that were agreed to by management, and the dollar
         value of recommendations that were not agreed to by management.
      d) The total number of reports for which no management decision has
         been made by the end of the reporting period.
10.   Reports previously issued for which no management decision has been
      made by the end of the reporting period (including the date and title of
      each such report), an explanation of the reasons such management decision
      has not been made, and a statement concerning the desired timetable for
      achieving a management decision on each such report.
11.   Revisions of management decisions—a description and explanation of the
      reasons.
12.   Management decisions with which the Inspector General is in
      disagreement.
13.   Noncompliance with the Federal Financial Management Improvement Act
      of 1996.
14.   Significant audit findings from contract audit reports.
15.   Peer review results, including the following:
      a) Reviews conducted on OIG during the reporting period, or the date of
         its last peer review and any unimplemented recommendations.
      b) A list of reviews conducted by OIG during the reporting period.
      c) A list of outstanding recommendations made by OIG during the
         reporting period.




                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   9
           Summary Table of Audits Conducted
                USAID, USADF, and IAF
                            October 1, 2010–March 31, 2011

                                                                Amount of
                                              Number of
                   Type of Report                            Recommendations
                                               Reports
                                                                  ($)
Financial Audits
USAID programs and operations                      1                    0

Foundations’ programs and operations               2                    0

U.S.-based contractors                             5             2,298,138

      Quality-control reviews                      0                    0

U.S.-based grantees                               90            62,530,441

      Quality-control reviews                      0                    0

Foreign-based organizations                      129            10,428,595

      Quality-control reviews                     13                    0

Enterprise funds                                   5                    0

Performance Audits

USAID economy and efficiency                      34             2,326,911

Foundations’ economy and efficiency                2                    0

Other                                             11               48,715

                       Total                     292          77,632,800




 10      USAID OFFICE OF INSPECTOR GENERAL
                  SIGNIFICANT FINDINGS
                                      USAID

                          Peace and Security

                                   Afghanistan
Review of USAID/Afghanistan’s Cash Disbursement Practices of
Selected Implementing Partners (Report No. F-306-11-002-S). In late
2001, following decades of conflict, the financial and banking systems of
Afghanistan were devastated. Afghanistan had six licensed, state-owned
commercial banks that were almost entirely based in Kabul and, to a large
extent, inactive. Besides lacking connectivity and reliable information on assets
and liabilities, the banks did not follow generally accepted accounting standards.
Vital functions of the central bank were not defined or carried out, and
Afghanistan lacked a credible, formal payment system. The lack of confidence in
the banking system and uncertainties and difficulties faced by the population and
the business sector led them to rely almost exclusively on the hawala money
transfer system, an informal network of cash brokers who operate based on
trust and reputation.

When USAID reopened its Afghanistan mission in early 2002, the absence of a
functional banking sector in Afghanistan caused serious challenges for USAID’s
implementing partners, which received billions of dollars over the course of
several years to implement reconstruction and development projects. At that
time, cash and hawala were often the only options available to move funds into
and around the country, especially for cash-for-work activities in remote areas
where banks did not exist. Many Afghan vendors and suppliers did not have bank
accounts and accepted only cash payments. As a consequence, USAID’s
implementing partners faced increased risk of fraud, loss, and personal harm
when handling and transporting large sums of cash.

OIG’s review of the mission’s cash disbursement practices found that during
fiscal year (FY) 2010, the ten implementing partners disbursed $13.1 million in
cash out of $181 million, or 7 percent of the total costs they incurred. The
review found that their disbursement practices reasonably ensured that their
cash expenditures were reasonable, allocable, and allowable. Two of the ten
implementing partners’ internal controls over cash disbursements were found to
be “fair,” indicating that they provided minimal assurance of effective oversight.




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   11
Eight of the ten were found to have “good” or “excellent” controls. Several best
practices for internal controls over cash disbursements were also identified
during the review.

OIG made one recommendation, and final action has been taken.

Review of USAID/Afghanistan’s Ministerial Assessment Process
(Report No. F-306-11-001-S). By the end of 2011, the U.S. Government
expects to deliver 50 percent of its development aid to Afghanistan through the
Government’s core budget. With this expectation, USAID/Afghanistan is
conducting a series of preaward assessments of host-government ministries. A
preaward assessment (sometimes called a preaward survey or preaward audit)
involves inquiries, observations, and tests to see whether the assessed entity has
the requisite procedures, internal controls, experienced personnel, and other
resources needed to responsibly manage U.S. Government funds.

OIG’s review—which focused on assessments already performed by
USAID/Afghanistan, as well as draft scopes of work for future assessments—
found that those conducted did not provide reasonable assurance of detecting
significant vulnerabilities. The scope of the assessments varied from one ministry
to another, but some significant limitations existed. For example, reviewers did
not know what programs the ministries would be asked to manage and could
not therefore address the ministries’ capacity in these areas. In addition, none of
the assessments explicitly considered the control environment in Afghanistan or
in individual ministries (e.g., the existence of widespread impunity or the ability
of high-level officials to interfere with law enforcement institutions and
processes).

OIG found a need for more testing to see whether internal control procedures
were followed. In addition, more coverage of controls over fixed assets and
payroll and attendance was required. Reviewers needed more guidance on how
to assess compliance with applicable laws and regulations, and more extensive
USAID supervisory review of assessment reports was also required.

Management decisions have been reached on all three report recommendations.

Audit of USAID/Afghanistan’s Agriculture, Water, and Technology
Transfer Program (Report No. F-306-11-001-P). As nearly 80 percent of
Afghans earn their living from agriculture, USAID/Afghanistan supports programs
to create jobs and increase incomes in the agricultural sector and to increase
Afghans’ confidence in their government, particularly in the Ministry of
Agriculture, Irrigation and Livestock (MAIL). One such program, the Afghanistan
Agriculture, Water, and Technology Transfer Program, is implemented through a
3-year, $20 million cooperative agreement with New Mexico State University
(NMSU) awarded in March 2008. The program has three components: integrated




12     USAID OFFICE OF INSPECTOR GENERAL
water management, new agricultural technology, and technical assistance to
MAIL.

Just over two-thirds of the way through the 3-year program, NMSU had
achieved a number of successes in introducing new irrigation and agricultural
technologies. However, auditors found no evidence of adoption of these
technologies apart from the demonstrations specifically supported by NMSU, and
the program has placed relatively little emphasis on improving governance of
irrigation water resources.

NMSU was responsive to MAIL requests for technical assistance and training and
provided technical assistance to strengthen information technology
infrastructure. It also hired a water engineer to train and mentor irrigation staff.
NMSU reportedly trained 516 people, including MAIL employees and faculty and
students at educational institutions whose graduates often go on to work for
MAIL. Still, the program did not follow up to see whether individual or
institutional performance improved as a result.

Similarly, monitoring and evaluation shortcomings reduced the value of available
performance information. NMSU did not submit the first of two performance
management plans on time and was unable to provide auditors a complete list of
program sites from which to select a representative sample to visit. Auditors
could not verify the program results reported because NMSU did not keep
records showing how the results were compiled. In addition, program goals and
performance indicators evolved during implementation, making it difficult to
decide which ones to use to measure progress.

During the audit, mission officials connected with the program expressed
concerns about the financial management of the program. Records showed that
about 61 percent of spending was in Afghanistan, while the other 39 percent was
in the United States. Officials noted the high proportion of program
expenditures in the United States left fewer resources available for activities in
Afghanistan, and it raised other questions about the financial management of the
program. To address these concerns, OIG contracted with an audit firm to
conduct financial audits of NMSU and its partner universities in the
United States.

The audit made six recommendations to the mission. Management decisions
were reached on five and final action taken on one; a management decision has
not been reached on one recommendation.

USAID Contractor Debarred in Connection with Principal’s
Misconduct and Lack of Adherence to Federal Regulations. As the result
of an OIG investigation, SERVCOR, a provider of security services, has been
debarred for 3 years from contracting with the U.S. Government. The
debarment is based on the company’s affiliation with United States Protection


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   13
and Investigations, LLC (USPI), whose principals were prohibited in 2008 from
working with U.S. Government agencies for 3 years as well. The former
executives of USPI were convicted of conspiracy, major fraud, and wire fraud in
connection with USPI’s subcontract with the Louis Berger Group, Inc. (LBG), in
the performance of USAID-funded rebuilding efforts in Afghanistan.

In 2009, SERVCOR signed a $2.3 million contract with a company doing business
with the U.S. Army Corps of Engineers. The principals, through their
management and control of the company, continued to subcontract with
organizations that had been barred from doing business with the U.S.
Government.

During the period of debarment—in the absence of compelling reasons
otherwise—federal agencies may not award or renew contracts with SERVCOR,
nor may other Government contractors award subcontracts to the company
that exceed $30,000. SERVCOR is also excluded from certain federal assistance
and benefits programs during the period of debarment.

Australian Arrested for Accepting Bribe Related to Construction
Program in Afghanistan. A senior construction manager working for an
intergovernmental organization implementing a $260 million project to build
health and education facilities in Afghanistan was arrested by Indian authorities
and ultimately extradited to the United States to stand trial on bribery charges.
The contractor allegedly solicited a $190,000 bribe to allow an Afghan company
to continue working on USAID-funded subcontracts. The arrest was the
culmination of an investigation and undercover operation conducted by OIG and
members of the International Contract Corruption Task Force.

Two Louis Berger Group Employees Plead Guilty to Fraud. LBG is a
corporation that focuses on infrastructure engineering, environmental science
and economic development. USAID awarded large, multiyear, multi-million-dollar
contracts to LBG, most of which involved reconstruction efforts in Afghanistan.

An investigation spanning several years substantiated that, during the life of these
contracts, high-ranking employees of LBG manipulated overhead rates,
submission of incurred costs, and corporate salaries to overcharge the
U.S. Government.

On November 5, 2010, two high-ranking LBG employees pleaded guilty to
conspiracy to defraud the U.S. Government. As part of the plea agreement, LBG
agreed to a settlement, which resulted in a reimbursement to the U.S.
Government of $69 million. Sentencing for the two LBG employees is pending.

Afghan Sentenced to Prison and Debarred for Fraud Against USAID.
A former finance coordinator for Associates for Rural Development (ARD) who
was sentenced to 7½ years in an Afghan prison and fined $160,000 is now


14     USAID OFFICE OF INSPECTOR GENERAL
prohibited from participating in procurement transactions with any U.S.
Government agency. The individual’s 3-year debarment took effect January 2011
as a result of his being found guilty of embezzlement and falsification of tax
records in connection with the theft of approximately $200,000 from ARD. The
company is the implementer of an $80 million contract under USAID’s Local
Governance and Community Development Program in Afghanistan.

Ongoing Investigation Results in Multiple Debarments, Terminations,
Savings, and Recoveries. As a follow-up to OIG’s previous semiannual report,
Development Alternatives, Inc. (DAI), a USAID contractor managing a
$349 million governance and community development project in Afghanistan,
terminated 12 additional employees because of information revealed by ongoing
internal investigations being conducted in conjunction with OIG. USAID also
debarred 22 former DAI employees who were implicated in misconduct,
including the solicitation of kickbacks and conflicts of interest. To date, the
investigations have resulted in the recovery of more than $119,000 and $81,000
in savings.

Audit of USAID/Afghanistan’s Partnership for Advancing Community-
Based Education in Afghanistan Program (Report No. 5-306-11-001-P).
The Partnership for Advancing Community-Based Education in Afghanistan
(PACE-A) was a 5-year program begun in April 2006 to expand access to quality
primary education for marginalized communities in Afghanistan, particularly for
girls and women. The program focused on community-based schools that are
generally located in remote rural areas not served by the Government of
Afghanistan’s Ministry of Education (MoE).

OIG found that the program was partially achieving its goal and providing
educational opportunities to children living in a number of rural villages located
in different regions of Afghanistan, including young girls who probably would not
be in school otherwise. The implementer reported that 3,695 classes had been
established serving nearly 100,000 students―67 percent of whom were girls.

However, OIG found that PACE-A had not been fully achieving all of its core
objectives. One area in which program efforts had fallen short was teacher
training, which was the primary means of ensuring that PACE-A supported
students received a quality education. Only 3 percent of newly hired teachers
had received the full range of basic core training―consisting of five
workshops―that all were expected to receive. Meanwhile, 21 percent had
received none of the requisite core training.




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   15
         This remote rural village located in the Bamyan Province in Afghanistan
         was offering primary education classes to the local children as a result of
                    support provided under PACE-A (photo by OIG).

In addition, efforts to integrate primary school classes into the MoE’s educational
system were not always being carried out effectively. In particular, the
integration process—which often involved the relocation of classes outside the
communities where they originated to the nearest hub school—was forcing
children as young as 7 years old to walk an average distance of more than
3 miles each way to attend classes. Studies have shown that enrollment rates
drop dramatically as the distance traveled increases. Within a mile, enrollment
rates were above 70 percent, but at approximately 2 miles, they dropped to less
than 30 percent. Moreover, because of social constraints limiting girls’ mobility
outside of the villages, classes relocated away from the village were not feasible,
effectively denying girls a chance to continue their education.

The audit also disclosed that results data reported under several key
performance indicators for four provinces found that several sampled indicators
were not adequately supported. Some of these recordkeeping deficiencies were
attributed to the fact that PACE-A partner staff did not always ensure that data
collection forms were completed as prescribed. In some cases, the teachers and
other users (e.g., teacher trainers) had difficulties in completing the forms
because of their limited levels of literacy. Additionally, the mission was unaware
of the record deficiencies since it had not performed a data quality assessment
on the reported results data.

To address these issues, OIG made four recommendations to have the
implementer develop clear standards for teacher training, develop a plan to
ensure that all PACE-A supported teachers receive this training, develop and



16     USAID OFFICE OF INSPECTOR GENERAL
implement a class integration strategy that allows for the effective integration of
primary school classes into the MoE’s system, and improve data quality assurance
procedures. OIG also recommended that the mission conduct a data quality
assessment. Management decisions were reached on three of the four
recommendations, with final action taken on one of them.

Audit of USAID/Afghanistan’s Support to the American University of
Afghanistan (Report No. 5-306-11-002-P). The Afghan Constitution and
Civil Code, which took effect in July 2004, chartered the American University of
Afghanistan (AUAf) to provide a high-quality education that meets international
standards and emphasizes a liberal arts curriculum and higher education for the
professions (e.g., offering courses in business English, information technology,
leadership, and business management). The university began offering
undergraduate courses and professional programs in September 2006.

To assist in the university’s development, USAID/Afghanistan entered into a
$42 million cooperative agreement with the university in August 2008, effective
through July 2013.

OIG’s audit found that the university, with USAID/Afghanistan’s support, had
increased student enrollment and improved school infrastructure, although the
development of a new campus was behind schedule. The university had increased
the number of qualified staff, one of the program goals. However, the university
had not made progress in becoming self-sustaining. Despite increasing revenue
from student tuition, it was struggling with fund-raising, which is essential for
sustainability. As of May 2010, AUAf had raised only $4.5 million of the
$14 million required and only $2.2 million had been collected, the remainder
consisting only of pledges. Additionally, although the university planned to raise
$23 million in capital for the construction of the new campus, as of May 2010
AUAf had identified only two donors; therefore, OIG questioned whether AUAf
will become self-sustaining after U.S. Government funding ceases.

The audit found that the university was also behind schedule in reforming its
undergraduate program, which is making it less competitive with other private
universities in Afghanistan. Furthermore, the University’s Professional
Development Institute had poor attendance because students lacked interest,
and most of the reviewed course syllabi contained no written completion
requirements. Because the university had not submitted required planning
documents, including its second-year budget, the mission was withholding
additional funding. Further, the university was unlikely to meet its goal of
increasing enrollment of women to 30 percent; Afghan cultural norms make
families unwilling to send girls to an American higher education facility because of
the stigma against associating with people from other countries. In addition to
documenting funding and curriculum problems, OIG found that the university did
not follow environmental procedures in construction of the new campus or in
renovations of existing facilities.


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   17
         Renovation of Buildings at American University in Kabul. Top photo shows
     Building C, which includes computer and science labs, general-purpose classrooms,
         the video-conferencing classroom, and the library. Bottom photo shows the
     University’s administration building, which includes general-purpose classrooms and
                            administrative offices (photos by OIG).

Despite benefits in several areas that were derived from this activity, OIG made
18 recommendations to increase the effectiveness of the mission’s support to
the university. Management decisions have been reached on all
recommendations and final action taken on three.




18      USAID OFFICE OF INSPECTOR GENERAL
Audit of USAID/Afghanistan’s Construction of Health and Education
Facilities Program (Report No. F-306-11-002-P). To help respond to
unmet health and education needs in Afghanistan, USAID entered into a
$57 million cooperative agreement in January 2008 with the International
Organization for Migration (IOM). IOM is implementing the Construction of
Health and Education Facilities Program, which is expected to be completed in
June 2012. The program intends to (1) strengthen the Government of
Afghanistan’s ability to provide health services to its citizens and (2) train
competent teachers by constructing provincial hospitals, midwife training
centers, and provincial teacher training colleges.

OIG found that, although the mission has realized some successes, the program
was not on track to achieve its main objectives. Construction was 18 months
behind schedule, and none of the building projects were completed by the
original delivery dates. Many of the delays were due to security issues, but the
projects also suffered from a lack of skilled workers, unavailability of quality
materials, and design delays.

The mission also approved construction of male prayer buildings and female
prayer rooms at four building sites, violating a prohibition contained in 22 CFR
205(d). The estimated cost of these structures was $258,982, resources that
could have been used for other, allowable purposes under the program.

The report includes 15 recommendations. Management decisions have been
reached on all of them, and final action has been taken on six. The mission
agreed with $258,982 being an unallowable cost for the construction of religious
structures and intends to collect this amount from the implementer.
Furthermore, the mission agreed that it should release completed designs to the
Afghan Government for the hospitals and teacher training centers it was no
longer constructing. Because the designs meet international building codes for
the specific seismic zones, releasing them will help avoid wasting the $544,000
invested in the design process for these structures and will allow the ministries
to solicit other donors for the projects who can use the same plans.


                                       Pakistan

Audit of USAID/Pakistan's Flood Relief Efforts as Administered by
Local Nongovernmental Organizations (Report No. G-391-11-003-P).
Heavy rainfall in multiple regions of Pakistan in July 2010 led to the worst
flooding experienced there in over 80 years. The floods affected most of
Pakistan’s districts and affected between 12 and 16 million people. With the
resulting shortages of food, drinking water, sanitation facilities, and medical aid,
the catastrophe not only deprived the people of their livelihoods, but also
exposed them and their livestock to waterborne diseases.


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   19
USAID/Pakistan committed $10 million for emergency flood relief efforts. In
August, the mission awarded a $5 million grant to the International Organization
for Migration, and two cooperative agreements totaling $5 million to Pakistani
nongovernmental organizations (NGOs). The audit focused on the two Pakistani
organizations: Pakistan Poverty Alleviation Fund (PPAF), which received
$2.7 million, and Rural Support Programmes Network (RSPN), which received
$2.3 million. The two agreements were to provide relief in the provinces of
Balochistan, Punjab, Sindh, and Khyber Pakhtunkhwa—in the form of food
hampers, hygiene kits, and medical supplies to the affected population.




            Medical camp for flood victims in Punjab, Pakistan (photo by OIG).

Auditors found that PPAF and RSPN delivered food hampers, hygiene kits, and
medical supplies to meet the immediate needs of the flood victims. The two
implementers reported meeting their target for distributing food and hygiene kits
to 80,098 households and exceeding the target for administering medical supplies
and treatment to an affected population of 159,620 people and 307,116 livestock.
Auditors substantiated the results for a sample of each group of recipients.

OIG made no recommendations.

Audits of USAID/Pakistan’s Livelihood Development Program for the
Federally Administered Tribal Areas (Report No. G-391-11-002-P and
Report No. G-391-11-001-P). Located along Pakistan’s border with
Afghanistan is a segment of rugged terrain stretching some 450 kilometers and
known as the Federally Administered Tribal Areas (FATA). Functioning as a
semiautonomous area within Pakistan, FATA is administered by the Government



20     USAID OFFICE OF INSPECTOR GENERAL
of Pakistan using political agents that interact with influential members of FATA
tribes. It is one of the most underdeveloped regions in Pakistan, where only
17 percent of the overall population is literate and among women, literacy is as
low as 3 percent. Nearly all of the population resides in rural areas, and
approximately 60 percent of houses are built of unbaked brick, earth, wood, or
bamboo. 9 While some people are involved in small-scale commercial and
industrial sectors, few livelihood opportunities exist, with most households
engaged in subsistence agriculture and livestock rearing.

Development in the impoverished FATA has become vital to Pakistan’s progress
in fighting insurgents. In 2008—in support of a jointly developed plan by the U.S.
and Pakistani Governments—USAID initiated the 5-year, $300 million Livelihood
Development Program (LDP) to address the problems in FATA and neighboring
Khyber Pakhtunkhwa (formerly known as the North-West Frontier Province).

LDP is a community-based program intended to improve living conditions and
opportunities for residents of selected communities by increasing incomes and
generating employment as well as by providing social and economic stabilization
to counter the influence of extremist and terrorist groups. To implement the
program, USAID signed two separate cooperate agreements to cover upper and
lower FATA.

OIG found that neither implementer was achieving the main program goal,
primarily because of the hostile security environment, including kidnapping,
threats, and the assassination of the lower region implementer’s chief of party. In
November 2008, after the assassination, all senior staff for U.S.-based
organizations relocated from Peshawar to Islamabad at the request of the U.S.
Embassy. Implementers found that operating the program from a distance under
tight security constraints created problems, including increased security and
operational costs.

                                      Upper Region

In April 2008, USAID/Pakistan signed a 5-year, $150 million cooperative
agreement with a U.S.-based NGO for work in upper FATA.

OIG’s audit found that the mission had no baseline data to determine progress
toward countering the influence of extremist and terrorist groups. In addition,
the program had executed only 53 percent of planned activities, and program
outcomes were weak.

The implementer changed management and dismissed some of its contractors,
but USAID proceeded to terminate the cooperative agreement for upper FATA.


9
    FATA Sustainable Development Plan 2006-2015



                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   21
USAID later assigned a portion of the work to the lower FATA implementer and
continued to search for other implementing partners.

Further, mission staff—responding to the shift toward involving more Pakistani
organizations in implementation—erroneously directed the implementer to
reduce or eliminate many program activities that FATA community leaders and
the Government of Pakistan had prioritized.

OIG also noted problems with program management, including mission staff’s
overriding management controls and overreliance on contractors to perform
services closely related to inherently governmental functions. Moreover, a
personal services contractor with important contract management functions was
terminated for ethical violations.

OIG made five recommendations for improvements in program oversight and
management of contractors. Management decisions were reached on all five with
final action taken on two recommendations.

                                           Lower Region

In March 2008, USAID/Pakistan signed a 5-year, $150 million cooperative
agreement with a U.S.-based NGO for work in lower FATA.

As in upper FATA, OIG found that the implementer in lower FATA had made
little progress, achieving no more than 19 percent of its targets for key training,
scholarship, infrastructure, and job creation activities.

Humanitarian assistance activities were one factor that slowed program
implementation. Specifically, the mission directed the implementer to
(1) procure 10,000 non-food-item kits for emergency humanitarian relief to
distribute to internally displaced families affected by military operations in FATA,
(2) implement an early warning assessment program for internally displaced
persons in Khyber Pakhtunkhwa, and (3) purchase four fire trucks to be used at
camps for internally displaced persons. These directions caused the implementer
to use resources that otherwise would have been used for planned activities.

Moreover, program funds were not used efficiently. For example, according to
the implementing partner, it spent $29.2 million in the first 2 years of the
program; however, only $7.6 million was spent on direct program activities, and
$2.7 million was directed to humanitarian assistance activities. The remaining
74 percent was spent on program support including labor, fringe benefits,
consultants, travel, security, and other operating and indirect costs. In addition, a
financial review of the accounting and management system identified nearly
$800,000 in questionable costs, including potential misuse of funds for a cash-for­
work project.



22     USAID OFFICE OF INSPECTOR GENERAL
OIG made seven recommendations, and management decisions have been
reached on six.

OIG Cohosts Fraud Awareness Conference in Pakistan. On February 17,
2011, OIG—along with USAID Pakistan, Transparency International Pakistan, the
Auditor General of Pakistan, the Pakistan Public Procurement Regulatory
Authority, and the National Accountability Bureau—cosponsored a fraud
awareness conference for USAID implementing partners in Islamabad, Pakistan.
The event was attended by 118 participants, including representatives of
American and Pakistani NGOs, international public organizations, and
representatives of both USAID and Pakistani Government ministries. The OIG
Pakistan antifraud hotline was formally launched during the conference.

OIG Pakistan Antifraud Hotline Fully Operational. The OIG Pakistan
hotline became fully operational in February 2011. This 5-year project is funded
by a cooperative agreement between USAID Pakistan and Transparency
International Pakistan; however, OIG is solely responsible for addressing
referrals and complaints, which can be submitted through telephone operators
who speak English, Sindhi, Urdu, and Pashto. Complaints can also be transmitted
by e-mail, Internet, facsimile, mail, or in person. The hotline is advertised on
television and the radio, in the newspaper, and on billboards located throughout
Pakistan. Thus far, the hotline has received more than 500 contacts, of which
more than half concern routine service delivery issues related to ongoing flood
relief activities. This information will be referred to USAID or the implementing
partner responsible for the project in question. To date, OIG has initiated four
investigations from approximately 50 related allegations received by the hotline.
See www.anti-fraudhotline.com for more information.




            In Punjab Province, a billboard announces the hotline to passersby
                                      (photo by OIG).



                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   23
USAID Suspends Contractor for Serious Corporate Misconduct.
USAID suspended the Academy for Educational Development (AED) from
receiving new Government awards after initial findings by OIG revealed evidence
of serious corporate misconduct, mismanagement, and a lack of internal
controls. As reported in our previous semiannual report, OIG found evidence of
fraud related to various aspects of a $150 million cooperative agreement, which
was subsequently terminated by USAID/Pakistan. The OIG investigation later
uncovered evidence that certain members of AED’s senior headquarters staff
became aware of potentially millions of dollars of disallowable costs because of
collusion and overcharging by vendors on the Pakistan project but repeatedly
failed to disclose this information to USAID. AED announced the retirement of
its chief executive officer and required the departure of four other senior
executives to address the inadequate reporting and management deficiencies
uncovered by the investigation. In addition to issues related to collusion and
overcharging by vendors, the OIG investigation revealed several infrastructure
projects managed by AED in Pakistan that failed to meet required USAID
specifications. An OIG investigation of another AED project in Afghanistan
revealed significant internal control issues resulting in the use of a purchasing
process that violated both AED and USAID competitive procurement standards.
Although some of these issues were identified during a 2008 internal audit
conducted by AED, they persisted until the end of the project in late 2010.

As a result of the ongoing investigation, USAID/Afghanistan cancelled a planned
$9,900,000 extension of the project in December 2010.

                                           Iraq
USAID Debars Five Individuals Belonging to an Islamic Charitable
Entity With Ties to Terrorist Organizations. Following a multiagency
investigation, USAID debarred six individuals with links to the Islamic-American
Relief Agency, an entity previously designated by the Treasury Department as a
global terrorist organization because it provided financial support to Osama bin
Laden, Al-Qaida, and the Taliban. One of the individuals was a former U.S.
member of Congress. In the course of the investigation by OIG, the FBI, and the
Internal Revenue Service, officials uncovered evidence that the suspects
conspired to illegally transfer more than $1 million to Iraq in violation of the
International Emergency Economic Powers Act.

Survey of Security Incidents Reported by Private Security Contractors
of USAID/Iraq’s Contractors and Grantees (Report No. E-267-11-001­
S). Section 862 of the National Defense Authorization Act for Fiscal Year 2008
(NDAA FY 2008) contains provisions for the oversight of all private security
contractors (PSCs) in areas of combat operations, including Iraq and Afghanistan.




24     USAID OFFICE OF INSPECTOR GENERAL
From July 1, 2007, to June 30, 2009, USAID/Iraq maintained a portfolio of
contracts and grants with 12 implementing partners, which held 17 subcontracts
for private security services in Iraq. According to information provided by
USAID/Iraq’s implementing partners, these 17 subcontracts for security services
incurred cumulative expenditures of $483 million as of December 31, 2009.
USAID/Iraq reported that the implementing partners incurred expenditures of
$2.1 billion in program expenses over the same period; therefore, security
services accounted for approximately 23 percent of the implementing partners’
total costs.

OIG’s survey of security incidents reported by PSCs found that over 2 years,
USAID/Iraq’s implementing partners and their PSCs had documented and
reported 94 serious security incidents. Two of these, Research Triangle Institute
and International Relief and Development, accounted for 72 of the serious
incident reports.

USAID/Iraq has taken numerous steps to implement recommendations from a
prior OIG audit, 10 and to provide oversight, including issuing a formal notice to
partners notifying them of reporting requirements, modifying award documents
to require incident reporting, and ensuring that all PSCs for USAID implementing
partners register with the Ministry of Interior.

Nevertheless, partners did not provide sufficient oversight of their PSCs with
respect to incident reporting. This lack of monitoring led to reporting
deficiencies and missing security incident reports. Additionally, none of
USAID/Iraq’s implementing partners had established documented internal
procedures to monitor the reporting of security incidents to ensure that such
incidents were properly reported. Because jurisdiction over PSCs has been
turned over to the Iraqi Government, it is critical that implementing partners
and their PSCs adhere to policies, procedures, and requirements.

OIG made five recommendations to address these weaknesses. Management
decisions have been made on all of the recommendations, and final action has
been taken on two.

Review of USAID/Iraq’s Contractors’ Compliance With the Trafficking
Victims Protection Reauthorization Act of 2008 (Report No. E-267-11­
002-S). The William Wilberforce Trafficking Victims Protection Reauthorization
Act of 2008 (the Wilberforce Act), Public Law 110-457, requires OIG to
investigate contracts and subcontracts under which there is a high risk that the
contractor may engage in acts related to trafficking in persons. These acts
include confiscation of an employee’s passport, restriction of an employee’s



10
  “Audit of USAID/Iraq’s Oversight of Private Security Contractors in Iraq,” Audit Report No.
267-09-002-P, March 4, 2009.


                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   25
mobility, abrupt or evasive repatriation of an employee, deception of an
employee regarding the work destination, and acts otherwise described in
Section 106(g) of the Trafficking Victims Protection Act of 2000 (22 U.S.C.
7104).

This review assessed whether USAID/Iraq and its contractors have established
sufficient controls to prevent trafficking in persons and whether USAID/Iraq’s
contractors and subcontractors engaged in trafficking-in-persons practices.
Because the majority of the third-country nationals working to implement the
mission’s program activities were professional staff at low risk of trafficking, the
review focused on USAID/Iraq’s two support contracts to Najlaa International
Catering Services and GSI Business Services. These companies employed low-
skilled, low-wage, third-country nationals to provide food service, housekeeping,
and maintenance, and their contracts were valued at a total of $8 million.

USAID/Iraq has established internal controls to manage the risk of trafficking in
persons on its compound, and the review found no indication that contractors
and subcontractors on the two USAID/Iraq contracts engaged in trafficking in
persons. Third-country nationals employed under the contracts were not
restricted beyond normal security procedures, and none of the contract
employees complained of threats, abuse, or coercion. Additionally, the
employees indicated that their pay under the two contracts equaled or
surpassed what they had received from other employers in Iraq. After reviewing
the report’s observations, the mission identified the most critical issue with
potential for trafficking as contractor staff members’ ability to return to their
home countries.

To address this issue, the mission planned to issue a contract modification
reserving the right to withhold final payment if GSI does not account for funds it
has collected from paychecks and disburse the funds to employees as
appropriate. The mission also planned to verify that GSI was honoring a request
by the Embassy of the Republic of the Philippines to provide it with information
on Philippine nationals working for the company.


                                   West Bank and Gaza

OIG’s Oversight Activities in the West Bank and Gaza. OIG’s
oversight activities in the West Bank and Gaza included audits of USAID’s
contractors and grantees.
USAID contracted with independent public accounting firms to conduct audits of
cash transfers to the Palestinian Authority; financial audits; and examination
procedures of contractors, grantees, subcontractors, and subgrantees. These
audits help ensure the validity of costs claimed and compliance with Executive
Order 13224, “Blocking Property and Prohibiting Transactions With Persons



26     USAID OFFICE OF INSPECTOR GENERAL
Who Commit, Threaten to Commit, or Support Terrorism.” During this period,
OIG issued 16 final reports on West Bank and Gaza. The reports identified
questioned costs of approximately $1.5 million of the $39.7 million audited. In
addition, the reports identified areas for improvement in internal controls and
instances of noncompliance with agreements.
Audit of USAID/West Bank and Gaza’s Emergency Jobs Program
(Report No. 6-294-11-001-P). The West Bank and Gaza region continues to
experience high unemployment, which contributes to the marginalization of local
citizens. To provide temporary relief for thousands of families in at least
100 communities in the West Bank and Gaza, USAID/West Bank and Gaza
developed the Emergency Jobs Program, which creates jobs through small-scale
infrastructure projects. These projects have included construction and
rehabilitation of retaining walls, roads, and sidewalks; community, women’s, and
youth centers; health-care facilities; kindergartens and schools; and playgrounds
and parks. They strive to infuse needed capital into local economies and help
move the West Bank and Gaza toward improved quality of life and sustained
economic growth.




          An Emergency Jobs Program plaque stands alongside the Beit Ur Al
          Tahta sidewalk project in the Ramallah Governorate (photo by OIG).

To implement the program, the mission entered into a $34 million cooperative
agreement with CHF International (CHF) to complete 200 small infrastructure
projects throughout the West Bank and Gaza. As of June 30, 2010, USAID/West
Bank and Gaza had expended $21.9 million on the initiative.

The audit found that the program had achieved several qualitative successes: It
helped subcontractors improve their technical skills, trained engineers who
supervised construction activities, and met economic needs of beneficiary


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   27
communities. CHF also implemented an effective branding strategy that raised
community awareness of the U.S. Government’s funding of the infrastructure
projects. In addition, CHF used local materials, helping to support the region’s
economy.

USAID/West Bank and Gaza’s Emergency Jobs Program provided short-term
employment opportunities to 4,215 Palestinian citizens, exceeding its FY 2009
goal of 1,100. Although it was behind in meeting its FY 2009 target for numbers
of employment days generated, CHF was on track to exceed the cumulative
program goal of 290,000 employment days.

The report had no recommendations.

Audit of USAID/West Bank and Gaza’s Technical and Vocational
Education and Training Program (Report No. 6-294-11-006-P). In 2009,
West Bank’s overall unemployment rate was reported at 17.8 percent and—
among youth aged 15 to 24, it was reported at 38.9 percent. Given the large
proportion of young people in the region, with approximately 40 percent being
under the age of 15, investment in workforce readiness is critical to offset the
frustrations of unemployment for large numbers of young people. To address
this need, USAID/West Bank and Gaza has invested in the Technical and
Vocational Education and Training (TVET) Program. The program supports the
high priority that the Palestinian Authority has put on its National Education
Strategy to be more responsive to labor market needs and to better prepare
Palestinian youth with relevant skills in areas such as carpentry, auto mechanics,
information technology and hotel management and familiarity with heating,
ventilation, and air conditioning work.

The program aims to improve the quality and relevance of education at the
12 TVET League institutions in the West Bank and make TVET a viable, sought-
after educational option for Palestinian youths. To implement the program, the
mission signed a 4-year, $10 million cooperative agreement with a consortium of
Save the Children Federation (the prime implementer), Mercy Corps, and the
Young Men’s Christian Association (YMCA). The agreement is effective through
September 2011.

The program’s accomplishments to date include legally registering the TVET
League, renovating and upgrading some workshops, establishing a regional academy
with trained instructors, and delivering equipment to the institutions. A detailed
plan is in place for expending remaining program costs by September 2011;
however, in the short time remaining, fundamental activities that require a longer
period to fully implement—such as building relationships with the public and private
sectors, changing the public perception of vocational and technical education, and
providing for the future sustainability of the TVET League—may be undermined.




28     USAID OFFICE OF INSPECTOR GENERAL
Although the mission has begun making progress, delays in program
implementation have lessened its positive impact. Weak coordination between
USAID and its implementing partners led to delays in defining the roles and
responsibilities of the consortium members. In addition, Save the Children’s first
program director was not fully knowledgeable about USAID policies and
regulations, which led to several problems in complying with the terms of the
cooperative agreement. This lack of knowledge, along with high staff turnover,
contributed to implementation challenges. Furthermore, the lack of a gender
strategy indicates a missed opportunity for empowering Palestinian women.

It is also difficult for the mission to measure the overall benefit of the program
because 26 of the 28 indicators being tracked are not measuring achievement of
the program’s impact-focused goals. Those measures that do focus on impact
have no annual results or baseline data.

OIG made ten recommendations to improve the effectiveness of the TVET
Program and future programs. The mission has taken final action on one
recommendation and reached management decisions on four of the
recommendations. However, a management decision has not been reached on
the remaining five recommendations.


                                         Sudan
Audit of USAID/Sudan’s Modern Energy Services Program (Report 4­
650-11-003-P). Underdevelopment, followed by decades of war and neglect,
has left southern Sudan with minimal infrastructure. As a result, the Government
of Southern Sudan’s Ministry of Energy and Mining has identified the
electrification of market towns as a priority.

As part of its continuing effort to help the government develop southern Sudan’s
electricity sector, USAID signed a 4-year, $13 million task order in 2007 with the
Louis Berger Group (LBG) to implement the Modern Energy Services Program.
The goals of this program are to construct and implement sustainable electricity
generation and distribution systems in selected rural market towns of southern
Sudan. The primary subcontractor under this task order is the National Rural
Electric Cooperative Association International, Ltd., which has been
implementing activities in multiple locations.

OIG found that the mission’s energy program was generally achieving its goals of
constructing and implementing sustainable generation and distribution systems in
Kapoeta, Maridi, and Yei, although delays had necessitated revising the
implementation schedule. Beneficiaries in Yei, where the electricity and
distribution systems have been completed, believe electrification has improved
their economic welfare and physical security. During fieldwork, the audit found
that construction of new electric facilities in Kapoeta and Maridi was progressing


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   29
largely within budget and within the agreed-upon work plan and timelines.
However, the audit also found that LBG did not provide adequate quality
control, allowing its main subcontractor to work with little or no oversight.
Without proper oversight, USAID cannot be sure that the quality of work meets
USAID’s standards or beneficiaries’ expectations.

Management decisions were reached on all three recommendations, and final
action has been taken on one.

Survey of USAID/Sudan’s Election Assistance Activities (Report No. 4­
650-11-001-S). The signing of the Comprehensive Peace Agreement by the
Sudan People’s Liberation Movement and the Government of Sudan in 2005
provided an opportunity for peace after a 22-year civil war between Northern
and Southern Sudan. The agreement required that national elections be held
prior to the referendum on independence. Delayed four times since 2009, these
elections were held in April 2010, and the referendum on independence was
held in January 2011. These events have significant ramifications for security in
Africa; consequently, the United States had an interest in ensuring that these
elections were held peacefully and were perceived by the Sudanese people as
credible.

OIG conducted a survey to determine what activities USAID undertook to
support Sudanese elections. In this survey, OIG attempted to identify the status
of election assistance activities, any concerns about or barriers to success of
those activities, and actions that USAID has taken to address those issues.

OIG found that the mission conducts a number of election assistance activities
through agreements with five principal implementing partners, such as ballot
design and voter registration, civic and voter education, strengthening political
parties, and support of international observation efforts. Under these
agreements, USAID obligated $95 million during FY 2008 and 2009 for election
assistance activities in preparation for the April 2010 national elections, the
January 2011 independence referendums, and related follow-up activities.

The elections and the referendum vote faced serious challenges in a country
rebuilding from a long period of conflict and instability. In particular, USAID and
its partners experienced frustrations when dealing with the National Election
Commission and its initial reluctance in seeking outside assistance. High illiteracy
in southern Sudan, combined with ongoing violence, banditry, and logistical
difficulties, created additional challenges for the electoral process.

Despite delays and obstacles, USAID has taken several actions to overcome
barriers. These actions have included maintaining a close relationship with
implementing partners and monitoring their activities; promoting communication
among implementing partners; and tracking the progress of activities through



30     USAID OFFICE OF INSPECTOR GENERAL
performance reports, meetings, and attending project-related events, including
those in the South, whenever possible.

The survey contained no recommendations.


              Just and Democratic Government

                             Good Governance
Follow-up Audit of Selected USAID/Lebanon’s Democracy and
Governance Activities (Report No. 6-268-11-003-P). OIG issued a follow-
up audit on the recently discontinued $28.7 million Assistance to Sustain Local
Democratic Practices in Lebanon Program. The program, which was intended to
build local government capacity, had been the subject of a November 2008 audit
that identified shortcomings in oversight and in the quality of performance
indicators for the program. Shortly before this audit began, USAID/Lebanon
discontinued the program because officials did not believe that the program was
in the best interest of the U.S. Government.

OIG’s follow-up audit found that the USAID mission had taken steps to improve
program performance indicators since the 2008 audit. Notwithstanding these
improvements, OIG found limitations in project sustainability, project oversight,
and data quality.

Program implementation weaknesses on the part of a Lebanese Government
partner went unaddressed for several years before USAID terminated the
program. For example, under the program, local governments were provided
customized software applications to help them improve administrative and
financial functions. Although a Lebanese Government partner agreed to provide
continuous support for the maintenance and operation of these software
applications, it did not do so, compromising the long-term benefit of the
program.

OIG also identified areas for improvement in the USAID mission’s management
and oversight of the program. Four different USAID technical representatives
were assigned to the program over a 2-year period but did not have full access
to one another’s project files and information. USAID did not define the terms
of use or rights to the software applications provided under the program, and
the implementing partner failed to determine their monetary value. In addition,
USAID failed to verify whether the software applications and equipment financed
under the program were being used as intended by USAID. Furthermore,
because USAID staff waited almost a full year to communicate the results of a
data quality assessment to the implementing partner, the implementing partner
was not able to take prompt action to correct a major overstatement of the
number of government workers who received training under the program.


                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   31
OIG made ten recommendations to address these and other issues identified by
the auditors. Management decisions have been reached on nine
recommendations, and final action has been taken on one.

Audit of USAID/Morocco’s Civil Society Advocacy Program (Report
No. 7-608-10-001-P). Although dominant authority rests with the king,
Morocco has proven to be a regional leader in implementing democratic
reforms. However, only 37 percent of eligible voters participated in the most
recent parliamentary elections in 2007. According to USAID/Morocco officials,
this low voter turnout indicated that national and local institutions have weak
capacities and suffer from a lack of credibility and legitimacy. Officials also
considered the low turnout a step backward for those in favor of a public
mandate for continued democratic reforms.

To address this concern and other Moroccan governance issues, USAID
developed the 3-year, $7.5 million Civil Society Advocacy Program (referred to
as SANAD 11), which began in May 2009. The program has five goals:
(1) Strengthen civil society institutional capacity and advocacy, (2) promote
better synergy between national and local levels of civil society, (3) improve the
capacity of local associations to play a strategic role in the National Initiative for
Human Development, (4) increase the capacity of civil society organizations to
advocate for marginalized and disaffected youth and collaborate with local and
national governments in innovative youth programs, and (5) enhance the capacity
of local organizations to use civil society mobilization and advocacy to improve
education quality.

The audit found that the program was behind schedule but that realistic plans for
a productive fourth quarter likely would allow the program to achieve its
FY 2010 goals (e.g., support parent-teacher associations and efforts to mobilize
or advocate for marginalized and disaffected youth). However, the audit found
that it was too early to determine whether SANAD was on track to have the
desired broader effect on Moroccan civil society.

After 11 months of implementation, the total direct costs billed by the
implementing partner represented only about half of the amount budgeted for
the first year. Reasons cited for the delays included the need to change the
program design and performance measurements in order to partner with similar
Government of Morocco programs, a lengthy process of establishing a
relationship with the Moroccan Ministry of Education, coordination with other
programs to avoid duplication of efforts, and a new process of obtaining security
clearances before grants could be provided to local organizations.



11
   Strengthening Advocacy and Networking to Advance Democracy: Sanad means “support” in
Arabic.



32      USAID OFFICE OF INSPECTOR GENERAL
In addition to delays, the audit disclosed three potential challenges for the
remainder of the program. First, USAID had not specifically communicated
financial management expectations to grantees, nor had the Agency explained its
requirements for progress reports, financial reports, and cost-sharing
contributions. Second, USAID/Morocco’s Office of Democracy and Governance
faced imminent staffing shortages. Third, the implementing partner was not
providing the mission with detailed financial reports. The audit report made
three recommendations that address these findings. Management decisions have
been reached on all recommendations, and final action has been taken on one.

Risk Assessment of USAID/Yemen’s Major Activities (Report No. 6­
279-11-001-S). USAID/Yemen’s Country Strategy: Stabilization through
Development 2010–2012, seeks to address instability and conflict in Yemen. In
2010, the Failed States Index 12 ranked Yemen among the top 15 countries in the
world whose stability is categorized as “in danger.” Stabilization and conflict
mitigation are necessary to create opportunities for jobs creation and to
improve education, health, and governance. USAID/Yemen is implementing a
localized stabilization strategy, which focuses on short- and medium-term results
but also includes goals for longer-term sustainability. The U.S. Government—
acting through USAID—and the Government of the Republic of Yemen entered
into a nearly $122 million assistance agreement in September 2009.

OIG examined the risk associated with USAID/Yemen’s operations by office. The
exposure risk was rated as high for USAID/Yemen’s program and technical offices,
while the exposure risk was rated as moderate for the regional financial
management and procurement offices, located at the mission in Egypt. The
exposure risk for the regional legal advisor, also located in Egypt, was rated as low.
Overall, USAID/Yemen’s risk exposure is high because of security issues, staff’s
inability to monitor programs, high staff turnover, and staff inexperience with
USAID programs and operations. Because USAID/Yemen relies on the Egypt
mission to provide some services regionally, staff members are not available to
monitor day-to-day financial, procurement, and legal activities. Consequently, the
lack of ongoing oversight at these two missions may lead to USAID/Yemen’s
decreased compliance with applicable laws and regulations, ineffective and
inefficient operations, and unreliable financial reporting.

To address these vulnerabilities, OIG made three recommendations, and
management decisions have been reached on all of them.




12
    The Failed States Index is developed annually as a collaboration between the journal Foreign
Policy (documenting global politics, economics, and ideas) and The Fund for Peace (an
independent, nonpartisan research and educational organization that works to prevent war and
alleviate the conditions that cause conflict).




                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   33
Audit of USAID/Bangladesh’s Promoting Governance, Accountability,
Transparency and Integrity Program (Report No. 5-388-11-005-P).
Widespread corruption has long been one of the greatest constraints to
Bangladesh’s continued development. USAID/Bangladesh strives to address the
root causes of corruption and improve the lives of Bangladeshis by strengthening
selected democratic institutions and making them more responsive to citizen
needs. To achieve this goal, USAID/Bangladesh developed the Promoting
Governance, Accountability, Transparency and Integrity (PROGATI) Program.
Specifically, the PROGATI program is designed to promote the principles of
accountability, transparency, and responsiveness by strengthening media, civil
society organizations, and public institutions and parliamentary oversight capacity.
To implement the program, the mission signed a 4-year, $18.2 million task order
with Development Alternatives, Inc., beginning in October 2007.

OIG’s audit found that the PROGATI program has made progress in achieving its
goal of strengthening civil society to decrease corruption but is delayed in
achieving its goals of strengthening media and public institutions. Specifically, the
program was behind schedule in establishing an independent media center and a
parliamentary budget analysis and monitoring unit, both of which are expected to
continue to operate and function after the program ends but—as the audit
found—may not be sustainable.




     Resource facility in the not-yet-functional media center in Dhaka, Bangladesh
                                  (photograph by OIG).

The purpose of the independent media center was to increase the media’s
capacity to report on transparency and corruption as well as advocate for legal
reform and freedom of information laws. Located in the heart of the media hub



34     USAID OFFICE OF INSPECTOR GENERAL
in Dhaka, the center was expected to be functional by October 2008, but as of
September 2010, was neither fully staffed nor equipped with critical computer
equipment. Additionally, the Parliamentary budget analysis and monitoring unit,
meant to be a permanent arm of the Parliament Secretariat to provide reliable
and useful information on the budget and identify funding priorities, was likewise
not equipped with necessary computer equipment nor staffed. Furthermore, the
implementing partner had yet to develop a sustainability plan.

Accordingly, OIG made four recommendations and determined that
management decisions had been reached on all four recommendations.


                      Rule of Law and Human Rights
Audit of Assistance to Internally Displaced Persons and Vulnerable
Groups Financed by USAID/Colombia (Report No. 1-514-11-002-P). A
decades-long armed conflict involving left-wing guerrillas, paramilitaries, and
government security forces has left Colombia with one of the largest populations
of internally displaced persons (IDPs) in the world. As of mid-2009, more than
2.3 million IDPs were included in the government’s official registry, and more
than 240,000 had filed claims with the justice system as victims of major conflict
crimes.

USAID/Colombia’s program to assist IDPs and other vulnerable groups—
traditionally poor and vulnerable people, including ethnic minorities, female
heads of households, youth, and those with disabilities—began in 2001. The
program seeks to stabilize IDPs (i.e., improve their quality of life of and
reintegrate them into civil society) as well as strengthen institutions that support
them.

Under the IDP program, in 2005 USAID/Colombia awarded a 6-year agreement
totaling approximately $73 million to the Pan American Development
Foundation. In 2007, the mission awarded a 4-year agreement totaling almost
$43 million to the International Organization of Migration. These two
agreements, representing close to 87 percent of the IDP program, were the
focus of the audit.

The mission did not establish or use any measures to gauge progress toward IDP
stabilization. Although the IDP program provided support for income generation
and access to housing, public education, and public health—the mission reported
that 276,148 beneficiaries received at least one of these services in FY 2009—
USAID/Colombia could not measure progress toward the overall goal because
the mission did not have a clear, achievable definition of stabilization or improved
quality of life. Therefore, contingent on the availability of funds, these IDPs
receiving services could be indefinite beneficiaries of the program.



                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   35
The audit team found that of the services provided to the IDPs, almost all of the
beneficiaries interviewed considered income generation to be the most
important component in terms of stabilization. However, income assistance, as
defined by the indicators in place, is reaching relatively few beneficiaries: Of the
276,148 beneficiaries reported in FY 2009, only 1,833 received job assistance and
1,884 received vocational training.

Further, the audit determined that the mission included materially incorrect
performance data in its performance plan and report. Specifically, data
overstated the number of people benefiting from U.S. Government support (by
29 percent), licit jobs created (by 33 percent), and families with adequate housing
(by 58 percent).

OIG made five recommendations to improve the effectiveness of
USAID/Colombia’s assistance. Management decisions were reached on all five
recommendations at the time of report issuance.

Audit of USAID/Mexico’s Rule of Law and Human Rights Program
(Report No. 1-523-11-001-P). The Merida Initiative is a $1.4 billion program
intended to provide counterdrug and anticrime assistance for Mexico as well as
Central American countries. One of the initiative’s primary goals is to improve
the capacity of justice systems in Mexico.

As part of the initiative, Mexico introduced several changes calling for reforms in
the judicial and law enforcement sectors and in the prison system. To support
this reform agenda, USAID focused its rule of law activities on (1) continuing
police education and training program, (2) human rights training for police,
prosecutors, and other officials, (3) judicial exchanges, (4) support for human
rights NGOs and civil society, (5) support for law schools and bar associations,
and (6) financial support for the Office of the High Commissioner for Human
Rights.

OIG sought to determine whether USAID/Mexico’s rule of law and human rights
program was achieving its goals to support criminal justice reforms at the federal
and state levels and to strengthen civil society organizations’ promotion and
oversight of human rights. Furthermore, the audit also sought to determine
whether the mission’s program reporting was providing stakeholders with
complete and accurate information on the initiative’s progress.

OIG found that USAID/Mexico did not strategically deliver technical advisory
services so that they could be most efficient, effective, and sustainable. For
example, the primary implementing partner, Management Systems International
(MSI), did not execute its activities as proposed. Activities were to effectively
identify, evaluate, and propagate best practices; designate pilot sites for
developing and testing methodologies and concrete products; and support



36     USAID OFFICE OF INSPECTOR GENERAL
adjustments and corrections before expanding to other sites. As a result,
USAID/Mexico’s rule of law activities have had limited success.

In addition, OIG found that program management required improvement,
including the need for training systems to be evaluated and for technical officers
to carry out all of their responsibilities (e.g., updating performance plans,
requiring compliance with branding procedures, and documenting site visits).
The audit also found that the contract mechanism USAID used to award the task
order to MSI was not in accordance with procurement regulations.

OIG made eight recommendations, and management decisions have been
reached on seven.


                Economic Growth and Prosperity

                               Economic Security
Review of Fondation Sogebank’s Activities Financed by USAID/Haiti
(Report No. 1-521-11-001-S ). The Republic of Haiti continues to face
economic hardships because of the country’s unstable political and social
environment and its slow recovery from the devastating earthquake of January
2010. Extremely high unemployment persists because job opportunities are
scarce. Haiti depends heavily on foreign assistance and annual remittances of
over $1 billion from Haitians living abroad, a group referred to as the Haitian
Diaspora.

The Haitian Diaspora Marketplace Program, implemented by Fondation
Sogebank 13 under a $2 million cooperative agreement with USAID/Haiti,
intended to distribute small grants, between $50,000 and $100,000, to investors
from the Haitian Diaspora to support business ventures likely to increase Haiti’s
gross domestic product, create sustainable jobs, and improve the living
conditions of the population. The program, which was designed to be
implemented over 2 years, began in May 2009.

OIG’s review determined that the foundation had not complied with all the
provisions included in the cooperative agreement with USAID/Haiti and had not
established operating procedures for the program. For example, the foundation
had not issued key documents or set policies and procedures, had not required
documentation of work before paying program staff salaries, and had not
submitted any progress reports. Further, instead of managing program funds
using a single, dedicated bank account, the foundation used five separate bank


13
  Fondation Sogebank is a nonprofit foundation formed in 1993 by the shareholders of the
Société Générale Haïtienne de Banque (Sogebank).


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   37
accounts to disburse funds. These procedures caused many accounting and
documentation irregularities.

Midway through the program, none of the grant funds had been expended and
few proposals were under consideration for funding. Out of 35 concept papers
submitted for the first grant cycle, only 2 had received preliminary approval and
were likely to receive funding.

The review report includes 15 recommendations to resolve the noted problems,
including a recommendation to recover unsupported salary charges. In response
to the draft review report, USAID/Haiti decided to terminate the program by
November 30, 2010. Final action has been taken on all but one recommendation.

Audit of Selected USAID/Kenya Agricultural Productivity and
Agricultural Trade Activities (Report No. 4-615-11-002-P).
USAID/Kenya strives to increase rural household incomes through market-led
development that targets three of Kenya’s most important agricultural
commodities—maize, dairy products, and fruits and vegetables. To accomplish
this goal, the mission aims to expand adoption of productivity-enhancing
technologies, enhance business connections, and promote trade in agricultural
products. In addition, the mission attempts to identify and support appropriate
roles of the public and private sectors in agriculture, and it advocates for policy,
regulatory, and legal reforms. In FY 2009, USAID/Kenya obligated $11.7 million
for activities to promote agricultural productivity and agricultural trade.

OIG found that the mission’s maize program has reported significant increases in
productivity but that the decision to focus on maize prevented USAID/Kenya
from efficiently and effectively increasing rural household incomes. Although
emphasizing maize was not an effective means to increase rural household
incomes, the mission extended the original 4-year program—which was to
expire in 2006—through 2010. It also increased the value of the agreement by
more than $5 million, effectively renewing the maize program without critically
evaluating whether this program was achieving the desired result.

The audit also noted weaknesses in how implementing partners and
USAID/Kenya collect and report data. Errors, unsupported figures, and internal
inconsistencies were discovered in three of five performance indicators prepared
for FY 2009. For example, implementing officials said that they were confident
that at least 370,000 households benefited from the maize program in FY 2009,
although officials did not have any summary documentation to allow verification
of this result.

Additionally, OIG found that greater coordination of policy advocacy was
needed. In one instance, a member of one implementing partner’s team




38     USAID OFFICE OF INSPECTOR GENERAL
advocated for a policy that raised the price that the National Cereals and
Produce Board paid for maize. Unfortunately, because most smallholder 14
farmers in Kenya are net buyers of maize, this policy change likely hurt program
beneficiaries and reduced rural household incomes. This policy advocacy was due
to a lack of awareness by the mission and its partners of the overall economic
growth strategy.

The report includes seven recommendations to strengthen the mission’s
agricultural productivity and agricultural trade activities. Management decisions
have been reached on all of the recommendations, and final action has been
taken on one recommendation.

Audit of USAID/Timor-Leste’s Strengthening Property Rights in
Timor-Leste Project (Report No. 5-472-11-004-P). Before gaining
independence in 2002, Timor-Leste had a long history of occupation, which
caused the displacement and frequent forced resettlement of the population in
many urban and rural areas. Among other things, these changes have created
confusion over land and property holdings, resulting from overlapping ownership
claims established under different legal systems (Portuguese, Indonesian, and
Timorese). These changes have led to increased tension and limited Timor­
Leste’s economic growth.

To address this problem, USAID developed the Strengthening Property Rights in
Timor-Leste Project, which is designed to support the Government of Timor-
Leste in its efforts to institute its own laws and regulations governing property
rights, including the establishment of a national land registration and titling
system. To implement the project, the mission awarded a 5-year, $9.9 million
task order to Associates in Rural Development, Inc., beginning in October 2007.

The audit found that the project was only partially achieving its goal due, in part,
to delays on the part of the Timorese Government in adopting its land bill. This
key piece of legislation was originally expected to be passed at the start of the
project, and its delay has deferred or curtailed a number of activities and
deliverables. Despite this setback, the project was in the process of developing a
national land registry that is expected to cover 50,000 land parcels nationwide. In
carrying out this labor-intensive task, the project developed detailed procedures
and systems for surveying parcels and recording data on claims filed on those
properties, with the data collected by teams of data collectors and then entered
into a database. Upon completion, this massive database will serve as the basis
for land registration and titling.

In reviewing the database, however, OIG found that key supporting records
were not always complete or usable. Examples include missing property folders,


14
     Smallholders or smallholdings refer to a small-sized farm.



                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   39
claim forms, and property sketches, as well as unreadable records with poor
image quality. OIG also noted that the project was accumulating a large backlog
of property claims that were awaiting final processing. Additionally, site visits to
selected data collection areas revealed that field staff members were not
adequately following up on disputed property claims as required to facilitate a
resolution.

OIG made three recommendations to improve the effectiveness of
USAID/Timor-Leste’s assistance, and management decisions were reached on all
three recommendations.

Fraud Found at Civic Center for Haitian Youth. USAID awarded
$8 million through a cooperative agreement to an implementing partner to be
used to carry out election related activities in Haiti. The implementing partner
then awarded contracts to three subcontractors, including the Foyer Civique
pour la Jeunesse Haïtienne (FOCIJH). FOCIJH was advanced approximately
$60,000 to begin its work. 15

Because of the funding advance, FOCIJH was required, after providing electoral
outreach services, to provide supporting documentation to substantiate their
expenses. Not only was FOCIJH unable to provide supporting documentation
for all of its work, but the supporting documentation it submitted was
determined to be fraudulent. Approximately $30,000 has been identified in
unsubstantiated costs. On the basis of OIG’s investigative work, the President of
the NGO has been arrested by the Haitian National Police and is being held
pending trial.


                                            Environment
USAID/Senegal’s Economic Growth Activities (Report No. 7-685-11­
006-P). USAID strives to create jobs and fight poverty in Senegal by increasing
prosperity through trade and natural resource management. USAID/Senegal’s
economic growth program promotes trade in agriculture and natural products,
public private partnerships, biodiversity conservation, and business development
services. It also supports national policies that encourage economic growth,
trade, and environmental responsibility.

The $141 million economic growth program in Senegal focuses on export-
oriented activities to increase revenues. Competitiveness of Senegal’s enterprises
is expected to increase as the result of access to improved technologies,


15
  It is a normal practice to advance small NGOs money to pay for operating costs as they do
not have the capital to begin projects on their own.




40      USAID OFFICE OF INSPECTOR GENERAL
business development services, and better access to market information. USAID
plans to directly address broader environmental issues to preserve natural
resources, which in turn will impact sustainability. The mission has concentrated
on ecosystem management in the southeastern and southern coastal regions of
Senegal. It has assisted in developing laws, regulations, and institutions to
respond to the needs of the Senegalese and foreign investors.

OIG audited two activities, the Wula Nafaa program and the Projet Croissance
Economique (PCE) program, both of which were implemented by the
International Resources Group. Villages that had received training and the
knowledge to cultivate local natural resources more efficiently and economically
and to implement new business practices were able to increase profits by selling
their products at prices five times higher than their original prices. The Wula
Nafaa program reported the creation of more than 13,000 jobs and increased
the economic benefits of approximately 17,000 individuals. Additionally, the
program placed 852 hectares under improved conservation management.

The PCE program, as a result of the removal of lending barriers, issued more
than $2.8 million in Development Credit Authority loans during a 6-month
period, more than doubling the number of loans from the entire previous year.
Also in FY 2010, PCE launched a training initiative based on a series of training
booklets of best practices related to production, harvest, storage, and
conservation of quality maize. The booklets were translated into three languages,
and the program reached a producer base of more than 12,000 farmers.

In other areas, OIG found that the mission had partially achieved its program
goals, such as carrying out training events on investment capacity; however,
other goals—such as increasing value of selected agricultural exports by
50 percent—were not completely realized. Strains on the mission’s resources,
both from staffing shortages and attempts to implement other high-priority
initiatives (e.g., Feed the Future), impacted its ability to carry out some of its
economic growth activities.

OIG made five recommendations to improve oversight, performance
management, and other procedures. The mission agreed with and has taken final
action on all of them.


                         Investment in People

                                     Education
Audit of Selected Activities from USAID/Yemen’s Basic Education
Support and Training (BEST) Project (Report No. 6-279-11-005-P).
USAID’s overarching strategic goal in Yemen has been to increase stability
through targeted interventions in highly vulnerable areas. Targeted, vulnerable


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   41
communities are those that are remote or marginalized and that have limited
access to services and opportunities. These situations create a climate that is
susceptible to extremist ideologies and in which people are prone to violence to
resolve grievances. USAID/Yemen’s stabilization strategy focuses on addressing
the Yemeni people’s fundamental needs and providing opportunities at local
levels by improving access to basic services such as education.

In its most recent country strategy for 2010–2012, USAID/Yemen reported that
Yemen’s education services have been inadequate, resulting in an aggregate adult
literacy rate of 50 percent—73 percent for men and 35 percent for women.
Constraints in access to education services have resulted in low school
completion rates by girls (especially in rural areas), high grade repetition rates,
and a lack of quality facilities and materials, particularly in vulnerable
communities. These communities include the governorates of Hodeida, Rayma,
and Amran, west of the capital of Sana’a.

To improve educational services, USAID/Yemen awarded $20.3 million to the
Academy for Educational Development (AED) for a 5-year associate cooperative
agreement, an award that covers a specified worldwide activity, which began in
September 2007. As the implementer, AED designed the Basic Education
Support and Training Project to strengthen the capacity of communities, schools,
and the Ministry of Education, to improve and sustain education for Yemen’s
children. However, because of the mission’s new stabilization strategy, the
project’s funding was reduced to $17.4 million and the life of the project was
reduced to 4 years. AED designed the BEST project to focus on six main
component areas: school renovations, community participation, training, adult
literacy, education management information systems, and monitoring and
evaluation. Gender inequity was later added as a seventh component.

OIG found that, despite many successes, the BEST project is not on track to
achieve its goals. The mission inappropriately spent $2.4 million of the BEST
project funds to complete construction activities of a previous USAID
initiative—the Basic Education Project. As a result, the most recent project has
incurred a budget shortfall that has hindered its implementation, reducing the
ability to renovate more schools and provide increased training to teachers.
Although 58 schools were targeted for major and minor building renovations,
AED completed only 17 schools. Because of budget cuts in 2010, the
implementer expected to complete only 4 out of 12 planned multipurpose
centers.

OIG made ten recommendations to improve management controls and program
oversight. The mission has reached management decisions on six of the
recommendations and taken final action on two recommendations. However, a
management decision has not been reached on the remaining four
recommendations.



42     USAID OFFICE OF INSPECTOR GENERAL
   Before and after renovations of the Abdu Mohamed Al-Mekhlafe Scholl Zabid District,
                     Hodeida Governorate (photos by USAID/Yemen).

Audit of USAID/Egypt’s Leaders for Education and Development
Scholarship Initiative Program (Report No. 6-263-11-002-P). Since 2004,
the USAID/Egypt Leaders for Education and Development Scholarship Initiative
(LEAD) Program has provided scholarships to underprivileged students
throughout Egypt to attend the American University in Cairo (AUC). The
implementers participated in the recruitment and selection of students and
conducted activities that develop scholarship recipients’ leadership and
community service skills.

USAID/Egypt awarded two cooperative agreements to AUC to implement the
program with combined obligations of more than $42 million. The program
achieved some successes. Between July 2004 and July 2010, the program
awarded 325 scholarships, which supported students’ tuition, books, and


                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   43
housing, and provided a living allowance for up to 6 years of study. The program
has had a 91 percent retention rate since it began and an 88 percent graduation
rate for students reaching the 6-year program limit. The program also engaged
scholarship recipients in leadership and development activities.

However, the audit identified some deficiencies regarding program oversight,
complying with specific terms of the cooperative agreement funding the
program, and performing follow-up activities with program graduates. USAID
had not developed any measures to assess the overall results of program
activities, and program data supplied by the implementing partner was
sometimes incomplete, inaccurate, or unsupported. In addition, the implementer
did not complete several activities during the program’s recruitment, selection,
and scholarship periods as required by the cooperative agreement. Moreover,
the program implementer had not developed plans to collect information on
program graduates to determine whether the program had contributed to
students’ development as leaders in Egyptian society—a primary objective of the
program.

To address these issues, OIG made five recommendations to the mission to
improve oversight, enforce cooperative agreement requirements, and finalize a
plan to follow up with graduates. Management decisions have been reached on
all recommendations.


                                           Food Security
Audit of Selected USAID/Uganda’s P.L. 480 Title II Program Activities
(Report No. 4-617-11-001-P). The U.S. Government has long implemented
international food assistance through the Food for Peace Act (Agricultural Trade
Development and Assistance Act of 1954), also known as Public Law 480 (P.L.
480).

From FY 2006 to January 2010, total Food for Peace contributions to
USAID/Uganda were valued at $237 million, with approximately $116 million
allocated for activities related to nonemergency food aid. These activities
included food-for-work initiatives; direct distribution of food commodities to
vulnerable populations and HIV/AIDS patients; and dissemination of seeds, tools
and agricultural techniques. To implement these programs, USAID/Uganda
entered into two 5-year cooperative agreements with ACDI-VOCA
($76 million) and Mercy Corps ($39.5 million).

The mission’s food security activities have made progress in reducing food
insecurity and increasing resiliency in vulnerable communities and delivering
assistance food commodities to intended beneficiaries. People affected by
HIV/AIDS have described how the receipt of USAID commodities has helped
improve their health. In addition, food-for-work beneficiaries said that the


44     USAID OFFICE OF INSPECTOR GENERAL
activities they participated in had improved farming techniques, increased crop
yields, and eased access to markets.

However, the audit identified multiple issues, mostly stemming from a lack of
training, information, and proper oversight—problems also highlighted in a data
quality assessment that the mission itself had previously conducted. Auditors
noted that Mercy Corps was still awaiting directions about how to collect data
for performance indicators despite having hired a full-time monitoring and
evaluation employee. Officials did not verify the quality of reported performance
data during visits, and the program agreement officer’s technical representative
had not made any site visits.

Certified laboratory reports for warehouses used to store and disburse food
confirmed the presence of live insects, and the audit team personally observed
live and dead weevils, spiders, and flies in open, torn, or damaged food bags.
These poor conditions occurred because of the cooperating sponsors’ lack of
knowledge of how to store and handle the U.S.-financed commodities. Lack of
commodity oversight from the in-country Food for Peace team aggravated these
problems.

In addition, the cooperating sponsor management did not ensure that
subgrantees understood the distribution process and the importance of
maintaining documentation at every level. Despite the importance of branding
USAID activities, 96 out of 152 people interviewed at several of the distribution
sites in northern Uganda did not know that the United States provided the food.

Management decisions have been reached on all 11 recommendations.

Two Liberian Nationals Involved With Food and Construction Relief
Program Convicted of Fraud. Two Liberian citizens employed by World
Vision/Liberia, a branch of the nonprofit international relief corporation, were
convicted of fraud, wire fraud, conspiracy, and fictitious claims against the
U.S. Government on November 16, 2010. Sentencing is scheduled for April 26,
2011.

From 2005 to 2007, USAID provided relief funds to Liberian families emerging
from a 14-year-long civil war. The funds were provided through a prime grantee,
which then used the funds to provide food and construction materials for
Liberian families. The employees of one subgrantee diverted and sold
commodities intended for community projects and Liberian beneficiaries for
their personal profit. Further, the employees diverted construction materials to
their own residences and directed other employees to perform construction
work on their personal residences.

OIG referred the two individuals to USAID for debarment.



                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   45
Food Aid Provided to Individuals Linked to the Liberation Tigers of
Tamil Eelam (LTTE), a Foreign Terrorist Organization. An OIG
investigation revealed that the World Food Program (WFP) was responsible for
providing Title II food aid to IDPs in Sri Lanka. WFP provided commodities to
detainees linked with the foreign terrorist organization, Liberation Tigers of
Tamil Eelam. In early 2009, USAID suspended food deliveries to the same group
when it learned members of the identical foreign terrorist organization were
being allowed to offload food in exchange for the safe passage of food aid
through its territory. On November 22, 2010, as a result of the investigation,
USAID collected $20,424 from the WFP as reimbursement for nearly 32 metric
tons of Title II commodities, including commodity costs, ocean freight, internal
transport, storage, and handling.


                                           Health
Audit of USAID’S HIV/AIDS Activities in Côte d’Ivoire (Report No. 7­
681-11 003-P). The United States Leadership Against HIV/AIDS, Tuberculosis
and Malaria Act of 2003 (P.L. 108-25) authorized $3 billion to be appropriated to
the President to carry out the act from fiscal years 2004 to 2008. Among other
things, the act required the President to establish a comprehensive, integrated,
5-year strategy to combat global human immunodeficiency virus/acquired
immune deficiency syndrome (HIV/AIDS). Reauthorization of funding for that
program, which the President named the President's Emergency Plan for AIDS
Relief (PEPFAR), was included in $48 billion authorized for fiscal years 2009 to
2013 by the Tom Lantos and Henry J. Hyde United States Global Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L.
110-293).

Between 2007 and 2010, USAID was allocated approximately $189 million in
PEPFAR funds. At the time of the audit, USAID had 21 active projects (4 were
awarded by USAID/West Africa and 17 by USAID/Washington Global Health). In
Côte d’Ivoire, these USAID programs were implemented through an array of
Washington-managed agreements and task orders for field activities. Among
these were the procurement program implemented by the Supply Chain
Management System (SCMS), which was allocated approximately $119.3 to
provide logistical support for commodities; the $5.6 million Measure Program
implemented by John Snow Inc. (JSI), which provided technical assistance to
strengthen the Côte d’Ivoire national monitoring and evaluation system for the
fight against HIV/AIDS; the $2 million Social Sectors Development Strategies’
Program, which was intended to strengthen the managerial and technical capacity
of indigenous partners and develop an HIV/AIDS curriculum and trainers; and
the $3.8 million University Research Company’s program to improve the quality
of monitoring and evaluation data.




46     USAID OFFICE OF INSPECTOR GENERAL
Two other programs, which had been completed, were also selected as part of
this audit: (1) a program implemented by Le Soutien to educate communities
about HIV/AIDS, to promote the use of HIV testing services, and to provide care
and support to orphans and vulnerable children and (2) an initiative implemented
by Réseau Ivoirien des Organisations de Personnes Vivant avec le VIH (RIP Plus),
intended to build administrative capacity, provide HIV prevention training,
promote testing, and provide care and support. Together these two initiatives
were funded at approximately $2.5 million.

OIG’s audit concluded that USAID/West Africa had not achieved its goals of
strengthening HIV/AIDS care and support services and had only partially
achieved its goals of facilitating treatment of those with HIV/AIDS and related
infections and enhancing HIV/AIDS monitoring and evaluation. For instance,
despite Le Soutien’s depleting all its program funds, the audit team concluded
that very limited activity, if any, had been implemented. Furthermore, although
the program had ended 4 months early, Le Soutien employees refused to return
12 motorbikes (claiming nonpayment of their salaries), nine office desks, and one
scanner belonging to USAID. RIP Plus also depleted its program funds with
limited activity, if any, performed. External auditors found multiple instances of
potential fraud, including submission of expenses of more than $14,000 related
to passport renewals and vehicle maintenance that were not supported; claimed
expenses of $12,520 by officials that did not have supporting documentation; and
inappropriate use of program vehicles.

The audit also found that SCMS was only partially successful at facilitating
treatment. Although SCMS procured and delivered more than 80 percent of the
HIV/AIDS drugs and supplies to health facilities in Côte d’Ivoire in 2009,
antiretroviral drugs were often missing or could not be accounted for. In addition,
expired drugs had accumulated and had not been destroyed, and drugs were
exposed to high temperatures, thus potentially leading to less effective treatment
for patients. Furthermore, JSI’s Measure Program was only partially effective, as the
program was not implemented as intended. These issues identified in the report
were primarily caused by inadequate monitoring of the program and lack of
oversight by the agreement officer’s technical representative, who never visited
the Measure Program in Côte d’Ivoire.

The audit made 19 recommendations and all have received management
decisions. All allegations of fraud noted in the report have been referred to the
OIG’s Office of Investigations.

Audit of USAID/Southern Africa’s Gender-Related HIV/AIDS
Activities (Report No. 4-674-11-004-P). Gender norms and disparities are a
significant factor driving the global AIDS epidemic, particularly in South Africa,
where a highly patriarchal society, the acceptance of concurrent relationships
with multiple partners, and the higher concentration of females in poverty have
placed women and girls at higher risk of HIV infection. This is reflected, for


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   47
example, in an HIV prevalence rate for females ages 20-24 that is more than four
times greater than the rate for males in the same age group.

To address these imbalances, USAID/Southern Africa implemented a number of
activities—funded at approximately $46 million—focusing on five high priority
gender strategies specified by the Office of the Global AIDS Coordinator. These
strategies include increasing women’s legal protection, addressing male norms
and behaviors, and reducing violence against women. This audit selected five
activities that focused on one or more of these gender strategies. These
activities include Project Concern International’s social mobilization program to
reduce violence against women; Brothers for Life, an initiative spearheaded by
The John Hopkins University to combat HIV by promoting positive male norms;
a savings and loan activity operated by CARE to increase incomes;
EngenderHealth’s voluntary counseling and testing activity; and the Women’s
Justice and Empowerment Initiative (WJEI), implemented by the Research
Triangle Institute (RTI).

The audited gender-related activities of USAID/Southern Africa were performing
well in terms of striving to change social attitudes related to violence against
women, promoting positive male norms, and increasing incomes of female
caregivers of orphans and vulnerable children. However, EngenderHealth’s
voluntary counseling and testing activity was only partially successful, and WJEI
did not achieve its planned level of performance for FY 2009.

Among other things, the audit found that the social mobilization program’s
ultimate success, despite a promising start, was jeopardized by a 33 percent
decline in its second year funding. For WJEI, a slow start that caused the
program to miss its first-year goals was compounded by contract ambiguities and
questionable spending. The audit also questioned almost $23,000 in costs related
to the WJEI project launch that were found to be unreasonable. Furthermore,
the audit found that USAID’s contract with RTI was not reviewed in accordance
with Agency guidance. The audit found a number of additional problems,
including the lack of setting performance targets by gender at the partner level
and the low public awareness in South Africa of U.S. Government assistance in
fighting HIV/AIDS. The audit also found that the mission’s monitoring of its
HIV/AIDS activities could be enhanced.

The audit made eight recommendations. Management decisions were reached on
six recommendations, and final action was taken on three.

Audit of USAID/Namibia’s HIV/AIDS Efforts to Build Health
Workforce Capacity (Report No. 9-000-11-001-P). Between FY 2007 and
2009, the United States appropriated about $300 million for HIV/AIDS activities
in Namibia, of which USAID/Namibia has spent $39 million on investments in
health-care workers.



48     USAID OFFICE OF INSPECTOR GENERAL
The audit found that USAID/Namibia’s investments in HIV/AIDS health-care
workers have strengthened the Namibian health-care system in professional
fields such as pharmacy, social work, and community health care and have
directly supported 3,658 health-care workers. Both the direct support of health
workers and the health system strengthening efforts have improved the capacity
of the Namibian health system’s workforce to address the HIV/AIDS epidemic.

However, USAID/Namibia lacks two critical program elements: a transition plan
for shifting the cost of workers’ salaries to Namibian entities and the
establishment of baseline data, indicators, and targets for human resources for
health activities.

The audit made two recommendations to address these problem areas, and
management decisions were reached on both.

Audit of USAID/Zambia’s Gender-Related HIV/AIDS Activities
(Report No. 4-611-11-006-P). To emphasize gender as an integral part of its
HIV/AIDS response, the U.S. Government updated its programming
requirements to help increase gender equity in HIV/AIDS services, reduce
violence and coercion, address male norms and behaviors, increase women’s
legal protection, and increase women's access to income and productive
resources. USAID’s internal directives now require gender to be considered as
part of high-level planning as well as during project and activity planning,
procurement, monitoring, and evaluation.

In Zambia, where HIV prevalence among women is 16.1 percent (versus
12.3 percent among men), the USAID mission sought to address these goals by
integrating gender considerations into all programs in its HIV/AIDS portfolio.

OIG reviewed three HIV/AIDS programs: Zambia Prevention, Care and
Treatment Partnership II, Corridors of Hope III, and the Local Partners Capacity
Building Program. OIG concluded that the selected programs were paying
increased attention to gender and that USAID officials, implementing partners,
and program staff were generally aware of gender requirements and activities
that could be used to further gender goals.

However, the audit noted that not all HIV/AIDS activities implemented by
USAID/Zambia were working toward achieving the gender-focused goals. OIG
found that the mission’s coverage of gender in HIV/AIDS programming left gaps,
specifically in the area of gender-based violence. Moreover, the Zambia
Prevention, Care and Treatment Partnership II lacked a completed gender
strategy and did not report progress on gender-related goals, and the Local
Partners Capacity Building Program did not conduct the required gender
analysis.




                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   49
Management decisions were reached on all six report recommendations, and
final action has been taken on five.

Audit of USAID/Mozambique’s Implementation of the President’s
Malaria Initiative (Report No. 4-656-11-005-P). The President’s Malaria
Initiative (PMI), launched by the United States in 2005, began as a 5-year,
$1.2 billion initiative to reduce the burden of malaria in 15 African countries.
USAID/Mozambique received its first full year of PMI funding in FY 2007. OIG’s
audit focused primarily on USAID’s FY 2009 activities.

The initiative’s overarching goal in Mozambique, according to the PMI’s FY 2009
operational plan, was to reduce malaria-related mortality by 50 percent. The
initiative intended to reach 85 percent of the most vulnerable populations—
children under 5 and pregnant women—with proven preventive and therapeutic
interventions. Efforts to provide insecticide-treated bed nets, antimalarial drugs,
and indoor residual spraying constituted roughly 83 percent of the estimated
budget for the mission’s PMI activities for FY 2009.




                    This small rural health post in Zambézia Province
                          dispenses USAID-funded antimalarial
                              commodities (photo by OIG).

To implement the FY 2009 program, USAID/Mozambique entered into agreements
with six major partners. Activities that contributed to most of the reported results
were implemented by three main partners: Populations Services International, RTI
International, and John Snow, Inc. The cumulative budget for malaria activities in
Mozambique from the start of PMI through FY 2009 was $63.9 million.

The audit found that although USAID/Mozambique had made notable
contributions to the national malaria program in FY 2009—exceeding targets for
distributing bed nets and antimalarial drugs—it was not on track to achieve
overarching PMI goals initially set for 2010. Furthermore, the audit found that



50     USAID OFFICE OF INSPECTOR GENERAL
management of antimalarial drugs and insecticide-treated bed nets did not always
meet guidelines, leading to the disbursement of expired drugs and an inability to
account for almost 2,000 missing mosquito nets. Some spraying results were not
valid or reliable, or they were reported inaccurately, primarily because of
shortcomings in staff training. The audit also found that some performance data
was not reported properly and that the performance monitoring and evaluation
process was incomplete. Additionally, USAID/Mozambique had not been
regularly completing or documenting data quality testing during site visits.

The audit report made five recommendations to address these problem areas.
Management decisions were reached on all the recommendations, with final
action taken on four.

Audit of USAID/Benin’s Implementation of the President’s Malaria
Initiative (Report No. 7-680-11-004-P). Benin is another one of the
15 countries benefiting from PMI. With more than 30 percent of the population
living in poverty, 16 Benin struggles to cope with the strain that malaria places on
the country’s economic development, as well as on public health. USAID/Benin’s
FY 2008, 2009, and 2010 funding for PMI totaled $13.9 million, $13.8 million, and
$21 million respectively, of which 44 percent was designated for the purchase of
commodities. The mission expended $9.6 million during FY 2009 and
$16.2 million during FY 2010 for PMI activities. During this period, the mission
worked to implement these activities through cooperative agreements and task
orders with 13 prime partners and dozens of subpartners. Four of these
partners were selected for audit: John Snow, Inc., RTI International, Population
Services International, and Management Sciences for Health.

OIG’s audit determined that the program was only partially achieving its goals of
preventing and treating malaria through performing indoor residual spraying and
purchasing and distributing bed nets and antimalarial drugs. Although
USAID/Benin distributed 834,000 artemisinin-based combination therapy
treatments, exceeding its target of distributing 479,000 treatments during
FY 2009, it did not purchase or distribute as many bed nets as intended. As for
indoor spraying, the mission exceeded its original targets; however, the
mechanics and timing of reporting, as well as confusion about the definitions
used for houses, structures, and family members, raised questions concerning
the reliability of reported data.

The audit also found that health facilities did not distribute, store, or dispose of
malaria commodities adequately, and some facilities reported stock outages. In
addition, several facilities were prescribing medicine reserved for severe malaria
cases for those with minor symptoms, a dangerous practice that could lead to
potential long-term and permanent physical harm. In addition, bed nets were also


16
     CIA World Factbook (2007 est.).



                                       SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   51
missing, diverted, and in many cases, sold for profit. For instance, one USAID
official found PMI-funded nets in the markets of Bohicon and Parakou in July and
August 2010. Sellers confirmed that they could supply thousands of nets on
request. All allegations of fraud noted in the report have been referred to the
OIG’s Office of Investigations.

The audit made 13 recommendations that address these findings. Management
decisions have been reached on all recommendations and final action taken on
two.

Audit of USAID/Ghana’s Tuberculosis Program (Report No. 7-641-11­
005-P). On September 30, 2005, USAID entered into a 5-year, $150 million
cooperative agreement with the Tuberculosis Coalition for Technical Assistance,
led by KNCV, 17 to implement the global Tuberculosis Control and Assistance
Program (TB CAP). The program is implemented in 25 countries, including
Ghana. The overall goals of this international program are to (1) increase
political commitment for internationally recommended protocols for
tuberculosis control, (2) strengthen and expand related treatment programs,
(3) increase public- and private-sector partnerships, (4) strengthen tuberculosis
and HIV/AIDS treatment collaboration, and (5) improve human and institutional
capacity. The program was scheduled to end in September 2010 but was
extended until the end of March 2012.

According to a 2009 report by the World Health Organization (WHO), Ghana
ranked 19th in Africa for the highest estimated number of new cases per year.
However, WHO estimates that Ghana is detecting only 26 percent of all
tuberculosis (TB) cases. The National Tuberculosis Health Sector Strategic Plan
for Ghana, 2009–2013, clearly identifies the low TB case detection rate as one of
the main challenges facing TB control in Ghana.

OIG’s audit determined that although there were many successes in the
program’s implementation, USAID/Ghana had only partially achieved its goal of
improving TB management in Ghana.

For example, TB CAP prepared, disseminated, and implemented a set of
standard operating procedures for TB case detection, piloted implementation of
these procedures at all clinics in the Upper West Region, and created standard
procedures for infection control, among other successes.

However, some aspects of the program did not have the same measurable
impact. The program did not implement all recommendations made by technical
experts with whom the program consulted, and some of the policies produced


17
   KNCV stands for Koninklijk Nederlandsche Centrale Vereeniging or Royal Netherlands
Tuberculosis Association.



52      USAID OFFICE OF INSPECTOR GENERAL
under TB CAP were not implemented. Also, not all of the activities were
implemented in accordance with the work plan, and the USAID mission was not
aware of some of the variations. Finally, some reported results did not meet data
quality standards. Although the mission acknowledged inaccuracies in the data, it
had not yet taken sufficient steps to resolve the problems. Moreover, the extent
and origin of the inaccuracies are not clear. Reporting inaccurate results or
results that lack context can undermine USAID’s credibility and impair its ability
to secure the resources it needs to accomplish its objectives.

USAID/Ghana agreed with all six recommendations in the report. Management
decisions have been reached on all recommendations, and final action has been
taken on three.

Audit of USAID’s Social Marketing and Behavior Change
Interventions for HIV/AIDs, Reproductive and Sexual Health and Child
Survival in Cambodia Project (Report No. 5-442-11-006-P). To improve
the health of poor and vulnerable people in Cambodia, USAID initiated the Social
Marketing and Behavior Change Interventions for HIV/AIDS, Reproductive and
Sexual Health and Child Survival in Cambodia (SMBCI) Project. This 5-year
project is being implemented through a $15.9 million cooperative agreement
with Population Services International.

The project seeks to increase consistent and correct use of high‐quality health
products and services among priority, at‐risk populations—especially the poor
and vulnerable—to combat HIV/AIDS, improve reproductive health, and provide
clean drinking water. The project’s activities are to (1) increase access to
condoms and other birth control products and oral rehydration solution (ORS);
(2) increase Cambodian national capacity to manage and sustain results over the
long term with reduced dependence on donors; and (3) improve knowledge,
awareness, and supportive attitudes to change behaviors among priority
populations.

The audit determined that, although the project has successfully increased access
to health products (such as birth control products, ORS, and water treatment
tablets) and provided training to individuals and organizations to increase
Cambodian national capacity to address HIV/AIDS, the project has demonstrated
limited impact in improving the health of poor and vulnerable Cambodians. Of
the eight at-risk populations targeted by the project, only one (men who have
sex with entertainment workers) demonstrated a significant positive change in
behaviors through improved knowledge, awareness, and supportive attitudes.
Though two made slight positive changes, two others displayed zero or slightly
negative behavior changes, most being too small to be statistically significant. The
results of targeted interventions for the remaining three at-risk populations were
not reported at all.




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   53
Although the project is making progress in increasing access to health products,
it was too early to tell whether the health of children under age 5—the final
targeted population—had improved through the increased use of ORS and water
treatment tablets. The portion of the project relating to child survival had not
been in place long enough to demonstrate meaningful results at the time of the
audit.

The audit identified some areas for improvement, including the need to
represent birth control products adequately and correctly to beneficiaries.
Specifically, the audit found that outreach teams visiting targeted women in rural
communities mentioned various hormonal birth control products only in passing
before dedicating most of the presentations to the intrauterine device (IUD). In
fact, one staff member relayed that she advocates for the IUD as it protects
against cancer and has no side effects—both major misconceptions that are being
passed on to IUD acceptors. This emphasis on the use of IUDs runs counter to
the project’s intent to dispel misconceptions about hormonal birth control
products. In addition, performance information was sometimes convoluted and
misleading; baselines, targets, and cumulative results were often lacking; and out­
of-date information was sometimes reported as current.

OIG made nine recommendations, and management decisions have been reached
on all but two.


                              Management Capabilities

                                     Information Technology
Audit of USAID’s Compliance With the Federal Information Security
Management Act of 2002 for Fiscal Year 2010 (Report No. A-000-11­
002-P). An audit was conducted to determine whether USAID had
implemented selected security controls for selected information systems in
support of the Federal Information Security Management Act of 2002 (FISMA).18
The audit concluded that USAID had generally implemented selected minimum
security controls for selected information systems as required by FISMA.

Our report contained 26 recommendations to improve USAID’s information
security program and the Agency’s compliance with FISMA. Management
decisions have been reached on all recommendations.




18
     E-Government Act of 2002, P.L. 107-347, Title III



54         USAID OFFICE OF INSPECTOR GENERAL
Audit of USAID’s Computer Network Perimeter Controls (Report
No. A-000-11-001-P). An audit was conducted to determine whether USAID
had implemented controls to protect against unauthorized external access to the
Agency’s computer network.

The audit concluded that USAID had implemented controls to generally protect
against unauthorized access to the Agency’s computer system through the
Internet. Consequently, the report did not contain any audit recommendations.


                           Employee Misconduct
Former USAID Background Investigator Pleads Guilty to Falsifying
Official Records. As reported in our previous semiannual report, OIG special
agents arrested a former background investigator assigned to the USAID Office
of Security after an investigation revealed he had falsified documents associated
with background investigations that he had been assigned to complete. The
former employee pleaded guilty on August 8, 2010, in U.S. District Court for the
District of Columbia to making false official statements; he currently awaits
sentencing.

USAID Executive Officer in Asia Misuses Official Vehicles. OIG
conducted an investigation into allegations that a USAID executive officer was
misusing his official vehicle. OIG found that the employee had accumulated more
than 1,000 miles of improper official vehicle use and driver time, including
transporting family members and friends on shopping trips and to a resort. A
dozen instances of abuse occurred on weekends, during which time the
employee extended his driver’s service after 10 p.m. The employee was
counseled by the mission director to stop abusing his use of the vehicle;
however, he continued to do so on 11 other occasions after his admonishment.
At the end of this reporting period, the executive officer had begun a 30-day
suspension handed down by the Agency.

Personal Services Contractor Indicted and Arrested for
Embezzlement. An individual who was responsible for financial management
activities at USAID Armenia was arrested by OIG special agents after an
investigation revealed he allegedly embezzled more than $19,000 in U.S.
Government funds. The subject, who had directed a commercial bank in
Armenia to send monies owed to USAID to his personal bank account, faces
trial in the U.S. District Court for the District of Columbia.




                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   55
                                  Financial Management
Audit of USAID’s Financial Statements for Fiscal Years 2010 and 2009
(Report No. 0-000-11-001-C). OIG issued an unqualified opinion on USAID’s
FY 2010 and 2009 financial statements and reported one material weakness and
three significant deficiencies in internal control.

OIG reported a material weakness with respect to USAID’s reconciliation of its
fund balance with the U.S. Department of the Treasury. Additionally, significant
deficiencies were reported in the following areas: USAID’s process to reconcile
loan receivables; accounting for and reporting property, plant, and equipment;
and reconciliation of intragovernmental transactions.

OIG recommended that USAID provide changes timely in its crosswalk to the
Department of Health and Human Services to ensure that the Department
charges all third-party transactions to appropriate appropriations; research and
resolve all suspense items within the time stipulated by the U.S. Treasury;
intensify efforts to reconcile loan balances with USAID’s loan accounting services
provider (i.e., PNC/Midland); ensure that all transactions transmitted to USAID’s
financial information system are properly posted; and complete debt
restructuring reconciliations within 90 days after PNC/Midland updates its
records.

Additionally, OIG recommended developing and implementing procedures to
ensure that adequate supporting documentation is maintained for all purchases,
transfers, and dispositions of property, plant, and equipment, and that
communication between USAID’s Overseas Management Division and Financial
Management Division is maintained to ensure that all the equipment is reconciled
annually and that disposed property and equipment are removed from its
financial records in a timely manner.


                             Management Accountability
Review of the Bureau for Democracy, Conflict and Humanitarian
Assistance’s use of Compensatory Time (Report No. 2-000-11-001-S).
OIG’s review of procedures followed by the Bureau for Democracy, Conflict,
and Humanitarian Assistance (DCHA) in approving compensatory time found
that managers did not follow applicable USAID directives for approving time.

On the basis of data obtained from the Office of the Chief Information Officer,
OIG noted that greater than 80 percent of the more than 4,300 hours of
compensatory time the bureau’s employees earned in the first 6 months of 2010
were not requested using Agency-required procedures. When the correct


56     USAID OFFICE OF INSPECTOR GENERAL
process was used, requests and approvals contained errors, were frequently late,
and often provided insufficient information for a DCHA supervisor to determine
the rationale or accuracy of the submission.

OIG noted that Bureau managers should use webTA’s approved premium pay
request facility for all requests to earn compensatory time, as required by
USAID directives. DCHA employees, however, seldom used webTA for such
requests. Lack of up-to-date policy guides contributed to this condition, and
DCHA employees used a multitude of alternative approval processes, including
an obsolete form. As a result, the accuracy of compensatory hours recorded in
2010 is unclear.

Additionally, OIG found that bureau supervisors needed to do a better job
approving compensatory time. Of the 47 requests submitted in webTA,
37 contained deficiencies. Supervisors approved late, poorly justified, and
miscoded requests. Feedback from DCHA supervisors and employees suggests a
wide variety of attitudes toward the use and approval of compensatory time.
This factor may have contributed to oversight breakdowns, which in turn may
have diminished management’s effectiveness in ensuring assignments were
accomplished in a timely manner and without the use of overtime. OIG made
four recommendations to improve the bureau’s process for approving
compensatory time, including one directed to USAID’s Office of Human
Resources to update policies and the applicable USAID Web page to reiterate
the requirement for using webTA for requesting and approving this time.
Management decisions have been made on all recommendations.


                         Expanding Accountability
Corruption and lack of accountability are major impediments to development.
These issues threaten to negate years of economic growth, especially in the
areas of the world subject to political instability and violence. OIG audits and
investigations afford two methods of safeguarding USAID funds; however, OIG
pursues additional methods to promote accountability and transparency. For
example, OIG works with supreme audit institutions (SAIs) to expand their
capabilities and provides training in cost principles and fraud awareness.

Expanding Supreme Audit Institutions’ Capabilities. OIG continues to
work closely with selected SAIs in countries where USAID is present. SAIs are
the principal government audit agencies in the recipient countries and are often
the only organizations that have a legal mandate to audit the accounts and
operations of their governments. Thus, SAIs may be called upon to audit funds
provided to host governments by USAID or other donors. OIG and USAID
missions have signed memorandums of understanding (MOUs) with SAIs in
21 countries.



                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   57
Before SAIs can conduct audits for USAID, they must have professional capacity
and independence. OIG often provides training to SAIs in how to conduct
financial audits of USAID funds in accordance with USAID guidelines and U.S.
Government auditing standards. This training helps build capacity within SAIs to
enhance their ability to audit all public funds. The SAI, the USAID mission, and
OIG then sign an MOU detailing standards and procedures to be used in auditing
USAID funds provided to the host government.

As part of the shift to use host-country systems to deliver foreign assistance,
USAID must now rely more heavily on SAIs and continue working to build their
capacities.

Training USAID Staff and Others. OIG remains committed to preventing
losses of development funds and continues to provide training in cost principles
and fraud awareness to USAID employees, contractors, grantees, SAIs, and
auditors from local accounting firms.

Cost Principles Training. USAID’s contracts and grants include cost principles
provisions that define the types of costs can be legitimately charged to USAID
programs. Although the full text of these cost principles is contained in the
Federal Acquisition Regulation (FAR) and various Office of Management and
Budget (OMB) circulars, USAID agreements generally contain only a single
sentence that refers to these principles. To increase awareness of–and
compliance with–cost principles and to promote the highest standards, OIG
conducts training for overseas USAID staff, contractors, grantees, and others.
This training provides a general overview of U.S. Government cost principles and
examples of actual instances that demonstrate concepts such as reasonableness,
allocability, allowability, and various specific cost principles (e.g., travel expenses
or entertainment costs). The training also includes financial audit requirements
and accountability issues.

During this reporting period, OIG provided training in cost principles and related
subjects in 5 countries and trained approximately 300 individuals.

Fraud Awareness Training. OIG provided 94 fraud awareness training
sessions to 2,303 individuals during the reporting period.


                  Accountability Over Contractors and Grantees
USAID is required by the FAR, the Single Audit Act, 19 OMB circulars, and its
own internal policies and procedures to obtain appropriate and timely audits of
its contractors, grantees, and enterprise funds. OIG provides oversight of these


19
     Single Audit Act of 1984, Public Law 98–502, as amended.



58         USAID OFFICE OF INSPECTOR GENERAL
audit activities, ensuring that audits are conducted in accordance with
appropriate quality standards and that they enhance accountability over USAID
contractors and grantees. Also, in accordance with provisions in USAID
contracts and agreements, OIG reviews reports of audits conducted on foreign
organizations that receive USAID funds.

Audits of U.S.-Based Contractors. U.S.-based contractors carry out many
USAID-funded activities. The Defense Contract Audit Agency (DCAA) conducts
audits, reviews, and preaward surveys of U.S.-based contractors on USAID’s
behalf. OIG then reviews DCAA’s reports and transmits them to USAID
management.

During this reporting period, OIG reviewed and transmitted four DCAA reports
covering approximately $456 million in costs (with questioned costs of more
than $40 million).

Audits of U.S.-Based Grantees and Enterprise Funds. U.S.-based
nonprofit organizations also receive significant USAID funds to implement
development programs overseas. As required by OMB Circular A–133, “Audits
of States, Local Governments, and Non-Profit Organizations,” nonfederal
auditors perform annual financial audits of USAID grantees that spend over
$500,000 of federal funds annually. These auditors are required to identify:

•      Significant deficiencies involving major programs.
•      Material noncompliance with laws and regulations.
•      Known fraud affecting a federal award.
•      Misrepresentations of the status of prior audit findings.
•      Reasons why the auditor’s report on compliance for major programs is other
       than unqualified.

OIG provides oversight for the nonfederal auditors performing these audits and
reviews to determine whether auditors prepared audit reports in accordance
with reporting requirements of OMB Circular A–133. OIG also conducts quality-
control reviews to determine whether the underlying audits complied with OMB
A–133 audit requirements and generally accepted government auditing
standards. In some instances, OIG contacts with DCAA to perform special
financial audits and, with independent public accounting firms, to perform
Agency-contracted financial audits of U.S.-based grantees.

Enterprise funds are U.S.-based nonprofit organizations established under the
Support for East European Democracy Act of 1989 (SEED Act).20 USAID has
established ten enterprise funds, nine of which invest in countries in Eastern



20
     Public Law 101–179.



                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   59
Europe and Eurasia and the other invests in South Africa. Enterprise funds are
subject to annual audits of financial statements performed by private accounting
firms and reviewed by OIG.

OIG activities during the reporting period:

•    Issued 77 desk reviews 21 for A-133 Single Audit Act reports and issued
     30 desk reviews for Agency-contracted audit reports covering USAID funds
     of approximately $3.3 billion spent by U.S.-based grantees.
•    Completed 13 quality control reviews covering over $12 million in grantee
     expenditures.
•    Issued four reports completed by DCAA, covering approximately
     $456 million spent by U.S.-based grantees.
•    Identified nearly $65 million in questioned costs.
•    Issued five enterprise fund audits, covering more than $455 million in grantee
     expenditures.

Audits of Foreign-Based Contractors and Grantees. OMB Circular A–
133 does not apply to foreign-based contractors and grantees. Given the high-
risk environment in which USAID operates, however, USAID has extended
similar audit requirements to its foreign-based contractors and grantees through
standard provisions included in grants, cooperative agreements, and contracts
through OIG’s Guidelines for Financial Audits Contracted by Foreign Recipients
(February 2009). Financial audits of foreign-based contractors and grantees are
normally conducted by independent audit firms approved by OIG’s overseas
regional offices.

Under the recipient-contracted audit programs, audits are required for all
foreign nonprofit organizations that spend $300,000 or more per their FY.
USAID may also request financial audits of nonprofit organizations that fall below
the $300,000 threshold.

For example, at USAID/Southern Africa, OIG reviewed a recipient-contracted
audit of a cooperative agreement. The objective of the cooperative agreement
was to provide support for a program in HIV/AIDS treatment. This support
includes HIV/AIDS clinical management, care and support services for HIV-
infected, uninsured individuals in public sector government facilities and areas
where the South African Government Anti Retroviral Therapy roll out has not
yet reached or where there is high demand. The audit report included more
than $2 million in ineligible questioned costs, four significant deficiencies in
internal control, and two instances of material noncompliance. The majority of



21
   Desk reviews involve a limited review of a financial audit report to determine whether the
report meets applicable audit standards and appears to be accurate and logical.



60      USAID OFFICE OF INSPECTOR GENERAL
the questioned costs were related to indirect costs. Indirect costs are business
expenses that cannot be associated with a specific project or product, such as
utility costs and rent. No management decisions have been reached on the audit
recommendations.

USAID’s financial audit requirements concerning its contracts, grants, and
cooperative agreements are normally satisfied under the recipient-contracted
audit program. However, agency-contracted audits and reviews may be initiated
by either USAID or OIG to provide additional audit coverage or address specific
concerns.

During the reporting period, OIG issued five reports that disclosed six material
instances of noncompliance with Executive Order 13224 in which the auditees
(1) did not obtain USAID’s vetting approval for its local suppliers,
subcontractors, and subgrantees and (2) did not insert the mandatory
antiterrorism clauses in its subcontracts. These noncompliance instances
resulted in $1.3 million in questioned costs. Of the five reports, four involved
foreign-based auditees and one involved a U.S.-based auditee. For three auditees,
the programs ended and USAID/West Bank and Gaza has no current awards
with these auditees. USAID/West Bank and Gaza took corrective action with
one auditee and performed the required vetting procedures. No management
decision has been reached for the fifth auditee.

At USAID/Southern Africa, OIG reviewed an agency-contracted report of a
cooperative agreement. The objective of the cooperative agreement was to
support the provision of sustainable high-quality services in HIV/AIDS in
South Africa through strategic approaches that address specific needs with
practical and pragmatic business plans for implementation. The report included
about $1.8 million in questioned costs and 85 deficiencies for the recipient and
its 10 subrecipients to correct. The majority of the questioned costs were
related to the subrecipients not maintaining adequate supporting documentation.
Specifically, one subrecipient did not obtain supporting documentation from
mentoring and training costs that resulted in approximately $600,000 in
unsupported questioned costs. Another subrecipient could not provide an
explanation for numerical differences between its accounting records and
monthly financial reports that resulted in more than $400,000 in unsupported
questioned costs. No management decisions have been reached on the audit
recommendations.

OIG reviews all audit reports and, if they are found to be in compliance with the
Guidelines for Financial Audits Contracted by Foreign Recipients, transmits the
reports to the appropriate USAID mission for corrective actions. Audit firms are
also notified of any problems identified in the audit reports.

During this reporting period, OIG reviewed and transmitted 129 audits of
foreign-based organizations, covering over $369 million in expenditures and


                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   61
resulting in more than $10 million in questioned costs. OIG also completed
13 quality-control reviews to ensure that the audits were in accordance with
appropriate audit standards.




62     USAID OFFICE OF INSPECTOR GENERAL
                     SIGNIFICANT FINDINGS
                                     USADF
United States African Development Foundation’s Financial Statement
Audit for Fiscal Year 2010 and 2009 (Report No. 0-ADF-11-002-C). An
audit of USADF’s financial statements for FY 2010 and 2009 was performed by a
nonfederal audit firm under OIG oversight. The audit firm provided an
unqualified opinion on the financial statements. Moreover, the report contained
no findings or recommendations for USADF management relative to
noncompliance or material weaknesses or significant deficiencies in internal
control.

Audit of the African Development Foundation’s Activities in Nigeria
(Report No. 7-ADF-11-002-P). Established in 1980, USADF currently
provides grants of up to $250,000 to local community groups and grassroots
initiatives in 21 African countries. In Nigeria, the most populous country in
Africa, 22 USADF works in six states with Diamond Development Initiatives
(DDI), a locally owned nonprofit organization.

USADF currently has 39 active grants in Nigeria with funding of more than
$5 million for various economic and social sectors implemented by Nigerians in
their local communities. These grant fund activities include the construction of
low-cost housing, the production and processing of various goods (e.g., rice,
nuts, sorghum, dairy products, and leather), metalworking, food and beverage
catering, and garment tailoring. OIG selected ten grants with a total funding of
$1.8 million for the audit.

OIG concluded that USADF/Nigeria has not implemented and monitored the
ten key projects in accordance with required policies and regulations to ensure
that project objectives were achieved. In one program, according to the
memorandum of understanding signed on September 24, 2004, between DDI
and USADF, 156 houses for low-income civil servants were to be built in
13 local government areas in Kano State by September 2009. The audit found
that construction was delayed and that many of the completed houses were still
empty a full year after completion. Only 3 out of 90 built by September 2010
were occupied, and those were allocated to ineligible beneficiaries (i.e., state
government officials rather than low-income civil servants). Additionally, under
the program each owner was required to pay a mortgage, but no payments had
ever been made. The quality of the constructed houses was not adequate and
showed signs of structural failure (cracked and unplastered walls, visible moisture




22
     CIA World Factbook.



                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   63
damage, vandalized ventilation pipes etc.) partly because of poor-quality cement
and poor soil characteristics in the areas chosen.

The audit also determined that several grantee projects were not proceeding
according to plan and encountered problems that may have prevented them
from achieving their goals. The conditions described occurred primarily because
DDI had not provided adequate assistance to grantees, nor did they or USADF
provide adequate oversight of project activities. For example, DDI’s monitoring
plan did not specify when site visits would be conducted or the types of
information that would be verified or provided during these site visits. There was
also a lack of day-to-day oversight of DDI’s and grantees’ activities by the
USADF representative in Nigeria.

OIG issued 15 recommendations, and final action has been taken on all of them.

Audit of United States African Development Foundation’s
Compliance with Provisions of the Federal Information Security
Management Act for Fiscal Year 2010 (Report No. A-ADF-11-003-P).
An audit was conducted to determine whether USADF had mitigated security
vulnerabilities that resided on its network infrastructure and implemented
selected security controls for its information systems as required by the Federal
Information Security Management Act of 2002 (FISMA).23

The audit found that USADF had not fully complied with FISMA requirements.
The audit made eight recommendations to improve USADF’s information
security program. A management decision was reached on all recommendations.


                                                IAF
Audit of the Inter-American Foundation’s Financial Statement’s for
the Fiscal Year Ended September 30, 2010 (Report No. 0-IAF-11-003­
C). An audit of the IAF’s financial statements for the FY ended September 30,
2010 was performed under OIG oversight by a nonfederal audit firm. The audit
firm provided an unqualified opinion on the financial statements. Moreover, the
report did not contain any findings or recommendations for IAF management
relative to noncompliance or material weaknesses or significant deficiencies in
internal control.




23
     E-Government Act of 2002, P.L. 107-347, Title III



64         USAID OFFICE OF INSPECTOR GENERAL
         Significant Recommendations Described
             Previously Without Final Action
                          USAID
                          October 1, 2010–March 31, 2011

Section 5(a)(3) of the Inspector General Act of 1978 requires each inspector
general to identity each significant recommendation described in previous
semiannual reports on which corrective action has not been completed.

                                                                                                        Final
       Report                                         Issue          Rec.       Management             Action
                           Subject of Report
       Number                                         Date           No.        Decision Date          Target
                                                                                                        Date

                                                                        2           01/15/09           09/11
                        Audit of Engender
                                                                        3           01/15/09           09/11
                        Health's Management
 1-511-09-004-P 24                                  01/15/09            5           01/15/09           09/11
                        of Activities Financed
                                                                        7           04/27/09           09/11
                        by USAID/Bolivia
                                                                        8           04/27/09           09/11

                        Audit of USAID's
                        Financial Statements
  0-000-10-001-C                                    11/13/09            1           11/13/09           09/11
                        for Fiscal Years 2009
                        and 2008
                        Audit of USAID's
                        Compliance with the
                                                                        7           11/17/09           09/11
                        Federal Information
  A-000-10-001-P                                    11/17/09           15           11/17/09           12/12
                        Security Management
                                                                       16           11/17/09           09/11
                        Act for Fiscal Year
                        2009
                        Audit of USAID's
                        Compliance with
                        Section 522 of the
  A-000-10-002-P                                    12/31/09            8           12/31/09           04/11
                        Consolidated
                        Appropriations Act of
                        2005




24
     The vendor has appealed to the Procurement Executive.




                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011     65
                                                                                            Final
                                                          Issue     Rec.   Management      Action
 Report Number                 Subject of Report
                                                          Date      No.    Decision Date   Target
                                                                                            Date
                            Audit of USAID/West
                            Africa's P.L. 480 Title II
                            Food Aid in Support of
 7-685-10-003-P             the Livelihood               02/11/10     5      02/11/10      05/11
                            Expansion and Asset
                            Development Project
                            in Sierra Leone
                            Audit of
                            USAID/Jordan's
                            Sustainable                               6      08/26/10      08/11
 6-278-10-004-P                                          03/31/10
                            Achievement of                            7      08/26/10      08/11
                            Business Expansion and
                            Quality Project
                                                                     1       03/31/10      05/11
                                                                     2       09/29/10      09/11
                                                                     3       09/29/10      09/11
                                                                     4       09/29/10      09/11
                            Audit of USAID's
                                                                     5       09/29/10      09/11
                            Internally Displaced
     E-267-10-001-P                                      03/31/10    6       03/31/10      05/11
                            Persons Activities in
                                                                     8       09/29/10      09/11
                            Iraq
                                                                     9       09/29/10      09/11
                                                                    10       09/29/10      09/11
                                                                    11       09/29/10      09/11
                                                                    12       09/29/10      09/11
                                                                     1       05/12/10      05/11
                            Audit of
                                                                     2       05/12/10      05/11
                            USAID/Southern
                                                                     3       05/12/10      05/11
     4-674-10-005-P         Africa's Regional            05/12/10
                                                                     4       05/12/10      05/11
                            HIV/AIDS Program in
                                                                     5       05/12/10      05/11
                            Botswana
                                                                     6       05/12/10      05/11
                            Audit of
                                                                     1       05/21/10      04/11
                            USAID/Afghanistan's
                                                                     2       05/21/10      04/11
     5-306-10-009-P         Oversight of Private         05/21/10
                                                                     6       05/21/10      04/11
                            Security Contractors in
                                                                     7       05/21/10      04/11
                            Afghanistan
                            Audit of USAID's
                                                                     1       06/04/10      06/11
     9-000-10-007-P         Response to the Global       06/04/10
                                                                     2       06/04/10      06/11
                            Food Crisis




66         USAID OFFICE OF INSPECTOR GENERAL
                                                                                                 Final
   Report                                      Issue          Rec.       Management             Action
                   Subject of Report
   Number                                      Date           No.        Decision Date          Target
                                                                                                 Date
                 Audit of
                 USAID/Uganda's                                 1            06/15/10           06/11
                 PEPFAR-Funded                                  2            06/15/10           06/11
9-000-10-008-P                               06/15/10
                 Activities for the                             3            06/15/10           06/11
                 Prevention of                                  4            06/15/10           06/11
                 Transmission of HIV
                 Review of School and
                 Health Clinic Buildings
                 Completed Under the
5-306-10-002-O                               06/24/10           2            06/24/10           05/11
                 Schools and Clinics
                 Construction and
                 Refurbishment Program
                 Review of USAID's
                 Internally Displaced                           1            06/28/10           05/11
5-391-10-001-S                               06/28/10
                 Persons Programs in                            3            06/28/10           05/11
                 Pakistan
                 Review of USAID's
                 Effectiveness in                               1            07/19/10           07/11
9-000-10-001-S   Obtaining the Benefits      07/19/10           2            07/19/10           07/11
                 of Its Research and                            3            07/19/10           07/11
                 Development Efforts
                 Audit of
                 USAID/Afghanistan's
                                                                1            07/29/10           05/11
5-306-10-011-P   Alternative                 07/29/10
                                                                2            07/29/10           05/11
                 Development Program
                 Expansion, South West
                                                                1            07/29/10           06/11
                                                                3            07/29/10           06/11
                 Audit of USAID/Kenya's                         4            07/29/10           06/11
                 PEPFAR-Funded                                  5            07/29/10           06/11
7-615-10-010-P   Activities for the          07/29/10           6            07/29/10           06/11
                 Prevention of                                  7            07/29/10           06/11
                 Transmission of HIV                            8            07/29/10           06/11
                                                                9            07/29/10           06/11
                                                               10            07/29/10           06/11
                 Review of USAID's                              2            08/12/10           06/11
9-000-10-002-S                               08/12/10
                 Travel Card Program                            3            08/12/10           06/11
                 Audit of                                       4            08/24/10           08/11
6-268-10-006-P   USAID/Lebanon's Rule        08/24/10           6            08/24/10           08/11
                 of Law Program                                 7            08/24/10           08/11




                            SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011     67
                                                                                        Final
       Report                                         Issue     Rec.   Management      Action
                              Subject of Report
       Number                                         Date      No.    Decision Date   Target
                                                                                        Date
                           Audit of
                           USAID/Pakistan's Family
     5-391-10-012-P                                  08/31/10    1       08/31/10      08/11
                           Advancement for Life
                           and Health Program
                           Audit of USAID/
                                                                 7       09/01/10      05/11
     4-611-10-007-P        Zambia’s Food Security    09/01/10
                                                                 8       10/06/10      05/11
                           Activities
                                                                 1       10/25/10      10/11
                                                                 2       09/24/10      09/11
                           Audit of USAID's Cash­                3       09/24/10      09/11
     1-521-10-009-P        for-Work Activities in    09/24/10    4       09/24/10      09/11
                           Haiti                                 5       10/25/10      10/11
                                                                 6       10/25/10      10/11
                                                                 7       09/24/10      09/11
                           Review of Security
                           Costs Charged to                      3       02/11/11      05/11
     5-306-10-002-S                                  09/29/10
                           USAID Projects in                     4       09/29/10      05/11
                           Afghanistan




68        USAID OFFICE OF INSPECTOR GENERAL
   Significant Recommendations Described
       Previously Without Final Action
                USADF and IAF
                    October 1, 2010–March 31, 2011
                                                                                       Final Action
   Report                                     Issue       Rec. Management
                   Subject of Report                                                      Target
   Number                                     Date        No. Decision Date
                                                                                           Date
                 Follow-up Audit of the
                 Awarding and
                 Monitoring of Grants                      16        06/12/08             12/11
7-ADF-08-006-P                              06/12/08
                 by the African                            18        06/12/08             12/11
                 Development
                 Foundation
                                                            1        09/17/08             12/11
                 African Development                        5        01/27/09             12/11
7-ADF-08-007-P   Foundation/Ghana           9/17/08         7        09/17/08             12/11
                 Project Activities                        14        09/17/08             12/11
                                                           17        09/26/08             12/11
                 Audit of Inter-American
                 Foundation’s
                 Compliance With
                 Provisions of the
A-IAF-10-003-P                               9/22/10        1         09/22/10             11/11
                 Federal Information
                 Security Management
                 Act for Fiscal Year
                 2010




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011    69
         Investigative Activities Including Matters
           Referred to Prosecutive Authorities
               USAID, USADF, IAF, and MCC
                              October 1, 2010–March 31, 2011

                   Workload                                                Civil Actions

Investigations opened                          57        Civil referrals                             3
Investigations closed                          48        Civil declinations                          0
                                                         Complaints                                  0
                                                         Judgments                                   0
                                                         Settlements                                 1
                                                         Total                                       4

               Criminal Actions                                    Administrative Actions 25

Prosecutive referrals                          15        Reprimands / demotions                      1
Prosecutive declinations                       11        Personnel suspensions                       0
Arrests                                         3        Resignations / terminations                 5
Indictments                                     4        Recoveries                                  1
Convictions                                     5        Savings                                     4
Sentencing                                      0        Suspensions / debarments                   26
Fines / assessments                             0        Systemic changes                            0
Restitutions                                    0        Other                                       4
Total                                          38        Total                                      41
Judicial recoveries (criminal and civil)                                                   $50,600,000
Administrative recoveries                                                                     $42,285
Savings                                                                                    $10,121,022
Total savings / recoveries                                                             $60,763,307




25
     OIG made 48 administrative referrals during the reporting period.



70         USAID OFFICE OF INSPECTOR GENERAL
                   Fraud Awareness Briefings
                     Conducted Worldwide
                           USAID*
                        October 1, 2010–March 31, 2011
Month           Location                Sessions       Attendees                USAID Affiliation


        Guatemala City, Guatemala            1              20           Personnel
        Tegucigalpa, Honduras                1              22           Personnel
OCT     Kabul, Afghanistan                   4               9           Personnel
        Islamabad, Pakistan                  4             135           Personnel and contractors
        Washington, DC                       3              41           Contractors



        Bangkok, Thailand                    4              71           Contractors
        Quezon City, Philippines             1              45           Contractors
        Kabul, Afghanistan                   3             125           Personnel and contractors
NOV     Islamabad, Pakistan                  1               3           Contractors
        San Salvador, El Salvador            1              10           Personnel
        Washington, DC                       2              71           Contractors




DEC     Washington, DC                       4             185           Personnel and contractors
        Kabul, Afghanistan                   2              13           Personnel
        Islamabad, Pakistan                  1               7           Personnel




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   71
Month                Location                 Sessions   Attendees           USAID Affiliation


            Phnom Penh, Cambodia                 3          152        Contractors
            Washington, DC                       3          67         Contractors
 JAN        Kabul, Afghanistan                   3          16         Personnel
            Islamabad, Pakistan                  1           8         Personnel and contractors
            Rabat, Morocco                       2          27         Personnel



            Accra, Ghana                         3          75         Personnel and contractors
            Kabul, Afghanistan                   4          15         Personnel
            Islamabad, Pakistan                  4          156        Personnel
            San Salvador, El Salvador            3          25         Contractors
 FEB        Port-Au-Prince, Haiti                3          81         Personnel
            Tbilisi, Georgia                     5          163        Personnel and contractors
            Yerevan, Armenia                     1          46         Personnel
            Pretoria, South Africa               1          19         Contractors
            Washington, DC                       1          32         Personnel



           San Salvador, El Salvador             1           6         Contractors
           São Paulo, Brazil                     1          66         Personnel and contractors
           Port-Au-Prince, Haiti                 3          31         Personnel and contractors
           Maputo, Mozambique                    1          80         Contractors

 MAR       Johannesburg, South Africa            1          10         Personnel
           Washington, DC                        2          104        Personnel and contractors
           Kabul, Afghanistan                    3          14         Personnel
           Islamabad, Pakistan                   6          80         Personnel and contractors
           Jakarta, Indonesia                    5          236        Personnel and contractors
           Yerevan, Armenia                      2          37         Contractors


              TOTAL                             94        2,303

*OIG conducted no fraud awareness training for USADF, IAF, or MCC in the reporting period.




72        USAID OFFICE OF INSPECTOR GENERAL
        Incidents in Which OIG Was Refused
              Assistance or Information
               USAID, USADF, and IAF
                     October 1, 2010–March 31, 2011

Section 5(a)(4) of the Inspector General Act requires the identification of any
reports made to the head of agency describing incidents in which information or
assistance was refused or not provided.

During this reporting period, there were no reports to the USAID
Administrator or to the Board of Directors of USADF or IAF regarding
instances in which information or assistance was unreasonably refused or not
provided.




                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   73
                                          Financial Audits
             Associated Questioned Costs, Unsupported Costs, and
           Value of Recommendations That Funds Be Put to Better Use
                                                   USAID
                                  October 1, 2010–March 31, 2011
                                                                                Amt. of
        Report              Date of                                                           Type of
                                                     Report Title               Findings
        Number              Report                                                            Findings
                                                                                ($000)
                                            Programs and Operations
                                          Audit of USAID's Financial
     0-000-11-001-C         11/12/10      Statements for Fiscal Years 2010
                                          and 2009
                                          Foreign-Based Organizations
                                          Audit of Foundation for
                                          Independent Radio Broadcasting,
     0-118-11-001-R         10/05/10      under USAID Agreement No. 118­
                                          A-00-04-00075 for Fiscal Year
                                          Ended December 31, 2009
                                          Audit of RCO "GOLOS," under
                                          USAID Agreement No. 118-A-00­
     0-118-11-002-R         10/06/10
                                          07-00028-00, for Fiscal Year Ended
                                          December 31, 2009
                                          Audit of Inter-Regional Public
                                          Foundation "Siberian Civic
     0-118-11-003-R         10/13/10      Initiatives Support Center" under
                                          Multiple Agreements for Fiscal Year
                                          Ended December 31, 2009
                                          Audit of Center for Anti-
                                          Corruption Research and Initiative
                                          "Transparency International–R,"
     0-118-11-004-R         10/09/10
                                          under USAID Agreement No. 118­
                                          A-00-06-00082 for Fiscal Year
                                          Ended December 31, 2009
                                          Audit of Krasnodar Regional Non-
                                          Profit Organization "Southern
     0-118-11-005-R         10/15/10      Regional Resource Center," under
                                          Multiple Agreements for Fiscal Year
                                          Ended December 31, 2009



      BU—Better Use of Funds        QC—Questioned Costs     UN—Unsupported Costs     Note: UN is part of QC




74    USAID OFFICE OF INSPECTOR GENERAL
                                                                            Amt. of
   Report          Date of                                                                    Type of
                                           Report Title                     Findings
   Number          Report                                                                     Findings
                                                                            ($000)
                              Audit of The Institute for Urban
                              Economics (IUE) under Multiple
0-118-11-006-R     11/19/10
                              Agreements for Fiscal Year Ended
                              December 31, 2009
                              Audit of Foundation Open Society
                              Institute Macedonia under Multiple
0-165-11-007-R     11/01/10
                              Agreements for Fiscal Year Ended
                              December 31, 2009
                              Audit of Macedonia Primary
                              Education Program under USAID
                              Agreement No. 165-A-00-06­
0-165-11-008-R     11/24/10
                              00101-00, for the Period from
                              October 1, 2006, to December 31,
                              2009
                              Audit of Concern Worldwide Ltd.
                              of Ireland under Multiple
0-000-11-009-R     11/18/10
                              Agreements for Fiscal Year Ended
                              December 31, 2009
                              Audit Report of Solidarites
                              International, under Multiple                    664                QC
0-000-11-010-R     12/15/10
                              Agreements for Fiscal Year Ended                 664                UN
                              December 31, 2009
                              Audit Report of Norwegian
                              Refugee Council, under USAID
0-000-11-011-R     12/21/10                                                     5                 QC
                              Multiple Agreements, for Fiscal
                              Year Ended December 31, 2009
                              Audit of the New Eurasia
                              Foundation, under Multiple
0-118-11-012-R     12/01/10
                              Agreements for Fiscal Year Ended
                              December 31, 2009
                              Audit Report of Medair, under
                                                                                3                 QC
0-000-11-013-R     12/01/10   Multiple Agreements for Fiscal Year
                                                                                3                 UN
                              Ended December 31, 2008
                              Audit of Center for Social and
                              Labor Rights under USAID
0-118-11-014-R     12/03/10   Agreement No. 118-A-00-04­
                              00047, for the Fiscal Year Ended
                              December 31, 2009
                              Audit of AVSI Foundation, under
                              USAID Agreement No. DFD-G-00­                     18                QC
0-000-11-015-R     12/17/10
                              07-00030-00 for Fiscal Year Ended                 18                UN
                              December 31, 2007




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs             Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        75
                                                                               Amt. of
        Report              Date of                                                            Type of
                                                     Report Title              Findings
        Number              Report                                                             Findings
                                                                               ($000)
                                          Audit of AVSI Foundation, under
                                          USAID Agreement No. DFD-G-00­
     0-000-11-016-R         12/06/10
                                          07-00030-00, for Fiscal Year Ended
                                          December 31, 2008
                                          Audit of the AVSI Foundation,
                                          under USAID Agreement No.
     0-000-11-017-R         12/09/10
                                          DFD-G-00-05-00195-00 for Fiscal
                                          Year Ended December 31, 2005
                                          Audit of the AVSI Foundation,
                                          under USAID Agreement No.
     0-000-11-018-R         12/09/10
                                          DFD-G-00-05-00195-00 for Fiscal
                                          Year Ended December 31, 2007
                                          Audit of the AVSI Foundation,
                                          under USAID Agreement No.
     0-000-11-019-R         12/29/10
                                          DFD-G-00-05-00195-00, for Fiscal
                                          Year Ended December 31, 2008
                                          Audit Report of the Fund for
                                          Sustainable Development, under
     0-118-11-020-R         12/17/10      USAID Agreement No. 118-A-00­
                                          06-00060-00, for the Year Ended
                                          December 31, 2009
                                          Audit Report of Handicap
                                          International under Multiple
     0-000-11-021-R         12/20/10
                                          Agreements for Fiscal Year Ended
                                          December 31, 2009
                                          Audit Report of Veterinaires Sans
                                          Frontieres ASBL, under
                                          Agreements Nos. DFD-G-00-06­
     0-000-11-022-R         12/22/10                                               2              QC
                                          00054-00 and EEM-G-00-04-00013­
                                          00, Fiscal Year Ended
                                          December 31, 2009
                                          Audit of Save the Children UK
     0-000-11-023-R         01/11/11      under Multiple Agreements for the        3              QC
                                          Fiscal Year Ended March 31, 2009
                                          Audit of the AVSI Foundation,
                                          under USAID Agreement No.
     0-000-11-024-R         01/14/11
                                          DFD-G-00-05-00195-00, for Fiscal
                                          Year Ended December 31, 2006




      BU—Better Use of Funds        QC—Questioned Costs     UN—Unsupported Costs       Note: UN is part of QC




76    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
  Report           Date of                                                                   Type of
                                           Report Title                    Findings
  Number           Report                                                                    Findings
                                                                           ($000)
                              Audit Report of Action Contre La
                              Faim, under USAID Multiple                      484                 QC
0-000-11-025-R     01/12/11
                              Agreements, for Fiscal Year Ended               484                 UN
                              December 31, 2009
                              Audit Report of Save the Children
                              UK, under USAID Multiple
0-000-11-026-R     01/12/11
                              Agreements for Fiscal Year Ended
                              December 31, 2009
                              Audit Report of Medair, under
                              USAID Multiple Agreements for
0-000-11-027-R     01/21/11
                              Fiscal Year Ended December 31,
                              2009
                              Audit of the Centers for Civic
                              Initiatives, under USAID
0-000-11-028-R     02/09/11   Agreement No. 168-A-00-08­
                              00104-00, for Fiscal Year Ended
                              December 31, 2009
                              Audit Report of German Agro
                              Action, Under USAID Multiple
0-000-11-029-R     02/03/11                                                    77                 QC
                              Agreements for Fiscal Year Ended
                              December 31, 2008
                              Audit Report of Medair, under
0-000-11-030-R     02/03/11   Multiple Agreements for Fiscal
                              Year Ended December 31, 2007
                              Audit Report of Premiere Urgence,
0-000-11-031-R     02/08/11   under USAID Multiple Agreements                   1                 QC
                              for Fiscal Year Ended June 30, 2009
                              Audit of the Foundation "Gaidar
                              Institute for the Economic Policy,"
0-000-11-032-R     02/14/11   under USAID Agreement No. 118­
                              A-00-00-00130-00, for Fiscal Year
                              Ended December 31, 2009
                              Audit Report of Handicap
                              International under Multiple
0-000-11-033-R     02/16/11
                              Agreements for Fiscal Year Ended
                              December 31, 2008
                              Audit of Krasnodar Regional Non-
                              Profit Organization "Southern
0-118-11-034-R     02/17/11   Regional Resource Center," under
                              Multiple Agreements for the Fiscal
                              Period Ended January 14, 2011




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        77
                                                                                 Amt. of
        Report              Date of                                                              Type of
                                                     Report Title                Findings
        Number              Report                                                               Findings
                                                                                 ($000)
                                          Audit of the AVSI Foundation,
                                          under USAID Agreement No. 617­
     0-000-11-035-R         02/18/11
                                          C-00-08-00007-00, for Fiscal Year
                                          Ended December 31, 2008
                                          Audit of AVSI Foundation, under
     0-000-11-036-R         02/18/11      Multiple Agreements for Fiscal
                                          Year Ended December 31, 2009
                                          Audit of the Certified Expenditures
                                          Report of USAID Resources
                                          Provided Under Contract No.
                                          AID-527-C-08-00010-00
     1-527-11-001-N         01/20/11      "Strengthening Institutions and
                                          Policies" Managed by Consultandes
                                          S.A. for the Period From
                                          September 18, 2008, to
                                          December 31, 2009
                                          Audit of the "Family Planning and
                                          Reproductive Health Services"
                                          Program Under USAID's
                                          Cooperative Agreement No. 511­
     1-511-11-001-R         10/14/10
                                          A-00-04-00298-00, Managed by
                                          Center for Research Education and
                                          Services (CIES), for the Year Ended
                                          December 31, 2009
                                          Audit of the Financial Statements of
                                          the Government of Honduras
                                          Resources Under the Trust Fund
     1-522-11-002-N         02/28/11      Agreement, Managed by
                                          USAID/Honduras, for the Period
                                          From October 1, 2007, to
                                          September 30, 2009
                                          Audit of the Grant Agreement No.
                                          522-0433 "Investing in People:
                                          Healthier and Better Educated
                                          People," Managed by the Honduran
                                                                                   339              QC
     1-522-11-002-R         10/14/10      Secretariat of Health through the
                                                                                    20              UN
                                          Unit for Extension of Coverage and
                                          Financing (UECF) for the Period
                                          From January 1, 2009, to
                                          December 31, 2009




      BU—Better Use of Funds        QC—Questioned Costs      UN—Unsupported Costs        Note: UN is part of QC




78    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
   Report          Date of                                                                   Type of
                                           Report Title                    Findings
   Number          Report                                                                    Findings
                                                                           ($000)
                              Audit of the Fund Accountability
                              Statement of the "Community
                              Health Project," Cooperative
                              Agreement No. 511-A-00-05­
                                                                              240                 QC
1-511-11-003-R     10/20/10   00113-00 NGO Umbrella, Managed
                                                                              235                 UN
                              and Implemented by the Integrated
                              Health Coordination Program
                              (PROCOSI), for the year ended
                              December 31, 2009
                              Audit of Multiple Programs
                              Managed by the Fundacion
                              Comunitaria Centro de                            98                 QC
1-526-11-004-R     10/22/10
                              Informacion y Recursos Para el                   89                 UN
                              Desarrollo (CIRD) for the Year
                              Ended December 31, 2009
                              Audit of Cooperative Agreement
                              "Quality Assurance and Small
                              Business Development Program,"
                              Grant Agreement No. 520-A-00­
1-520-11-005-R     10/22/10   06-00105-00 Managed by
                              Fundacion de Apoyo a la
                              Generacion de Ingresos Locales–
                              Fundacion AGIL (AGIL) for the
                              Period Ended December 31, 2009
                              Closeout Audit of the Fund
                              Accountability Statement of
                              USAID/Honduras Resources,
                              Under the EDUCATODOS
                                                                              399                 QC
1-522-11-006-R     10/25/10   Program, Grant Agreement No.
                                                                              399                 UN
                              522-0436, Managed by the
                              Secretariat of Education (SE), for
                              the Period From January 1, 2009,
                              to September 30, 2009
                              Audit of the Fund Accountability
                              Statement of the USAID
                              Cooperative Agreement No. 596­
                              A-00-06-00092-00, for the
1-596-11-007-R     10/26/10   "Custom Harmonization," Managed
                              by the Secretariat for Economical
                              Integration of Central America
                              (SIECA), for the Year Ended
                              December 31, 2009




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        79
                                                                               Amt. of
                            Date of                                                            Type of
     Report Number                                  Report Title               Findings
                            Report                                                             Findings
                                                                               ($000)
                                          Close-out Audit of the
                                          Cooperative Agreement No. EDG­
                                          A-00-02-00036-00 "Andean Center
                                          of Excellence for Teacher
     1-527-11-008-R         11/04/10      Training," Managed by Universidad      116              QC
                                          Peruana Cayetano Heredia
                                          (UPCH), for the Period From
                                          October 1, 2008, to January 31,
                                          2010
                                          Financial Audit of Cooperative
                                          Agreement No. 526-A-00-07­
                                          00050-00 "Good Governance and          107              QC
     1-526-11-009-R         11/04/10
                                          Political Competition" Managed by       9               UN
                                          Gestion Ambiental (GEAM), for the
                                          Year Ended December 31, 2009
                                          Audit of the Fund Accountability
                                          Statement, USAID Grant
                                          Agreement No. 511-0660, Managed
                                          by the Rural Roads Project
                                          (CC.VV.) for the Strategic
     1-511-11-010-R         11/05/10
                                          Objective Economic Diversification
                                          Increasingly Sustainable in Coca
                                          Leaf-Growing Areas and
                                          Associated Areas for the Year
                                          Ended December 31, 2009
                                          Audit of the Cooperative
                                          Agreement No. 511-A-00-02­
                                          00295-00–Partners for
     1-511-11-011-R         11/08/10      Development; Managed by the
                                          Health Protection Association
                                          (PROSALUD) for the Year Ended
                                          December 31, 2009
                                          Audit of the Fund Accountability
                                          Statement for the "Expanding
                                          Access to Family Planning for
                                          Marginalized Rural Populations"
                                          Program, Cooperative Agreement
     1-522-11-012-R         11/15/10      No. 522-G-00-06-00-304-00,
                                          Managed by the Asociacion
                                          Hondurena de Planificacion de
                                          Familia (ASHONPLAFA), for the
                                          Period From January 1 to
                                          December 31, 2009




       BU—Better Use of Funds       QC—Questioned Costs     UN—Unsupported Costs       Note: UN is part of QC




80    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
  Report           Date of                                                                   Type of
                                           Report Title                    Findings
  Number           Report                                                                    Findings
                                                                           ($000)
                              Audit of the Fund Accountability
                              Statement of the "Entrepreneurial
                              Competitiveness and
                              Strengthening" Program,
1-520-11-013-R     11/19/10   Cooperative Agreement No. 520­
                              A-00-06-00103-00, Managed by the
                              Asociacion Nacional del Cafe
                              (ANACAFE), for the Year Ending
                              December 31, 2009
                              Audit of the Fund Accountability
                              Statement of the Project
                              "Strengthening Health Care and
                              Basic Education" Cooperative
                              Agreement No. 519-A-00-06­
                              00033-00 Between the United
1-519-11-014-R     12/02/10
                              States Agency for International
                              Development (USAID), Mission in
                              El Salvador, and Fundacion
                              Empresarial Para el Desarrollo
                              Educativo (FEPADE), for the Year
                              Ended December 31, 2009
                              Audit of the Cooperative
                              Agreement No. 518-A-00-03­
                              00054 for the Strengthening
                              Democracy in Ecuador Program;
1-518-11-015-R     12/02/10
                              Managed by Corporacion
                              Participacion Cuidadana Ecuador
                              (PC) for the Year Ended
                              December 31, 2009
                              Audit of the Fund Accountability
                              Statement of USAID Resources,
                              Under Cooperative Agreement
                              No. 522-A-00-07-00702-00 for the
                              Strengthening of the
                              Decentralization of Democracy and
1-522-11-016-R     12/09/10
                              Municipal Development (SDMD),
                              Managed by the Association of
                              Municipalities of Honduras
                              (AMHON), for the Period From
                              January 1, 2009, to December 31,
                              2009




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs           Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011     81
                                                                                 Amt. of
        Report              Date of                                                              Type of
                                                     Report Title                Findings
        Number              Report                                                               Findings
                                                                                 ($000)
                                          Audit of the Invest in Education for
                                          the Competitiveness Program,
                                          Grant Agreement No. 517-G-00­
                                          07-00101-00, Administered by the
                                                                                   11               QC
     1-517-11-017-R         12/22/10      American Chamber of Commerce
                                                                                   10               UN
                                          of the Dominican Republic, Inc.
                                          (AMCHAMDR), for the Nineteen-
                                          Month-Period From March 1, 2007,
                                          to September 30, 2008
                                          Audit of the Cooperative
                                          Agreement No. 532-A-00-07­
                                          00020-00 for the "Increased Trade
                                          Competitiveness in Targeted
     1-532-11-018-R         12/30/10      Industries" Project, Managed by the
                                          Jamaica Chamber of Commerce
                                          (JCC), for the Period From
                                          September 4, 2007, to
                                          September 30, 2009
                                          Audit of the Fund Accountability
                                          Statement of USAID Resources
                                          Provided Under Strategic
                                          Agreement No. 596-A-00-06­
                                          00078-00, "Economic Freedom:
                                          Open Diversified Expanding
     1-596-11-019-R         12/30/10      Economies in Central America and
                                          the Dominican Republic-DR­
                                          CAFTA" Managed by Comision
                                          Centroamerica de Ambiente y
                                          Desarrollo (CCAD) for the Period
                                          January 1, 2008, through
                                          December 31, 2009
                                          Close-out Audit of the Strategic
                                          Objective Agreement No. 527­
                                          0404, Managed by the Comision
     1-527-11-020-R         01/07/11      Nacional Para el Desarrollo y Vida       157              QC
                                          Sin Drogas (DEVIDA) for the
                                          Period From January 1 to
                                          December 31, 2009




      BU—Better Use of Funds        QC—Questioned Costs      UN—Unsupported Costs        Note: UN is part of QC




82    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
   Report          Date of                                                                   Type of
                                           Report Title                    Findings
   Number          Report                                                                    Findings
                                                                           ($000)
                              Close out Audit of the Fund
                              Accountability Statement of
                              Cooperative Agreement 520-A-00­
                              05-00084-00 "Sustainability
1-520-11-021-R     02/02/11   Program," Managed by Asociacion
                              Pro-Bienestar de la Familia de
                              Guatemala (APROFAM) for the
                              Period From January 1 to
                              September 30, 2009
                              Financial Audit of Multiple Projects
                              Managed by the Inter-American
                                                                                1                 QC
1-598-11-022-R     02/18/11   Institute of Human Rights (IIHR),
                                                                                1                 UN
                              for the Year Ended December 31,
                              2009
                              Audit of USAID Resources "MYAP-
                              Multiyear Assistance Program"
                              Under PL-480 Title II, Cooperative
                              Agreement No. FFP-A-00-07­
1-520-11-023-R     02/17/11   00010-00, Managed by the
                              Asociacion SHARE de Guatemala
                              (SHARE), For the Period
                              October 1, 2008, through
                              September 30, 2009
                              Audit of USAID Resources
                              Managed by the Caribbean
                              Community Secretariat
                              (CARICOM) Under Regional
1-538-11-024-R     02/28/11   Strategic Objectives Grant
                              Agreement Numbers 538-009-01
                              and 538-010-01 for the Period
                              January 1, 2009, to December 31,
                              2009
                              Audit of the Fund Accountability
                              Statement of the USAID Resources
                              Managed by the Relief Society of
                              Tigray (REST) Under Cooperative
                              Agreement Nos. 663-A-00-02­
4-663-11-001-N     10/26/10                                                     4                 QC
                              00366-00, FFP-A-00-08-00081-00
                              and closeout audit of Agreement
                              No. FFP-A-00-05-00028-00, for the
                              period from January 1, 2008, to
                              December 31, 2008




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        83
                                                                              Amt. of
                            Date of                                                           Type of
     Report Number                                  Report Title              Findings
                            Report                                                            Findings
                                                                              ($000)
                                          Audit of USAID Resources for
                                          Technical Services Provided by
                                          Bethzatha Health Service Private
     4-663-11-001-R         10/25/10      Limited Company under Contract
                                          No. 663-C-00-08-00418-00 for the
                                          period September 30, 2008, to
                                          June 30, 2009
                                          Audit of USAID Resources
                                          Managed by Pricewaterhouse-
                                          Coopers Limited (PwC), Under
                                          Contract Number 623-C-00-09­
                                          00007-00, Orphans and Vulnerable
                                          Children Scholarship Programme
                                          (OVC-SP), for the period
                                          October 1, 2008, to December 31,
                                          2008, and Contract Number 623­
                                          C-00-08-00022-00, Higher
                                          Education Scholarships Programme,
                                          for the period April 23, 2008, to     525              QC
     4-615-11-002-N         11/08/10
                                          December 31, 2008. Closeout           492              UN
                                          Audit of the USAID Resources
                                          Managed by Pricewaterhouse-
                                          Coopers Limited (PwC) Under
                                          Contract Number 623-C-00-07­
                                          00033-00, Kenya AIDS Indicator
                                          Survey, for the period May 25,
                                          2007, to December 31, 2008, and
                                          Contract Number 623-C-00-06­
                                          00007-00, OVC-SP, for the period
                                          October 1, 2007, to December 31,
                                          2008
                                          Audit of USAID Resources
                                          Managed by Foundation for
                                          Community Development, Maputo
                                                                                558              QC
     4-656-11-002-R         11/03/10      Corridor Project under
                                                                                558              UN
                                          Cooperative Agreement No. 656­
                                          A-00-04-00041-00 for the year
                                          ended September 30, 2008




       BU—Better Use of Funds       QC—Questioned Costs     UN—Unsupported Costs      Note: UN is part of QC




84    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
   Report          Date of                                                                   Type of
                                           Report Title                    Findings
   Number          Report                                                                    Findings
                                                                           ($000)
                              Agency Contracted Audit of
                              USAID Resources Managed by
                              Mission for Essential Drugs and
4-615-11-003-N     11/23/10   Supplies (MEDS) under Contract
                              No. 623-C-00-05-00008-00 for the
                              period from April 1, 2008, to
                              August 31, 2009
                              Recipient Contracted Audit of
                              USAID resources managed by
                              American National Red Cross
                              Society and subgranted to Tanzania
                              Red Cross Society under Grant
                              Agreement No. GPO-A-00-04­
4-621-11-003-R     12/09/10   00005-00 for Scaling-Up Together
                              We Can: A Proven Peer Education
                              Program and Community
                              Mobilization Strategy for Youth
                              HIV Prevention Project for the
                              period April 1, 2006, to March 31,
                              2009
                              Audit of the Fund Accountability
                              Statement of USAID Resources
                              Managed by Zambia Agribusiness
                              Technical Assistance Centre Ltd                 262                 QC
4-611-11-004-N     12/03/10
                              under Cooperative Agreement No.                 205                 UN
                              611-A-00-07-00002-00 for the
                              period from September 27, 2007,
                              to March 31, 2009
                              Closeout Audit of USAID
                              resources managed by American
                              National Red Cross Society and
                              sub-granted to Tanzania Red Cross
4-621-11-004-R     12/22/10   Society under Grant Agreement
                              No. GPO-A-00-04-00005-00 for
                              Scaling-Up Together We Can
                              Program for the period April 1,
                              2009, to June 30, 2010
                              Audit of the USAID Resources
                              Contracted to KOKA Koimburi
                              (formerly SCI Koimburi Tucker &
4-615-11-005-N     12/10/10   Company) under Contract No.                       6                 QC
                              623-C-00-08-00015-00 for the
                              period from March 11, 2008, to
                              December 31, 2008




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        85
                                                                               Amt. of
        Report              Date of                                                            Type of
                                                     Report Title              Findings
        Number              Report                                                             Findings
                                                                               ($000)
                                          Agreed-Upon Procedures Review
                                          of USAID Resources Managed by
                                          Private Agencies Collaborating
                                          Together, Inc. (PACT) Malawi
                                                                                   9              QC
     4-612-11-005-R         12/29/10      Community Reach Subgrant
                                                                                   3              UN
                                          Programs under Grant Agreement
                                          No. 690-A-00-07-00004-00 for the
                                          Period October 1, 2007, to
                                          June 30, 2009
                                          Closeout Audit of USAID
                                          Resources Managed by Express
                                          Travel Group under Logistics           136              QC
     4-623-11-006-N         02/07/11
                                          Contract No. 623-C-00-04-00045­        136              UN
                                          00, for the period from January1,
                                          2008, to May 31, 2009
                                          Audit of USAID Resources
                                          managed by Right to Care under
                                          Cooperative Agreement Nos. 674­        29               QC
     4-674-11-006-R         01/05/11
                                          A-00-08-00007-00 and 674-A-00­          5               UN
                                          09-00001-00 for the year ended
                                          September 30, 2009
                                          Audit of USAID Resources
                                          Managed by Justice for All-Prison
                                          Fellowship Ethiopia (JFA-PFE),
     4-663-11-007-R         01/25/11      under Cooperative Agreement No.          3              QC
                                          663-A-00-07-00416-00 for the
                                          period October 1, 2007, to
                                          December 31, 2008
                                          Audit of USAID Resources
                                          Managed by Organization for Social
                                          Services for AIDS (OSSA) under
                                                                                 73               QC
     4-663-11-008-R         02/09/11      Cooperative Agreement No. 663­
                                                                                  2               UN
                                          A-00-08-00423-00 for the period
                                          September 10, 2008, through
                                          December 31, 2009
                                          Audit of USAID Resources
                                          Managed by Association for
                                          Strengthening Agricultural
                                          Research in Eastern and Central
     4-623-11-009-R         02/09/11
                                          Africa (ASARECA) under
                                          Cooperative Agreement 623-A-00­
                                          06-00082-00 for the year ended
                                          December 31, 2009




      BU—Better Use of Funds        QC—Questioned Costs     UN—Unsupported Costs       Note: UN is part of QC




86    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
  Report           Date of                                                                   Type of
                                           Report Title                    Findings
  Number           Report                                                                    Findings
                                                                           ($000)
                              Audit of USAID Resources
                              Managed by the Oromiya
                              Pastoralist Area Development
                              Commission under Strategic                       40                 QC
4-663-11-010-R     02/09/11
                              Objective Grant Agreement                        40                 UN
                              (SOAG) No. 663-016 for the
                              Period November 15, 2006, to
                              July 7, 2008
                              Audit of USAID Resources
                              Managed by Justice for All-Prison
                              Fellowship Ethiopia (JFA-PFE),                    3                 QC
4-663-11-011-R     02/10/11
                              under Cooperative Agreement No.                   1                 UN
                              663-A-00-07-00416-00 for the year
                              ended December 31, 2009
                              Audit of USAID Resources
                              Managed by the Foundation for
                              Professional Development under                    1                 QC
4-674-11-012-R     02/22/11
                              Cooperative Agreement No. 674­                    1                 UN
                              A-00-08-0006-00 for the year
                              ended December 31, 2009
                              Audit of USAID Resources
                              Managed by BroadReach
                              Healthcare Africa (Pty) Ltd under
4-674-11-013-R     02/22/11                                                  2,041                QC
                              Cooperative Agreement No. 674­
                              A-00-08-00008-00 for the year
                              ended December 31, 2008
                              Audit of USAID Resources
                              Managed by Inter-Governmental
                              Authority on Development (IGAD)
4-623-11-014-R     02/23/11   under Limited Scope Grant
                              Agreement No. 6230009.02-03­
                              600082 for the year ended
                              December 31, 2009
                              Close-out Audit of USAID
                              Resources Managed by Skillshare
                              International-Swaziland under                    56                 QC
4-645-11-015-R     02/24/11
                              Grant Agreement No. 690-G-00­                    55                 UN
                              07-00042-00, for the period
                              August 1, 2007, to March 31, 2010




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        87
                                                                               Amt. of
                            Date of                                                             Type of
     Report Number                                   Report Title              Findings
                            Report                                                              Findings
                                                                               ($000)
                                          Audit of USAID Resources
                                          Managed by Olive Leaf Foundation
                                          1989 under Cooperative
                                          Agreements Nos. GPO-A-00-05­           124               QC
     4-674-11-016-R         02/25/11
                                          00007-00 and GPO-A-00-05­              104               UN
                                          00014-00, as well as Sub
                                          Agreement No. P3121A0035 for
                                          the year ended December 31, 2009
                                          Close-out Audit of USAID
                                          Resources Managed by Inter-
                                          Religious Council of Uganda
                                          (IRCU) under Contract No. 617­
     4-617-11-017-R         03/09/11      C-00-06-00292-00 and                   36                QC
                                          Cooperative Agreement No. AID­
                                          617-A-00-10-00002 for the period
                                          January 1, 2009, through March 31,
                                          2010
                                          Audit of USAID Resources
                                          Managed by Comprehensive
                                          HIV/AIDS Management Program
                                          (CHAMP) under Cooperative
                                          Agreement No. 611-A-00-08­
                                          00009-00 and Sub-Agreement No.
                                                                                    3              QC
     4-611-11-018-R         03/09/11      3180-10-01-02 and Closeout Audit
                                                                                    3              UN
                                          of USAID Resources Managed by
                                          CHAMP under Sub-Agreement
                                          Nos. GPHA-00-02-0008-00 and
                                          0549.1011.04.04 for the period
                                          from April 1, 2008, to
                                          September 30, 2009
                                          Audit of USAID Resources
                                          Managed by the Export Promotion
                                          Council (EPC) Under Limited
                                          Scope Grant Agreement No. 615­
     4-615-11-019-R         03/16/11                                                5              QC
                                          007-LSGA-003 Implementation
                                          Letter No. 3 for the Period
                                          October 1, 2007, to September 30,
                                          2009
                                          Audit of USAID Resources
                                          managed by Khulisa Management
                                          Services (Pty) Ltd. under Contract
                                          No. 674-C-00-06-00014-00, Grant
     4-674-11-020-R         03/16/11                                             36                QC
                                          No. 674-G-00-07-00018-00, and
                                          Cooperative Agreement No. 674­
                                          A-00-08-00010-00 for the year
                                          ended December 31, 2009

       BU—Better Use of Funds       QC—Questioned Costs      UN—Unsupported Costs       Note: UN is part of QC




88    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
  Report           Date of                                                                   Type of
                                           Report Title                    Findings
  Number           Report                                                                    Findings
                                                                           ($000)
                              Audit of USAID Resources
                              Managed by K-REP Development
                              Agency (KDA) under Cooperative
                                                                              236                 QC
4-615-11-021-R     03/16/11   Agreement No. 623-A-00-08­
                                                                              212                 UN
                              00002-00 for the period from
                              October 1, 2007, to December 31,
                              2008
                              Audit of USAID Resources
                              Managed by Nazarene
                              Compassionate Ministries under                  192                 QC
4-936-11-022-R     03/16/11
                              Agreement No. GHH-A-00-07­                      192                 UN
                              00006-00 for the year ended
                              December 31, 2007
                              Audit of USAID Resources for
                              Technical Services Provided by
                              Bethzatha Health Service Private
4-663-11-023-R     03/23/11
                              Limited Company under Contract
                              No. 663-C-00-08-00418-00 for the
                              year ended June 30, 2010
                              Closeout Audit of USAID
                              Resources Managed by The AIDS
                              Support Organization (TASO)
4-617-11-024-R     03/25/11   Uganda Limited under Cooperative
                              Agreement No. 617-A-00-08­
                              00008-00 for the period January 1,
                              2009, to June 30, 2009
                              Financial audit of the Health Policy
                              Development Program,
                              USAID/Philippines Cooperative
5-492-11-003-R     11/19/10   Agreement No. 492-A-00-06­                       36                 QC
                              00031, Managed by the UPecon
                              Foundation, Inc., for the Year
                              Ended December 31, 2009
                              Financial Audit of the Support to
                              Documentation Center of
                              Cambodia, USAID/Cambodia
                              Cooperative Agreement No. 486­                   30                 QC
5-442-11-001-R     10/28/10
                              A-00-04-00012-00, Managed by the                 30                 UN
                              Documentation Center of
                              Cambodia (DC-Cam), for the Year
                              Ended December 31, 2009




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        89
                                                                                Amt. of
        Report              Date of                                                             Type of
                                                     Report Title               Findings
        Number              Report                                                              Findings
                                                                                ($000)
                                          Financial Audit of the Statement of
                                          Costs Incurred and Billed to
                                          USAID/Indonesia by Swisscontact
                                          to Implement The Aceh
                                                                                    2              QC
     5-497-11-002-R         10/28/10      Polytechnic Program (TAPP),
                                                                                    2              UN
                                          USAID/Indonesia Contract No.
                                          497-C-00-08-00001-00, for the
                                          Period from January 1, 2009, to
                                          December 31, 2009
                                          Financial Audit of USAID
                                          Resources Managed by the
                                                                                  65               QC
     5-442-11-004-R         12/13/10      Reproductive and Child Health
                                                                                  13               UN
                                          Alliance (RACHA) for the Year
                                          Ended December 31, 2009
                                          Financial Audit of USAID Funds
                                          Managed by the Asian Disaster
                                                                                    4              QC
     5-493-11-005-R         12/17/10      Preparedness Center for the
                                                                                    4              UN
                                          Period from January 1, 2009, to
                                          December 31, 2009
                                          Financial Audit of USAID Funds
     5-492-11-006-R         12/17/10      Managed by the Gerry Roxas
                                          Foundation, Inc.
                                          Financial Audit of USAID Funds
     5-367-11-007-R         12/21/10      Managed by the National Society         41               QC
                                          for Earthquake Technology-Nepal
                                          Financial Audit of the Enhance
                                          Kamataka Project, Project No.
                                          386-A-00-06-00144, Managed by
     5-386-11-008-R         12/21/10
                                          the University of Manitoba (UOM),
                                          for the Period from April 1, 2009,
                                          to March 31, 2010
                                          Financial Audit of the Innovations
                                          in Family Planning Services–Uttar
                                          Pradesh, Project No. 386-0527,
     5-386-11-009-R         01/11/11      Managed by State Innovations in
                                          Family Planning Services Agency
                                          (SIFPSA), for the Period from
                                          April 1, 2009, to March 31, 2010




      BU—Better Use of Funds        QC—Questioned Costs      UN—Unsupported Costs       Note: UN is part of QC




90    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
  Report           Date of                                                                   Type of
                                           Report Title                    Findings
  Number           Report                                                                    Findings
                                                                           ($000)
                              Financial Audit of the Improving
                              Local Level Governance by
                              Strengthening Union Parishads and
                              Creating Citizens Awareness
5-388-11-010-R     01/24/11   Project, Grant Agreement No.                     14                 QC
                              388-G-00-02-00098-00, Managed
                              by RUPANTAR, for the Period
                              from January 1, 2009, to
                              December 31, 2009
                              Financial Audit of USAID
                              Resources Managed by the
                                                                               33                 QC
5-442-11-011-R     01/27/11   Reproductive Health Association of
                                                                               32                 UN
                              Cambodia (RHAC), for the Year
                              Ended December 31, 2009
                              Financial Audit of the AVERT
                              Project, USAID/India Project No.
5-386-11-012-R     01/27/11   386-0544, Managed by the AVERT
                              Society, for the Period from
                              April 1, 2009, to March 31, 2010
                              Financial Audit of USAID
                              Resources Managed by Voluntary                  112                 QC
5-386-11-013-R     02/10/11
                              Health Services for the Year Ended               1                  UN
                              March 31, 2010
                              Closeout Financial Audit of the
                              Condom Social Marketing Project–
                              Maharashtra, USAID/India
                              Cooperative Agreement No. 386­
5-386-11-014-R     03/14/11   A-00-07-00024-00, Managed by the
                              Hindustan Latex Family Planning
                              Promotion Trust (HLFPPT), for the
                              Period from April 1, 2009, to
                              September 30, 2010
                              Financial Audit of the Innovations
                              in Family Planning Services III–
                              Uttarakhand, Project No. 386­
5-386-11-015-R     03/30/11   0527, Managed by Uttarakhand
                              Health & Family Welfare Society
                              (UKHFWS), for the Period from
                              April 1, 2009, to March 31, 2010




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        91
                                                                                   Amt. of
        Report              Date of                                                                Type of
                                                      Report Title                 Findings
        Number              Report                                                                 Findings
                                                                                   ($000)
                                          Close-Out Examination of Center
                                          for Engineering and Planning,
                                          Compliance with Contract Terms
                                          and Conditions, Under USAID
                                          Funded Contract Number 294-C­
     6-294-11-001-N         10/26/10                                                 70               QC
                                          00-05-00239-00, "Construction
                                          Management Services of the Gaza
                                          Emergency Water Connection,"
                                          for the Period From September 26,
                                          2005, to May 14, 2006
                                          Financial Audit of USAID
                                          Resources Managed and
                                          Expenditures Incurred by the
                                          Ministry of Health and Population,
                                          Strengthening Avian Influenza
                                          Detection and Response Project,
     6-263-11-001-R         12/27/10
                                          USAID/Egypt Grant Agreement
                                          Number 263-0287, Element
                                          Number A050, Implementation
                                          Letter Number 1, for the Period
                                          From January 1, 2010, to
                                          August 31, 2010
                                          Examination of Saqqa and
                                          Khoudary Joint Venture
                                          Compliance with Terms and
                                          Conditions of Contract Number
     6-294-11-002-N         10/26/10                                                 245              QC
                                          294-I-02-05-00212-00, "Roads
                                          Rehabilitation Project Phase III," for
                                          the Period From October 1, 2005,
                                          to March 1, 2006
                                          Financial Audit of the Ministry of
                                          Trade and Industry, Industry and
                                          Trade Advisory Support Unit,
                                          Assistance for Customs and Trade
                                                                                     22               QC
     6-263-11-002-R         03/10/11      Facilitation, USAID Agreement
                                                                                     22               UN
                                          Number 263-0284, Implementation
                                          Letter Number 5, for the Period
                                          From January 1, 2008, to
                                          August 31, 2009
                                          Close-Out Audit of Environmental
                                          Quality International, USAID
                                          Cooperative Agreement Number
                                                                                     25               QC
     6-263-11-003-N         10/28/10      263-A-00-07-00011-00, Media and
                                                                                     21               UN
                                          Culture of Democracy Project, for
                                          the Period October 1, 2007, to
                                          August 13, 2008


      BU—Better Use of Funds        QC—Questioned Costs       UN—Unsupported Costs         Note: UN is part of QC




92    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
   Report          Date of                                                                   Type of
                                           Report Title                    Findings
   Number          Report                                                                    Findings
                                                                           ($000)
                              Close-out Examination of Falcon
                              Electro Mechanical Contracting
                              Company Compliance With Terms
                              and Conditions of USAID Funded
6-294-11-004-N     11/22/10                                                   428                 QC
                              Contract Number 294-C-00-05­
                              00216-00, "Hebron Screen and
                              Grit Station," for the Period From
                              May 20, 2005, to July 20, 2006
                              Audit of the Fund Accountability
                              Statement of Holy Family Hospital-
                              Bethlehem, "Partnership for
                              Expanded Access to Quality
                              Maternal and Neonatal Health
6-294-11-005-N     11/22/10   Care for Palestinian Women and
                              Infants," USAID Funded
                              Cooperative Agreement Number
                              294-A-00-05-00236-00, for the
                              Period From October 1, 2005, to
                              September 30, 2006
                              Audit of the Fund Accountability
                              Statement of USAID Resources
                              Managed by Holy Family Hospital,
                              Cooperative Agreement Number
                              294-A-00-05-00236-00, Partnership
6-294-11-006-N     11/22/10   for Expanded Access to Quality                   1                  QC
                              Maternal and Neonatal Health
                              Care for Palestinian Women and
                              Infants, for the Period From
                              September 30, 2008, to June 30,
                              2009
                              Close-Out Examination of El
                              Dahan and Farid Engineering
                              Consultants Ltd. Compliance with
                              Terms and Conditions of USAID
                              Contract Number 294-C-00-05­
6-294-11-007-N     12/22/10                                                   102                 QC
                              00232-00, Courthouse
                              Construction Feasibility Study and
                              Design in Gaza City, for the Period
                              From September 30, 2005, to
                              June 30, 2006




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        93
                                                                              Amt. of
        Report              Date of                                                             Type of
                                                     Report Title             Findings
        Number              Report                                                              Findings
                                                                              ($000)
                                          Close-Out Examination of Ocean
                                          Contracting and Investment Co.
                                          Compliance with Terms and
                                          Conditions of USAID Funded
     6-294-11-008-N         12/22/10      Contract Number 294-I-03-05­          584                QC
                                          00210-00, Roads Rehabilitation
                                          Project Phase III, for the Period
                                          From September 13, 2005, to
                                          January 30, 2006
                                          Close-Out Audit of USAID
                                          Resources Managed and
                                          Expenditures Incurred by the
                                          Ministry of Water Resources and
                                          Irrigation, Integrated Water
     6-263-11-011-N         12/29/10      Management Unit, Life/Water               3              QC
                                          Resources Management, Project
                                          Number 263-0290, Implementation
                                          Letter Number 2-09, for the
                                          Period From January 1, 2009, to
                                          March 31, 2010
                                          Recipient Contracted Audit of
                                          USAID Resources Managed by
                                          Hope Worldwide Nigeria under
                                          the Assistance and Care for
     7-620-11-001-R         10/22/10      Children Orphaned and at Risk of      33                 QC
                                          HIV/AIDS Program (Grant
                                          Agreement No. 620-A-00-08­
                                          00111-00) for the Period from
                                          January 1 to December 31, 2009
                                          Audit of the Fund Accountability
                                          Statement for Society for Family
                                          under the Improved Reproductive
                                          Health in Nigeria (IRHIN) Project
                                          No. 620-A-00-05-00098-00 and the
                                          Comprehensive Integrated
     7-620-11-002-R         10/25/10                                                1              QC
                                          Approach to HIV/AIDS Prevention
                                          and Care (CIHPAC) Project No.
                                          620-A-00-05-00100-00 in Nigeria
                                          for the Period Beginning on
                                          December 26, 2008, and Ending on
                                          December 25, 2009




      BU—Better Use of Funds        QC—Questioned Costs      UN—Unsupported Costs       Note: UN is part of QC




94    USAID OFFICE OF INSPECTOR GENERAL
                                                                           Amt. of
   Report          Date of                                                                   Type of
                                           Report Title                    Findings
   Number          Report                                                                    Findings
                                                                           ($000)
                              Recipient Contracted Audit of the
                              USAID Resources Managed by
                              Network on Ethics/Human Rights,
                              Law, HIV/AIDS Prevention,
                              Support and Care (NELA) under
7-620-11-003-R     01/10/11   the NELA Consortium AIDS
                              Initiatives in Nigeria (NECAIN)
                              Agreement No. 620-A-00-07­
                              00211-00 for the Period from
                              January 1, 2009, through
                              December 31, 2009
                              Recipient Contracted Audit of the
                              USAID Resources Managed by BBC
                              World Service Trust under the
                              USAID Media Support for
                              Strengthening Advocacy, Good                     2                  QC
7-620-11-004-R     01/13/11
                              Governance, and Empowerment                      2                  UN
                              (MESSAGE) Agreement No. 620-A­
                              00-09-00016-00 for the Period
                              from September 30, 2009, through
                              March 31, 2010
                              Recipient Contracted Audit of
                              USAID Resources Managed by the
                              West and Central African Council
                              for African Research and                        104                 QC
7-624-11-005-R     01/31/11
                              Development (CORAF/WECARD)                      102                 UN
                              (Grant Agreement No. 624-A-00­
                              07-00046) for the Period from
                              January 1 to December 31, 2008
                              Recipient Contracted Audit of
                              USAID Resources Managed by
                              Avocats Sans Frontieres under the
                              Rule of the Law in the Democratic                1                  QC
7-623-11-006-R     02/02/11
                              Republic of the Congo Program                    1                  UN
                              (Grant Agreement No. 623-A-00­
                              08-00046-00) for the Period from
                              January 1 to December 31, 2009




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs            Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        95
                                                                                Amt. of
        Report              Date of                                                             Type of
                                                     Report Title               Findings
        Number              Report                                                              Findings
                                                                                ($000)
                                          Recipient Contracted Audit of the
                                          USAID Resources Managed by
                                          Cooperazione Internazionale under
                                          the USAID Program Psychosocial
                                          Support and Reintegration of
                                          Survivors of Sexual and Gender-
     7-623-11-007-R         02/04/11
                                          Based Violence in Eastern
                                          Democratic Republic of Congo
                                          Agreement No. 623-A-00-09­
                                          00009-00 for the Period from
                                          December 15, 2009, through
                                          December 31, 2010
                                          Recipient Contracted Audit of
                                          USAID Resources Managed by the
                                          Gembu Centre for HIV/AIDS
     7-620-11-008-R         03/21/11      Advocacy Nigeria under Grant
                                          Agreement No. 620-A-00-08­
                                          00076-00 for the Period from
                                          January 1 to December 31, 2009
                                          Financial Audit of the Program
                                          "Regenerating Murad Khane,
                                          Restoring Refurbishing and
                                          Revitalizing the Old City,"
                                          USAID/Afghanistan Cooperative
     F-306-11-001-R         10/26/10
                                          Agreement No. 306-A-09-00503­
                                          00, Managed by the Turquoise
                                          Mountain Trust (TMT), for the
                                          Period from January 1, 2009, to
                                          December 31, 2009
                                          Financial Audit of Program
                                          "Fiduciary Support to the American
                                          University of Afghanistan (AUAF)"
                                          Subgrant Under the Asia
                                          Foundation Award No. 306-G-00­          686              QC
     F-306-11-002-R         12/20/10
                                          05-00525-00 and "The USAID              689              BU
                                          Direct Support to AUAF"
                                          Cooperative Agreement No. 306­
                                          A-00-08-00525-00 for the period
                                          from July 1, 2008, to June 30, 2009




      BU—Better Use of Funds        QC—Questioned Costs      UN—Unsupported Costs       Note: UN is part of QC




96    USAID OFFICE OF INSPECTOR GENERAL
                                                                             Amt. of
   Report           Date of                                                                    Type of
                                            Report Title                     Findings
   Number           Report                                                                     Findings
                                                                             ($000)
                               Closeout Audit of the Developing
                               Non-Bankable Territories for
                               Financial Services Program,
                               USAID/Pakistan Cooperative
G-391-11-001-R      12/30/10   Agreement No. 391-A-00-03­
                               01011-00, Managed by Khushhali
                               Bank, for the Period from
                               January 1, 2009, to September 30,
                               2009
                                 Local Currency Trust Fund
                               Financial Audit of
                               USAID/Philippines' Peso Trust Fund
5-492-11-001-N     11/04/10    for Operating Expenses, for the
                               Period from January 1, 2009, to
                               December 31, 2009
                                  U.S.- Based Contractors
                               Berger Group Holdings, Inc., Report
0-000-11-001-D     03/28/11    on Adequacy of Initial Disclosure
                               Statement Effective July 1, 2008
                               Financial Audit of Local Costs
                               Incurred by the Joint Venture Louis
                               Berger Group, Inc./Black & Veatch
                               Special Projects Corp. to Implement
                               the Afghanistan Infrastructure                  2,097               QC
5-306-11-002-N     11/16/10
                               Rehabilitation Program,                         2,085               UN
                               USAID/Afghanistan Contract No.
                               306-I-00-06-00517-00, for the
                               Period from October 1, 2008, to
                               September 30, 2009
                               Audit of Locally Incurred Costs of
                               USAID Resources Managed by
                               Chemonics International, Task
                               Order Number PCE-I-22-98-00015­
6-294-11-018-N     03/14/11
                               00, Palestinian Integrated Trade
                               Arrangement Project, for the Period
                               From May 16, 2008, to
                               September 28, 2008




  BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs           Note: UN is part of QC


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        97
                                                                                    Amt. of
        Report             Date of                                                                  Type of
                                                      Report Title                  Findings
        Number             Report                                                                   Findings
                                                                                    ($000)
                                          Close-Out Audit of Locally Incurred
                                          Costs by Academy for Educational
                                          Development, Higher Education
                                          Support Initiative Program,                 92               QC
     6-294-11-019-N        03/16/11
                                          Contract Number EEE-I-00-01­                14               UN
                                          00010-00, for the Period From
                                          August 19, 2005, to September 29,
                                          2006
                                          Audit of Costs Incurred and Billed
                                          by Research Triangle Institute (RTI),
                                          Under USAID Contract No. 267-C­
     E-267-11-002-D        12/10/10                                                   109              QC
                                          00-05-00505-00, for the Period of
                                          January 1, 2008, Through
                                          December 31, 2008
                                               U.S.-Based Grantees
                                          Audit of Southern African
                                          Enterprise Development Fund
     0-000-11-001-E        10/20/10       Consolidated Financial Statement
                                          Report for Fiscal Year Ended
                                          September 30, 2008
                                          A-133 Audit Report of JSI Research
     0-000-11-001-T        10/12/10       and Training Institute, Inc. for Fiscal
                                          Year Ended September 30, 2008
                                          Audit of Southern Africa Enterprise
                                          Development Fund Consolidated
     0-000-11-002-E        12/22/10       Financial Statement Report for
                                          Fiscal Year Ended September 30,
                                          2009
                                          OMB Circular A-133 Audit Report
                                          of Program for Appropriate
     0-000-11-002-T        10/04/10
                                          Technology in Health for the Fiscal
                                          Year Ended December 31, 2009
                                          Audit Report for the U.S. Russia
     0-000-11-003-E        02/09/11       Investment Fund for Fiscal Year
                                          Ended September 30, 2010
                                          Research Triangle Institute, A-133
                                                                                      554              QC
     0-000-11-003-T        11/24/10       Audit Report for Fiscal Year Ended
                                                                                      554              UN
                                          September 30, 2009
                                          Audit Report for Bulgarian-
     0-000-11-004-E        02/15/11       American Enterprise Fund for the
                                          Year Ended September 30, 2010




      BU—Better Use of Funds        QC—Questioned Costs        UN—Unsupported Costs        Note: UN is part of QC




98    USAID OFFICE OF INSPECTOR GENERAL
                                                                            Amt. of
  Report          Date of                                                                     Type of
                                           Report Title                     Findings
  Number          Report                                                                      Findings
                                                                            ($000)
                              OMB Circular A-133 Audit Report
                              of Academy for Educational
0-000-11-004-T    10/01/10
                              Development for Fiscal Year Ended
                              December 31, 2007
                              Review of Audit Report of Baltic-
                              American Enterprise Fund for the
0-000-11-005-E    02/11/11
                              Fiscal Year Ended September 30,
                              2010
                              OMB Circular A-133 Audit Report
                              of Academy for Educational
0-000-11-005-T    10/01/10
                              Development for Fiscal Year Ended
                              December 31, 2008
                              A-133 Audit Report of The German
                              Marshall Fund of the United States-
0-000-11-007-T    10/06/10    A Memorial to the Marshall Plan and
                              Subsidiary for Fiscal Year Ended
                              May 31, 2005
                              A-133 Audit Report of The German
                              Marshall Fund of the United States-
0-000-11-008-T    10/06/10    A Memorial to the Marshall Plan and
                              Subsidiary for Fiscal Year Ended
                              May 31, 2004
                              A-133 Audit Report of the German
                              Marshall Fund of the United States-­
0-000-11-009-T    10/05/10    A Memorial to the Marshall Plan and
                              Subsidiary for Fiscal Year Ended
                              May 31, 2006
                              International Foundation for
                              Electoral Systems, OMB Circular A­
0-000-11-011-T    10/25/10                                                      37                QC
                              133 Audit Report for Fiscal Year
                              Ended September 30, 2009
                              A-133 Audit Report of Partnership
                              for Supply Chain Management for
0-000-11-012-T    10/20/10
                              Fiscal Year Ended September 30,
                              2008
                              Academy for Educational
                              Development and Affiliates, OMB
0-000-11-013-T    10/25/10    Circular A-133 Audit Report for                    1                QC
                              Fiscal Year Ended December 31,
                              2009
                              OMB Circular A-133 Audit Report
                              of JSI Research and Training
0-000-11-014-T    11/17/10
                              Institute, Inc. for Fiscal Year Ended
                              September 30, 2009


 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs             Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        99
                                                                                     Amt. of
         Report              Date of                                                                 Type of
                                                       Report Title                  Findings
         Number              Report                                                                  Findings
                                                                                     ($000)
                                           A-133 Audit Report of International
                                                                                       24               QC
      0-000-11-015-T        11/18/10       Development Enterprises for Fiscal
                                                                                       12               UN
                                           Year Ended December 31, 2009
                                           OMB Circular A-133 Audit Report
                                           for Consortium for Elections and
      0-000-11-017-T        11/22/10       Political Process Strengthening for
                                           the Fiscal Year Ended
                                           September 30, 2006
                                           OMB Circular A-133 Audit Report
      0-000-11-018-T        01/31/11       of Cross International, Inc. for Fiscal
                                           Year Ended December 31, 2009
                                           CARE USA, OMB Circular A-133
      0-000-11-019-T        12/09/10       Audit Report for Fiscal Year Ended          325              QC
                                           June 30, 2009
                                           OMB Circular A-133 Audit Report
                                           of the Action Against Hunger-USA
      0-000-11-020-T        01/11/11
                                           for Fiscal Year Ended December 31,
                                           2009
                                           OMB Circular A-133 Audit Report
                                           of United States Pharmacopeial
      0-000-11-021-T        01/21/11
                                           Convention and Subsidiaries for
                                           Fiscal Year Ended June 30, 2009
                                           OMB Circular A-133 Audit Report
      0-000-11-022-T        01/13/11       of Alfalit International for Fiscal
                                           Year Ended December 31, 2006
                                           OMB Circular A-133 Audit Report
      0-000-11-023-T        01/13/11       of Alfalit International for Fiscal
                                           Year Ended December 31, 2007
                                           The Carter Center, Inc., OMB
      0-000-11-025-T        12/21/10       Circular A-133 Audit Report for
                                           Fiscal Year Ended August 31, 2009
                                           OMB Circular A-133 Audit Report
                                           of National Hospice and Palliative
      0-000-11-026-T        01/27/11
                                           Care Organization for Fiscal Year
                                           Ended December 31, 2009
                                           OMB Circular A-133 Audit Report
      0-000-11-027-T        01/11/11       of the Roots of Peace for Fiscal
                                           Year Ended December 31, 2008
                                           OMB Circular A-133 Audit Report
                                           of National Cooperative Business
      0-000-11-028-T        12/22/10
                                           Association for Fiscal Year Ended
                                           December 31, 2009



       BU—Better Use of Funds        QC—Questioned Costs        UN—Unsupported Costs        Note: UN is part of QC




100    USAID OFFICE OF INSPECTOR GENERAL
                                                                            Amt. of
  Report          Date of                                                                     Type of
                                           Report Title                     Findings
  Number          Report                                                                      Findings
                                                                            ($000)
                              OMB Circular A-133 Audit Report
                              of Interchurch Medical Assistance,
0-000-11-029-T    12/10/10
                              Inc. for Fiscal Year Ended June 30,
                              2008
                              American Council on Education,
                              OMB Circular A-133 Audit Report
0-000-11-030-T    12/14/10                                                       1                QC
                              for Fiscal Year Ended September 30,
                              2009
                              OMB Circular A-133 Audit Report
                              of American Refugee Committee
0-000-11-031-T    01/20/11    International and Subsidiary for
                              Fiscal Year Ended December 31,
                              2009
                              OMB Circular A-133 Audit Report
                              of Woodrow Wilson Center for
0-000-11-032-T    12/21/10
                              Scholars for Fiscal Year Ended
                              September 30, 2009
                              OMB Circular A-133 Audit Report
0-000-11-033-T    01/24/11    of Childfund International, USA for
                              Fiscal Year Ended June 30, 2009
                              OMB Circular A-133 Audit Report
0-000-11-034-T    01/20/11    of Arzu, Inc. for Fiscal Year Ended
                              December 31, 2009
                              OMB Circular A-133 Audit Report
                              for Pan American Development
0-000-11-035-T    12/17/10
                              Foundation for Fiscal Year Ended
                              September 30, 2009
                              OMB Circular A-133 Audit Report
0-000-11-036-T    12/16/10    for Wildlife Alliance, Inc. for Fiscal            35                QC
                              Year Ended December 31, 2008
                              OMB Circular A-133 Audit Report
                              of Inter-American Dialogue for
0-000-11-037-T    03/21/11
                              Fiscal Year Ended December 31,
                              2009 (Revised)
                              OMB Circular A-133 Audit Report
                              of East-West Management Institute,
0-000-11-038-T    01/20/11
                              Inc. for Fiscal Year Ended
                              December 31, 2009
                              OMB Circular A-133 Audit Report
                              for Hadassah, The Women's Zionist
0-000-11-039-T    01/28/11    Organization of America, Inc. and
                              Related Entities for Seven Months
                              Ended December 31, 2008


 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs             Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        101
                                                                                     Amt. of
         Report              Date of                                                                 Type of
                                                       Report Title                  Findings
         Number              Report                                                                  Findings
                                                                                     ($000)
                                           OMB Circular A-133 Audit Report
                                           of Nazarene Compassionate
      0-000-11-040-T        02/08/11
                                           Ministries, Inc. for Fiscal Year Ended
                                           December 31, 2009
                                           OMB Circular A-133 Audit Report
                                           of International City/County
      0-000-11-041-T        01/26/11
                                           Management Association for Fiscal
                                           Year Ended June 30, 2010
                                           OMB Circular A-133 Audit Report
      0-000-11-042-T        02/10/11       of Global Rights for Fiscal Year
                                           Ended September 30, 2009
                                           OMB Circular A-133 Audit Report
      0-000-11-043-T        01/21/11       of Rainforest Alliance, Inc. for Fiscal
                                           Year Ended June 30, 2009
                                           OMB Circular A-133 Audit Report
                                           of Mercy-USA for Aid and
      0-000-11-044-T        01/20/11
                                           Development, Inc. for Fiscal Year
                                           Ended December 31, 2009
                                           OMB Circular A-133 Audit Report
                                           for World Hope International, Inc.
      0-000-11-045-T        01/03/11                                                   39               QC
                                           and Affiliates, Fiscal Year Ended
                                           December 31, 2009
                                           OMB Circular A-133 Audit Report
                                           of America's Development
      0-000-11-046-T        01/26/11
                                           Foundation for Fiscal Year Ended
                                           December 31, 2009
                                           OMB Circular A-133 Audit Report
      0-000-11-047-T        02/08/11       of Internews Network for Fiscal
                                           Year Ended December 31, 2009
                                           OMB Circular A-133 Audit Report
      0-000-11-048-T        01/04/11       of the Asia Foundation for Fiscal
                                           Year Ended September 30, 2009
                                           OMB Circular A-133 Audit Report
                                           of INMED Partnerships for
      0-000-11-049-T        01/21/11
                                           Children, Inc. for Fiscal Year Ended
                                           December 31, 2009
                                           OMB Circular A-133 Audit Report
                                           of Small Enterprise Assistance Funds
      0-000-11-050-T        01/03/11
                                           for Fiscal Year Ended December 31,
                                           2009
                                           OMB Circular A-133 Audit Report
                                           of International Foundation for
      0-000-11-051-T        01/21/11
                                           Education and Self-Help for Fiscal
                                           Year Ended September 30, 2009

       BU—Better Use of Funds        QC—Questioned Costs        UN—Unsupported Costs        Note: UN is part of QC




102    USAID OFFICE OF INSPECTOR GENERAL
                                                                            Amt. of
  Report          Date of                                                                     Type of
                                           Report Title                     Findings
  Number          Report                                                                      Findings
                                                                            ($000)
                              OMB Circular A-133 Audit Report
0-000-11-052-T    01/25/11    for FXB USA, Inc. for Fiscal Year
                              Ended December 31, 2009
                              OMB Circular A-133 Audit Report
                              of Adventist Development and                     189                QC
0-000-11-053-T    01/21/11
                              Relief Agency International for Fiscal           189                UN
                              Year Ended December 31, 2009
                              OMB Circular A-133 Audit Report
0-000-11-054-T    01/28/11    for Health Alliance International for
                              Year Ended December 31, 2009
                              OMB Circular A-133 Audit Report
                              of Partners of the Americas, Inc. for
0-000-11-055-T    01/21/11
                              Fiscal Year Ended December 31,
                              2009
                              OMB Circular A-133 Audit Report
                              of Himalayan Cataract Project, Inc.
0-000-11-056-T    01/06/11
                              for Fiscal Year Ended December 31,
                              2009
                              OMB Circular A-133 Audit Report
                              of General Board of Higher
0-000-11-057-T    01/21/11    Education and Ministry of the
                              United Methodist Church for Fiscal
                              Year Ended December 31, 2009
                              OMB Circular A-133 Audit Report
0-000-11-060-T    01/11/11    of Medical Teams International for
                              Fiscal Year Ended June 30, 2010
                              OMB Circular A-133 Audit Report
0-000-11-061-T    01/12/11    of Relief International for Fiscal Year
                              Ended December 31, 2009
                              OMB Circular A-133 Audit Report
                              of the United States Pharmacopeial
0-000-11-062-T    01/12/11
                              Convention Inc. for Fiscal Year
                              Ended June 30, 2010
                              Christian Reformed World Relief
                              Committee, Inc., OMB Circular A­
0-000-11-063-T    01/24/11
                              133 Audit Report for Fiscal Year
                              Ended June 30, 2009
                              OMB Circular A-133 Audit Report
                              for The International Center, for
0-000-11-064-T    01/21/11
                              Fiscal Year Ended December 31,
                              2009
                              OMB Circular A-133 Audit Report
0-000-11-065-T    01/31/11    of TechnoServe, Inc. for Fiscal Year
                              Ended December 31, 2009


 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs           Note: UN is part of QC


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        103
                                                                                  Amt. of
         Report              Date of                                                            Type of
                                                      Report Title                Findings
         Number              Report                                                             Findings
                                                                                  ($000)
                                           OMB Circular A-133 Audit Report
                                           of World Vision International and
      0-000-11-066-T        01/26/11
                                           World Vision, Inc. (USA) for Fiscal
                                           Year Ended September 30, 2009
                                           ORT America, Inc., OMB Circular
      0-000-11-067-T        02/01/11       A-133 Audit Report for Fiscal Year
                                           Ended December 31, 2009
                                           OMB Circular A-133 Audit Report
      0-000-11-068-T        02/17/11       for Tostan, Inc. for Fiscal Year
                                           Ended December 31, 2009
                                           OMB Circular A-133 Audit Report
                                           for Small Enterprise Assistance Fund
      0-000-11-070-T        02/09/11
                                           for Fiscal Year Ended December 31,
                                           2008
                                           OMB Circular A-133 Audit Report
      0-000-11-071-T        02/17/11       of African Wildlife Foundation, Inc.
                                           for Fiscal Year Ended June 30, 2010
                                           OMB Circular A-133 Audit Report
      0-000-11-072-T        02/10/11       of Children's Aids Fund for Fiscal
                                           Year Ended December 31, 2009
                                           EngenderHealth, Inc., OMB Circular
      0-000-11-073-T        02/25/11       A-133 Audit Report for Fiscal Year
                                           Ended June 30, 2009
                                           American Near East Refugee Aid,
      0-000-11-075-T        02/22/11       OMB Circular A-133 Audit Report
                                           for Fiscal Year Ended May 31, 2010
                                           OMB Circular A-133 Audit Review
                                           of Hadassah, The Women's Zionist
      0-000-11-076-T        03/02/11       Organization of America, Inc. for
                                           Fiscal Year Ended December 31,
                                           2009
                                           Desk Review of OMB Circular A­
                                           133 Audit Report of JA Worldwide
      0-000-11-077-T        03/08/11
                                           for the Fiscal Year Ended June 30,
                                           2010
                                           Review of OMB Circular A-133
                                           Audit Report for Tostan, Inc. for
      0-000-11-078-T        03/09/11
                                           Fiscal Year Ended December 31,
                                           2006
                                           Desk Review of OMB Circular A­
                                           133 Audit Report for Global
      0-000-11-079-T        03/08/11
                                           Resource Services for Fiscal Year
                                           Ended December 31, 2009


       BU—Better Use of Funds        QC—Questioned Costs       UN—Unsupported Costs    Note: UN is part of QC




104    USAID OFFICE OF INSPECTOR GENERAL
                                                                             Amt. of
   Report          Date of                                                                     Type of
                                            Report Title                     Findings
   Number          Report                                                                      Findings
                                                                             ($000)
                               Desk Review of OMB Circular A­
                               133 Audit Report for Christian
0-000-11-080-T     03/04/11    Reformed World Relief Committee,
                               Inc. for Fiscal Year Ended June 30,
                               2010
                               OMB Circular A-133 Audit Report
                               of the Salvation Army World
0-000-11-081-T     03/04/11
                               Service Office for the Fiscal Year
                               Ended December 31, 2008
                               Desk Review of OMB Circular A­
                               133 Audit Report for Viet-Nam
0-000-11-082-T     03/08/11
                               Assistance for the Handicapped for
                               the Fiscal Year Ended June 30, 2010
                               Desk Review for the OMB Circular
                               A-133 Audit Review of Sesame
0-000-11-083-T     03/08/11
                               Workshop and Subsidiaries for the
                               Fiscal Year Ended June 30, 2010
                               OMB Circular A-133 Audit Report
                               of Conservation International
0-000-11-084-T     03/11/11
                               Foundation, for the Fiscal Year
                               Ended June 30, 2010
                               OMB Circular A-133 Audit Report
                               of Management Sciences for Health,
0-000-11-085-T     03/11/11
                               Inc., for the Fiscal Year Ended
                               June 30, 2010
                               Agreed-Upon Procedures of USAID
                               Resources Managed by Project
                               Concern International (PCI) Under
                                                                                846                QC
4-611-11-001-O     02/24/11    Cooperative Agreement No. 690-A­
                                                                                380                UN
                               00-04-00343-00 for the period
                               October 1, 2007, to September 30,
                               2009
                               Agreed-Upon Procedures of the
                               Local Costs Incurred by Family
                               Health International (FHI) Under
                                                                               1,783               QC
4-674-11-002-O     02/25/11    Cooperative Agreement No. 674-A­
                                                                               1,392               UN
                               00-08-00003-00 for the period from
                               October 1, 2007, to December 31,
                               2009
                               Audit of Locally Incurred Costs by
                               Academy for Educational
                               Development, USAID Agreement
6-263-11-009-N     12/27/10                                                      39                QC
                               Number 263-A-00-04-00006-00, for
                               the Period From October 1, 2005,
                               to September 30, 2007


  BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs             Note: UN is part of QC


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        105
                                                                                 Amt. of
         Report              Date of                                                           Type of
                                                      Report Title               Findings
         Number              Report                                                            Findings
                                                                                 ($000)
                                           Close-Out Audit of USAID
                                           Resources Managed by CARE
                                           International, Cooperative
                                           Agreement Number 294-A-00-05­
      6-294-11-010-N        12/29/10
                                           00235-00, Emergency Medical
                                           Assistance Program-Phase III, for
                                           the Period From October 1, 2006,
                                           to February 20, 2009
                                           Close-Out Audit of the Fund
                                           Accountability Statement of Locally
                                           Incurred Costs of USAID Resources
                                           Managed by Young Men's Christian
                                           Association, Cooperative
      6-294-11-012-N        01/26/11
                                           Agreement Number 294-A-00-02­
                                           00227-00, Job Opportunities
                                           Through Basic Services, for the
                                           Period From October 1, 2005, to
                                           July 31, 2006
                                           Audit of the Fund Accountability
                                           Statement of USAID Resources
                                           Managed by Education Development
                                           Center, Palestinian Youth
      6-294-11-013-N        02/23/11       Empowerment Program,
                                           Cooperative Agreement Number
                                           294-A-00-05-00241-00, for the
                                           Period From October 1, 2005, to
                                           September 30, 2006
                                           Audit of the Fund Accountability
                                           Statement of USAID Resources
                                           Managed by Education Development
                                           Center, Palestinian Youth
      6-294-11-014-N        02/23/11       Empowerment Program,
                                           Cooperative Agreement Number
                                           294-A-00-05-00241-00, for the
                                           Period From October 1, 2006, to
                                           September 30, 2007
                                           Close-Out Audit of USAID
                                           Resources Managed by Catholic
                                           Relief Services, Palestinian
                                           Infrastructure for Needed
      6-294-11-015-N        03/09/11       Employment, Cooperative
                                           Agreement Number 294-A-00-04­
                                           00217-00, for the Period From
                                           September 27, 2006, to June 30,
                                           2007


       BU—Better Use of Funds        QC—Questioned Costs     UN—Unsupported Costs     Note: UN is part of QC




106    USAID OFFICE OF INSPECTOR GENERAL
                                                                             Amt. of
   Report          Date of                                                                     Type of
                                            Report Title                     Findings
   Number          Report                                                                      Findings
                                                                             ($000)
                               Audit of Locally Incurred Costs of
                               USAID Resources Managed by
                               Cooperative Housing Foundation
                               International, Cooperative
6-294-11-016-N     03/09/11    Agreement Number 294-A-00-05­
                               00209-00, Palestinian American
                               Recreation and Conservation
                               Services, for the Period From
                               May 5, 2005, to May 3, 2007
                               Close-Out Audit of the Fund
                               Accountability Statement of USAID
                               Resources Managed by International
                               Orthodox Christian Charities,
                               Palestinian Infrastructure for
6-294-11-017-N     03/09/11                                                       1                QC
                               Needed Employment, Cooperative
                               Agreement Number 294-A-00-04­
                               00219-00, for the Period From
                               October 1, 2006, to August 31,
                               2007
                               Audit of Costs Incurred and Billed
                               by International Relief and
                               Development, Inc. (IRD), Under
                                                                               40,043              QC
E-267-11-001-D     11/07/10    USAID Cooperative Agreement No.
                                                                               38,330              UN
                               267-A-00-06-00503-00, for the
                               Period of October 1, 2007, Through
                               September 30, 2008
                               Close-Out Audit of Fund
                               Accountability Statement of USAID
                               Resources Managed by International
                               Relief and Development, Inc. Under
                                                                               18,612              QC
E-267-11-001-N     03/16/11    Cooperative Agreement Number
                                                                               18,180              UN
                               267-A-00-06-00503-00 "Community
                               Stabilization Program," for the
                               Period From October 1, 2008, to
                               October 31, 2009
                               Audit of Costs Incurred under
                               School Enhancement Program
                               Component of the Pakistan
                               Education Sector Reform Assistance
                               Program, USAID/Pakistan
G-391-11-001-D     11/08/10
                               Cooperative Agreement No. 391-A­
                               00-03-01000-00, Managed by the
                               RTI International (RTI), for the
                               Period from December 4, 2002, to
                               December 31, 2007




  BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs             Note: UN is part of QC


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011        107
                                   Financial Audits
      Associated Questioned Costs, Unsupported Costs, and Value of
           Recommendations That Funds Be Put to Better Use
                                     USADF and IAF
                           October 1, 2010–March 31, 2011
                                                                            Amt. of
      Report          Date of                                                        Type of
                                               Report Title                 Findings
      Number          Report                                                         Findings
                                                                            ($000)
                               Audit of the United States African
0-ADF-11-002-C        11/12/10 Development Foundation's Financial
                               Statements for Fiscal Years 2010 and 2009
                               Audit of Inter-American Foundation
 0-IAF-11-003-C       11/15/10 Financial Statements for Fiscal Years 2010
                               and 2009




BU—Better Use of Funds       QC—Questioned Costs   UN—Unsupported Costs     Note: UN is part of QC




108      USAID OFFICE OF INSPECTOR GENERAL
                            Performance Audits
   Associated Questioned Costs, Unsupported Costs, and Value of
        Recommendations That Funds Be Put to Better Use
                                         USAID
                       October 1, 2010–March 31, 2011
                                                                                   Amt. of
  Report         Date of                                                                    Type of
                                              Report Title                         Findings
  Number         Report                                                                     Findings
                                                                                   ($000)
                                   Economy and Efficiency
                             Audit of USAID/Mexico's Rule of Law and
1-523-11-001-P   01/12/11
                             Human Rights Program
                             Audit of Assistance to Internally Displaced
1-514-11-002-P   01/26/11    Persons and Vulnerable Groups Financed by
                             USAID/Colombia
                             Audit of Selected USAID/Uganda's P.L. 480
4-617-11-001-P   11/10/10
                             Title II Program Activities
                             Audit of Selected USAID/Kenya Agricultural
4-615-11-002-P   12/14/10
                             Productivity and Agricultural Trade Activities
                             Audit of USAID/Sudan's Modern Energy
4-650-11-003-P   12/29/10
                             Services Program
                             Audit of USAID/Southern Africa's Gender-
4-674-11-004-P   01/04/11                                                             23           QC
                             Related HIV/AIDS Activities
                             Audit of USAID/Mozambique's
4-656-11-005-P   01/27/11    Implementation of the President's Malaria
                             Initiative
                             Audit of USAID/Zambia's Gender-Related
4-611-11-006-P   03/29/11
                             HIV/AIDS Activities
                             Audit of USAID/Afghanistan's Partnership for
5-306-11-001-P   10/28/10    Advancing Community-Based Education in
                             Afghanistan (PACE-A) Program
                             Audit of USAID/Afghanistan's Support to the
5-306-11-002-P   11/05/10
                             American University of Afghanistan
                             Audit of USAID/Nepal's Education for
5-367-11-003-P   12/14/10
                             Income Generation Program
                             Audit of USAID/Timor-Leste's Strengthening
5-472-11-004-P   01/11/11
                             Property Rights in Timor-Leste Project
                             Audit of USAID/Bangladesh's Promoting
5-388-11-005-P   02/11/11    Governance, Accountability, Transparency
                             and Integrity (PROGATI) Program




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   109
                                                                             Amt. of
   Report          Date of                                                            Type of
                                                Report Title                 Findings
   Number          Report                                                             Findings
                                                                             ($000)
                                 Audit of USAID's Social Marketing and
                                 Behavior Change Interventions for
5-442-11-006-P     03/31/11
                                 HIV/AIDS, Reproductive and Sexual Health
                                 and Child Survival in Cambodia Project
                                 Audit of USAID/West Bank and Gaza's
6-294-11-001-P     10/13/10
                                 Emergency Jobs Program
                                 Audit of USAID/Egypt's Leaders for
6-263-11-002-P     11/10/10      Education and Development Scholarship
                                 Initiative Program
                                 Follow-Up Audit of Selected
6-268-11-003-P     12/06/10      USAID/Lebanon’s Democracy and
                                 Governance Activities
                                 Audit of USAID/Jordan's Private Sector
6-278-11-004-P     01/10/11
                                 Project for Women's Health
                                 Audit of Selected Activities From
6-279-11-005-P     02/28/11      USAID/Yemen's Basic Education Support and
                                 Training Project
                                 Audit of USAID/West Bank and Gaza's
                                                                                 16         QC
6-294-11-006-P     03/22/11      Technical and Vocational Education and
                                                                                 16         UN
                                 Training Program
                                 Audit of USAID/Morocco's Civil Society
7-608-11-001-P     10/27/10
                                 Advocacy Program
                                 Audit of USAID'S HIV/AIDS Activities in
7-681-11-003-P     02/04/11                                                     708         QC
                                 Côte d'Ivoire
                                 Audit of USAID/Benin's Implementation of
7-680-11-004-P     02/14/11
                                 the President's Malaria Initiative
                                 Audit of USAID/Ghana's Tuberculosis
7-641-11-005-P     03/17/11
                                 Program
                                 Audit of USAID/Senegal's Economic Growth
7-685-11-006-P     03/31/11
                                 Activities
                                 Audit of USAID/Namibia's HIV/AIDS Efforts
9-000-11-001-P     02/24/11
                                 to Build Health Workforce Capacity
                                 Audit of USAID's Computer Network
A-000-11-001-P     11/02/10
                                 Perimeter Controls
                                 Audit of USAID's Compliance with the
A-000-11-002-P     11/09/10      Federal Information Security Management
                                 Act of 2002 for Fiscal Year 2010




 BU—Better Use of Funds      QC—Questioned Costs     UN—Unsupported Costs    Note: UN is part of QC




 110     USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amt. of
  Report         Date of                                                                   Type of
                                             Report Title                         Findings
  Number         Report                                                                    Findings
                                                                                  ($000)
                            Audit of USAID/Iraq's Payroll Payments to
                            Foreign Service Nationals, Third Country
E-267-11-001-P   11/22/10
                            Nationals, and U.S. Personal Service
                            Contractors
                            Audit of USAID/Afghanistan's Agriculture,
F-306-11-001-P   02/13/11
                            Water, and Technology Transfer Program
                            Audit of USAID/Afghanistan's Construction                268          QC
F-306-11-002-P   03/27/11
                            of Health and Education Facilities Program               544          BU
                            Audit of USAID/Pakistan's Livelihood
                                                                                     768          QC
G-391-11-001-P   12/10/10   Development Program for the Lower Region
                                                                                     335          UN
                            of the Federally Administered Tribal Areas
                            Audit of USAID/Pakistan's Livelihood
G-391-11-002-P   12/10/10   Development Program for the Upper Region
                            of the Federally Administered Tribal Areas
                            Audit of USAID/Pakistan's Flood Relief
G-391-11-003-P   01/24/11   Efforts as Administered by Local
                            Nongovernmental Organizations




                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   111
                              Performance Audits
      Associated Questioned Costs, Unsupported Costs, and Value of
           Recommendations That Funds Be Put to Better Use
                                    USADF and IAF*
                           October 1, 2010–March 31, 2011
                                                                            Amt. of
                      Date of                                                        Type of
Report Number                                     Report Title              Findings
                      Report                                                         Findings
                                                                            ($000)
                                   Audit of the African Development
 7-ADF-11-002-P       02/02/11
                                   Foundation's Activities in Nigeria
                               Audit of the U.S. African Development
                               Foundation's Compliance With Provisions
A-ADF-11-003-P        11/10/10
                               of the Federal Information Security
                               Management Act for Fiscal Year 2010


* IAF had no reports with associated questioned costs, unsupported costs, or recommendations
that funds be put to better use.




BU—Better Use of Funds       QC—Questioned Costs     UN—Unsupported Costs   Note: UN is part of QC




112      USAID OFFICE OF INSPECTOR GENERAL
                       Miscellaneous Reports
   Associated Questioned Costs, Unsupported Costs, and Value of
        Recommendations That Funds Be Put to Better Use
                                       USAID
                      October 1, 2010–March 31, 2011
                                                                                  Amt. of
   Report        Date of                                                                   Type of
                                             Report Title                         Findings
   Number        Report                                                                    Findings
                                                                                  ($000)
                                Quality Control Reviews
                          Report on Quality Control Review (QCR) of
                          the audit of BroadReach HealthCare Africa
4-674-11-001-Q   11/09/10 (Pty) Ltd. under Cooperative Agreement
                          number 674-A-00-08-00008-00 for the period
                          September 1, 2007, to December 31, 2007
                          Quality Control Review of the audit of South
                          African Institute of Race Relations under
4-674-11-002-Q   12/06/10
                          Cooperative Agreement no. 674-A-00-90­
                          00039-00, for the year ended March 31, 2004
                          Quality Control Review of the audit of
                          Mothers 2 Mothers South Africa under Prime
                          Award number U62/CCU223540/CFDA
4-674-11-003-Q   12/07/10 93.941, Cooperative Agreement number GHH­
                          A-00-07-00019-00 and Sub-agreement number
                          P1321A0027 for the year ended December 31,
                          2008
                          Quality Control Review of the audit of the
                          fund accountability statement of USAID
                          resources managed by Selian Lutheran Hospital
4-621-11-004-Q   12/10/10
                          under AIDS Control Programme (Award No.
                          621-A-00-07-00001-00) for the year ended
                          December 31, 2008
                          Quality Control Review of the Draft Audit of
                          USAID Resources Managed by Light and
4-969-11-005-Q   12/28/10 Courage Centre Trust under Cooperative
                          Agreement No. GHH-A-00-07-00017-00 for
                          the Year Ended June 30, 2008




                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   113
                                                                            Amt. of
      Report        Date of                                                          Type of
                                               Report Title                 Findings
      Number        Report                                                           Findings
                                                                            ($000)
                             Quality Control Review of the Audit of USAID
                             Resources Managed by Nazarene
4-936-11-006-Q      03/16/11 Compassionate Ministries under Agreement
                             No. GHH-A-00-07-00006-00 for the year
                             ended December 31, 2007
                             Quality Control Review of Audit of USAID
                             Resources Managed by Youth Health
4-936-11-007-Q      03/16/11 Organization under Cooperative Agreement
                             No. NPI-GHH-A-00-07-00011-00 for the year
                             ended March 31, 2008
                             Quality Control Review of the Audit of USAID
                             Resources Managed by Luapula Foundation
4-936-11-008-Q      03/17/11 under Cooperative Agreement No. GHH-A­
                             00-07-00021-00 for the period December 1,
                             2006, to September 30, 2007
                             Quality Control Review of the Audit of USAID
                             Resources Managed by the Pastoral Activities
                             and Services for People with AIDS Dar es
4-621-11-009-Q      03/31/11 Salaam Archdiocese (PASADA) under
                             Development Assistance Grant Agreement No.
                             621-A-00-06-00011-00 for the year ended
                             December 31, 2008
                             Quality Control Review of the Audit Reports
                             and Audit Documentation for Two Financial
                             Audits Conducted By the KPMG Bangalore
                             Office (KPMG) of the Samastha Programme,
5-386-11-001-Q      11/24/10 Managed by Karnataka Health Promotion Trust
                             (KHPT), a Subrecipient of the University of
                             Manitoba (UOM), under USAID/India Project
                             No. 386-A-00-06-00144, for the Years Ended
                             March 31, 2008, and 2009
                             Quality Control Review of the Audit Report
                             and Audit Documentation for the Financial
                             Audit Conducted by P. K. Chopra & Co. (PKC)
                             of the Workforce Development Initiative
5-386-11-002-Q      12/23/10 Project under USAID/India Award No. 386-G­
                             00-06-00125-00 and the Madrasa Project under
                             Award No. 386-A-00-06-00180-00, Managed
                             by the CAP Foundation, for the Year Ended
                             March 31, 2009




 BU—Better Use of Funds      QC—Questioned Costs   UN—Unsupported Costs   Note: UN is part of QC




114      USAID OFFICE OF INSPECTOR GENERAL
                                                                                   Amt. of
   Report         Date of                                                                   Type of
                                               Report Title                        Findings
   Number         Report                                                                    Findings
                                                                                   ($000)
                           Quality Control Review of the Audit Report
                           and Audit Documentation for the Financial
5-367-11-003-Q    03/03/11 Audit Conducted by T R Upadhya & Co. of
                           USAID Funds Managed by the National Society
                           for Earthquake Technology–Nepal
                           Quality Control Review of the Audit Report
                           and Audit Documentation for the Financial
                           Audit of USAID Resources Managed by the
                           Department of Health Services, Government of
                           Nepal, Under USAID Strategic Objective Grant
5-367-11-004-Q    03/22/11
                           Agreement Project No. 367-0180,
                           Implementation Letter No. 5 for the Period
                           from July 16, 2006, to July 15, 2007, and
                           Implementation Letter No. 7 for the Period
                           from July 16, 2007, to July 15, 2008
                                             Other
                             Review of Fondation Sogebank's Activities                 49         QC
1-521-11-001-S    10/29/10
                             Financed by USAID/Haiti                                   49         UN
                           Review of the Bureau for Democracy, Conflict
2-000-11-001-S    12/17/10 and Humanitarian Assistance's Use of
                           Compensatory Time
                           Review of USAID's Obligation of Funds and
2-000-11-002-S    03/29/11 Project Planning for the African Global Quilt
                           Alliance
                             Survey of USAID/Sudan's Elections Assistance
4-650-11-001-S    11/18/10
                             Activities
                             Risk Assessment of USAID/Yemen's Major
6-279-11-001-S    03/30/11
                             Activities
                           Survey of Security Incidents Reported by
E-267-11-001-S    11/29/10 Private Security Contractors of USAID/Iraq's
                           Contractors and Grantees
                           Review of USAID/Iraq's Contractors'
E-267-11-002-S    12/12/10 Compliance with the Trafficking Victims
                           Protection Reauthorization Act of 2008
                             Review of USAID/Afghanistan's Ministerial
F-306-11-001-S    11/06/10
                             Assessment Process
                           Review of Cash Disbursement Practices of
F-306-11-002-S    03/07/11 Selected USAID/Afghanistan Implementing
                           Partners




 BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs         Note: UN is part of QC




                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010—March 31, 2011   115
                          Miscellaneous Reports
    Associated Questioned Costs, Unsupported Costs, and Value of
         Recommendations That Funds Be Put to Better Use
                                    USADF and IAF
                          October 1, 2010–March 31, 2011

During the reporting period, neither the United States African Development
Foundation nor the Inter-American Foundation had miscellaneous reports with
associated questioned costs, unsupported costs, or recommendations that funds
be put to better use.

.




116     USAID OFFICE OF INSPECTOR GENERAL
             Statistical Table of Reports With
            Questioned and Unsupported Costs
                           USAID
                          October 1, 2010–March 31, 2011
                                                      Number of        Questioned          Unsupported
                     Reports                            Audit            Costs               Costs1
                                                       Reports            ($)                  ($)
A. For which no management decision had
                                                           41          14,940,4382,3       12,767,5542,3
   been made as of October 1, 2010

B. Add: Reports issued October 1, 2010–
                                                           88          76,399,8994          65,704,8354
   March 31, 2011

                   Subtotal                              129          91,340,337          78,472,389

C. Less: Reports with a management decision
                                                          795          62,689,0056          55,765,1476
   made October 1, 2010–March 31, 2011

             Value of recommendations
                                                                        44,623,357          41,115,565
             disallowed by Agency officials

             Value of recommendations
                                                                        18,065,648          14,649,582
             allowed by Agency officials

D. For which no management decision had
                                                           51          28,651,3327          22,707,2427
   been made as of March 31, 2011
 1Unsupported costs, a subcategory of questioned costs, are reported separately as required by the

 Inspector General Act.
 2The ending balance on September 30, 2010, for questioned costs totaling $14,969,868 and for
 unsupported costs totaling $12,767,575 were decreased by $29,430 and $21, respectively, to reflect
 adjustments in recommendations from prior periods.
 3Amounts  include $194,069 in questioned costs and $155,911 in unsupported costs for audits performed
 for OIG by other federal audit agencies.
 4Amounts include $40,152,366 in questioned costs and $38,329,926 in unsupported costs for audits

 performed for OIG by other federal audit agencies.
 5Unlike the monetary figures of this row, this figure is not being subtracted from the subtotal. Some
 audit reports counted here may be counted again in the figure below it because some reports have
 multiple recommendations and fall into both categories.
 6Amounts include $40,346,435 in questioned costs and $38,485,837 in unsupported costs for audits

 performed for OIG by other federal audit agencies.
 7Amounts reflect $0 in questioned costs and $0 in unsupported costs for audits performed for OIG by

 other federal audit agencies.




                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010—March 31, 2011   117
                    Reports With
          Questioned and Unsupported Costs
                   USADF and IAF
                          October 1, 2010–March 31, 2011

During the reporting period, OIG had no reports with questioned or
unsupported costs for the United States African Development Foundation or the
Inter-American Foundation.




118    USAID OFFICE OF INSPECTOR GENERAL
                Statistical Table of Reports With
                 Recommendations That Funds
                      Be Put to Better Use
                              USAID
                        October 1, 2010–March 31, 2011
                                                                        Number of
                                                                                               Value
                            Reports                                       Audit
                                                                                                ($)
                                                                         Reports

A. For which no management decision had been made as of
                                                                              0                  0
   October 1, 2010


B.    Add: Reports issued October 1, 2010–March 31, 2011                      2             1,232,901


     Subtotal                                                                 2           1,232,901

C. Less: Reports with a management decision made
                                                                              2             1,232,901
   October 1, 2010–March 31, 2011

             Value of recommendations disallowed by Agency
                                                                                             544,000
             officials

             Value of recommendations allowed by Agency
                                                                                             688,901
             officials


D. For which no management decision had been made as of
                                                                              0                  0
   March 31, 2011




                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   119
           Reports With Recommendations
           That Funds Be Put to Better Use
                   USADF and IAF
                        October 1, 2010–March 31, 2011

During the reporting period, OIG had no reports with recommendations that
funds be put to better use for the United States African Development Foundation
or the Inter-American Foundation.




120    USAID OFFICE OF INSPECTOR GENERAL
            Reports Over 6 Months Old With
               No Management Decision
                        USAID
                     October 1, 2010–March 31, 2011
   Report                    Issue
                 Auditee                                           Status
   Number                    Date
                                        Recommendation 5. Pursuant to the provisions of
                                        the Privacy Act of 1974 (5 U.S.C. 552a), USAID
                                        established a new system of records entitled the
                                        Partner Vetting System (PVS). The information was
                                        intended to be used to conduct screening to ensure
                                        that USAID funds and USAID-funded activities are
                                        not used to provide support to entities or individuals
                                        deemed to be a risk to national security. On
                                        November 6, 2007, OIG made a recommendation to
                                        USAID’s Office of Security to develop a plan to
                                        expand and then implement its antiterrorism vetting
                                        database for worldwide use. The FY 2010
                  Office                appropriations bill prohibits the use of funds to
9-000-08-001-P      of      11/06/07    implement PVS on a worldwide basis, but it also
                 Security               provides that funds may be used for a PVS pilot
                                        program, which is to apply equally to the programs
                                        and activities of the Department of State and
                                        USAID. The language in the bill is still in effect.
                                        Administrator Rajiv Shah and Under Secretary for
                                        Management Patrick Kennedy have now approved
                                        PVS pilots for State and USAID, and the agencies are
                                        forming implementation teams and formulating plans
                                        to address necessary actions. It is unknown when
                                        such pilots will be implemented since there are some
                                        remaining requirements to publish related rules in
                                        the Federal Register which must provide time for
                                        public comment and response. 




                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   121
             Reports Over 6 Months Old With
                No Management Decision
                      USADF and IAF
                          October 1, 2010–March 31, 2011

During this reporting period, the United States African Development Foundation
and the Inter-American Foundation had no reports over 6 months old with no
management decision.


                          Significant Revisions of
                          Management Decisions
                          USAID, USADF, and IAF
                          October 1, 2010–March 31, 2011

Section 5(a) (11) of the Inspector General Act requires a description and
explanation of the reasons for why any significant revised management decision
during the reporting period. USAID/Iraq made two significant revisions to
previous management decisions. OIG takes issue with neither.

Audit of Direct Costs Incurred and Costs Billed by the International
Foundation for Electoral Systems (IFES) under USAID Cooperative
Agreements Numbers 267-A-00-04-00405-00 from October 1, 2005,
through June 30, 2007; AFP-A-00-04-00014-00 from July 9, 2004,
through June 30, 2006; and REE-A-00-04-00050-00 from July 26, 2004,
through July 31, 2006.

DCAA questioned $1,118,016 of the $32,534,090 in costs incurred and billed by
IFES during the period July 9, 2004, through June 30, 2007, under three different
awards or subawards. As a result, OIG issued five recommendations questioning
ineligible or unsupported costs under each award or subaward. On the basis of
an April 2010 memorandum from USAID/Iraq, OIG then acknowledged the
agreement officer determinations that sustained all of the questioned costs of
$1,118,016.




122    USAID OFFICE OF INSPECTOR GENERAL
Subsequently, the agreement officer met with IFES officials three times to review
documentation. Following those reviews, the agreement officer decided to allow
$1,022,637 and disallow (sustain) $95,379 of the total questioned costs from the
five recommendations. USAID has issued a bill of collection for this amount.

OIG acknowledged on November 14, 2010, that revised management decisions
had been reached for Recommendations 1 through 5.

Audit on Costs Verified for BearingPoint, Inc. Under USAID Contract
No. 267-C-00-04-00405-00 for the Period October 1, 2007, through
May 15, 2009.

On July 20, 2009, OIG issued its report questioning $69,707,089 in unsupported
costs and $3,655,779 in unsupported fixed fees. On November 25, 2009,
USAID/Iraq’s contracting officer determined that the $69,707,089 and
$3,655,779 in questioned unsupported costs were sustained (unallowable).

OIG then acknowledged that decision in December 2009. On March 30, 2011,
USAID/Iraq’s contracting officer revised the contracting officer determination to
allow $69,700,457 in questioned unsupported costs and disallow (sustain) $6,632
in questioned unsupported costs. The contracting officer also allowed the
$3,655,779 in questioned unsupported fixed fees.

The mission stated that it will issue a bill of collection by the end of June 2011
for the disallowed costs in the amount of $6,632. On the basis of the mission’s
actions, OIG/Iraq acknowledged on March 30, 2011, that revised management
decisions had been reached.

USADF and IAF had no significant revisions of management decisions.




                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   123
       Management Decisions With Which the
           Inspector General Disagrees
              USAID, USADF, and IAF
                          October 1, 2010–March 31, 2011

The Inspector General Act of 1978, as amended, requires inspectors general to
provide information concerning any significant management decisions with which
the inspector general disagrees.

During this reporting period, the Inspector General did not disagree with any
significant management decisions.




      Noncompliance With the Federal Financial
          Management Improvement Act
                     USAID
                          October 1, 2010–March 31, 2011

Section 5(a)(13) of the Inspector General Act requires inspectors general to
provide an update on issues outstanding under a remediation plan required by
the Federal Financial Management Improvement Act (FFMIA, Public Law 104-208,
Title VIII, codified at 31 U.S.C. 3512 note). FFMIA requires agencies to comply
substantially with (1) federal financial management system requirements, (2)
federal accounting standards, and (3) the U.S. Standard General Ledger at the
transaction level. An agency that is not substantially compliant with FFMIA must
prepare a remediation plan.

USAID had no instances of noncompliance to report during this reporting
period.




124    USAID OFFICE OF INSPECTOR GENERAL
                         Significant Findings From
                          Contract Audit Reports
                                   USAID
                           October 1, 2010–March 31, 2011

The National Defense Authorization Act for FY 2008 (Public Law 110-181,
Section 845) requires inspectors general to submit information on contract audit
reports 26 that contain significant audit findings in semiannual reports to the
Congress. The act defines “significant audit findings” to include unsupported,
questioned, or disallowed costs in excess of $10 million and other contract-
related findings that the Inspector General determines to be significant. During
this reporting period, two OIG reports issued for work in Iraq identified
significant audit findings.

Audit of Costs Incurred and Billed by International Relief and
Development, Inc. (IRD), Under USAID Cooperative Agreement No.
267-A-00-06-00503-00, for the Period of October 1, 2007, Through
September 30, 2008

The Defense Contract Audit Agency conducted this audit and questioned
$40,043,349 of the $314,760,396 in costs incurred and billed by IRD. The
purpose of the cooperative agreement was to provide support for the
Community Stabilization Program. Program activities included community clean­
up campaigns, trash collection, rehabilitating roads and schools, and projects to
improve water and sewage services. The OIG report included three
recommendations totaling $1,713,423 in questioned ineligible costs, $180,616 in
questioned unsupported direct and indirect costs, and $38,149,310 in questioned
security costs incurred and billed by IRD’s subcontractor, Sabre International
Security. The agreement officer determined that $143,238 were allowable costs.
However, the mission plans to issue a bill of collection to IRD for the total
disallowed amount of $39,900,110.




26
     Includes grants and cooperative agreements.




                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   125
Close-Out Audit of Fund Accountability Statement of USAID
Resources Management by International Relief and Development, Inc.
(IRD), Under USAID Cooperative Agreement No. 267-A-00-06-00503­
00, for the Period for October 1, 2008, to October 31, 2009

This audit was conducted by a public accounting firm and questioned
$18,612,226 of the $133,509,611 in local direct costs incurred and billed by IRD.
The purpose of the cooperative agreement was to implement the Community
Stabilization Program. Program objectives included increasing employment—
especially for young people—business growth, and improving infrastructure and
essential services. The OIG report included three recommendations with
questioned costs of $17,840,486 related to program intervention and support
costs that were not supported, $432,422 in ineligible payroll payments made to
employees who did not meet the minimum qualifications required for their
positions or whose qualification documents were missing from their personnel
files, and $339,318 in unsupported cost-sharing contributions. No management
decisions have been reached on the recommendations.




126    USAID OFFICE OF INSPECTOR GENERAL
                       Peer Reviews
                USAID, USADF, IAF, and MCC
                       October 1, 2010–March 31, 2011

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law
111-203) was signed into law July 21, 2010. Section 989C of this law amends the
Inspector General Act to require federal inspectors general to report on results
of peer reviews in their semiannual reports.

Results of any peer reviews conducted on USAID OIG during the
reporting period.

Audit: No peer reviews were conducted during this period.

Investigations: No peer reviews were conducted during this period.

Date of the last peer review conducted on USAID OIG, if a review was not
conducted during the last reporting period.

Audit: September 2009

Investigations: April 2008

List of outstanding recommendations for any peer review conducted
on USAID OIG that have not been fully implemented, including a
statement describing the status of the implementation and why
implementation is not complete.

Audit: None

Investigations: None

List of peer reviews conducted by USAID OIG during the reporting period,
including a list of any outstanding recommendations from any previous peer
review (including any peer review conducted before the reporting period) that
remain outstanding or have not been fully implemented.

Audit: None

Investigations: None




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   127
128   USAID OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS

    Millennium Challenge Corporation




             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   129
130   USAID OFFICE OF INSPECTOR GENERAL
                           INTRODUCTION

Established in 2004 by the Millennium Challenge Act of 2003,27 the Millennium
Challenge Corporation (MCC) is a U.S. Government corporation that works to
reduce poverty and stimulate economic growth in some of the poorest countries
in the world. When a country meets the performance standards of MCC’s
17 policy indicators, it may become eligible to receive a compact—the chief
grant instrument between MCC and the country to fund specific programs.

Compact countries must ensure that certain conditions are met after
the agreement is signed, which can take several months to resolve. When
the agreement conditions are met, the agreement timeline begins and the
agreement is said to “enter into force.” Entry into force is the point at which
MCC’s compact funds are obligated. Each compact country identifies an entity or
organization that will manage the compact funds and oversee compact
implementation. Such entities are usually called Millennium Challenge Accounts
(MCAs).

During this period, OIG has provided audit oversight for MCC’s financial and
performance accountability. Financial audits of U.S. taxpayer monies granted to
compact countries are an important component of OIG’s audit activities. With
the assistance of independent audit firms, OIG issued 15 audit reports covering
approximately $376 million expended by compact countries. The audits
identified questioned costs of about $4.8 million.

We also contracted with an independent public accounting firm to conduct an
audit of MCC’s financial statements, internal controls, and compliance with laws
and regulations for the periods ending September 30 in 2010 and 2009. The
accounting firm expressed a qualified opinion on the financial statements and
made 17 recommendations to improve MCC’s financial reporting.

During this reporting period, OIG conducted an information technology-related
audit of MCC. The audit dealt with MCC’s implementation of selected key
project controls to meet cost, schedule, and performance goals for MCC’s
Integrated Data Analysis System. As a result of the audit, OIG made nine
recommendations to strengthen MCC’s project management capabilities for
information technology projects.




27
     Public Law 108-199.




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   131
In addition, OIG carried out performance audits related to MCC’s health
activities in Lesotho and MCC’s funded activities in Tanzania. Fourteen
recommendations were made to improve MCC’s operations in these areas.

MCC has made several oversight improvements in its operations during this
reporting period. MCC has reestablished the Senior Assessment Board (SAB)
pursuant to the requirements of Office of Management and Budget (OMB)
Circular A-123, Management’s Responsibility for Internal Control, and the
Assistant Inspector General for MCC serves as an advisory member. The SAB is
responsible for making recommendations to MCC’s Chief Executive Officer on
financial management and internal control matters and ensuring the
implementation of management decisions related to findings and
recommendations arising from the OIG and GAO audits. The SAB is also
responsible for overseeing MCC’s internal control environment, including
controls and processes to ensure compliance with pertinent financial
management statutes and regulations.

MCC and OIG are collaborating on the implementation of an innovative policy
to further MCC’s ability to prevent, detect, and remediate fraud and corruption
that might occur during its operations. In accordance with this policy, MCC has
established a process for anyone to report allegations of fraudulent or corrupt
practices. The process is designed to ensure that allegations of fraud and
corruption are adequately and consistently addressed internally by MCC staff
and referred to OIG for investigation. Under this process, the MCC intake team
immediately contacts OIG and works with OIG and other relevant MCC staff to
quickly determine an appropriate course of action.

As a result of OIG’s 2010 review of MCA-Senegal’s compact implementation,
MCC established a risk management working group. The group comprises
MCC’s field and headquarters staff, who provide risk management tools and
resources to country teams to better assess and manage risk. The group has
proposed a risk register template and has submitted recommendations to
identify, assess, prioritize, and monitor risk. It has also proposed standardizing
the documentation of risk analysis and mitigation plans in the internal MCC
investment memo and sharing that documentation with MCA counterparts.




132    USAID OFFICE OF INSPECTOR GENERAL
                 SIGNIFICANT FINDINGS

              Just and Democratic Government

                     Rule of Law and Human Rights
Review of Millennium Challenge Corporation’s Approach to
Addressing and Deterring Trafficking in Persons (Report No. M-000­
11-001-S). The William Wilberforce Trafficking Victims Protection
Reauthorization Act of 2008, Public Law 110-457, requires USAID OIG to
investigate a sample of contracts and report the findings to the Congress by
January 15, 2011. OIG reviewed seven contracts and one cooperative agreement
valued at about $251.7 million that contained trafficking in persons (TIP)
provisions. The review found that MCC included TIP provisions in its guidance
for the procurement of large works contracts, but specific TIP provisions were
not included in its guidance for the procurement of small works contracts. The
review contained one recommendation for MCC to revise its guidance on
standard bidding documents for procurement of small works to include specific
TIP provisions. A management decision was reached on the recommendation.

              Economic Growth and Prosperity

                             Economic Security
Audit of the Millennium Challenge Corporation’s Funding of Activities
in Tanzania (Report No. M-000-11-003-P). In February 2008, MCC signed a
5-year, $698 million compact with the Government of Tanzania aimed at
reducing poverty and stimulating economic growth through investments in the
transportation, energy, and water sectors. Activities will improve roads, improve
the provision of electric power, and increase the availability of potable water.

The audit found that MCC did not identify or completely mitigate the major risks
related to the Tanzania compact. As a result, the compact activities will not be
completed within budget and may not be completed on schedule. MCC did not
identify several significant risks before compact signing, leading to substantial
changes during implementation. In addition, the funding provided by the compact
was insufficient to complete the project without the addition of Tanzanian
Government funds, which are not guaranteed. Finally, MCC’s approach to
ensuring workers’ safety and livelihoods needs improvement. MCC agreed with
two recommendations and disagreed with one. Management decisions have been




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   133
reached on the two agreed-upon recommendations. OIG disagreed with MCC’s
response to the third recommendation.


                              Investment in People

                                           Health
Audit of the Millennium Challenge Corporation’s Health Sector
Project in Lesotho (Report No. M-000-11-001-P). MCC’s compact with
Lesotho provided a $122 million Health Sector Project to mitigate the negative
economic effects of HIV/AIDS and tuberculosis by strengthening the country’s
health care system. OIG performed an audit of the Health Sector Project to
determine whether it was structured to achieve its objective of increasing access
to antiretroviral therapy and essential health services by providing a sustainable
delivery platform.

The audit found that MCC structured its Health Sector Project to achieve the
compact objective of increasing access to antiretroviral therapy and essential
health services. However, the audit identified certain risks that could impact the
successful implementation of the project activities and the achievement of the
project goal, such as funding shortages, problems with project oversight and data
quality, and poor communication with stakeholders and donors.

OIG made 11 recommendations to improve the Health Sector Project, including
reducing the cost of the program by $8 million (or justifying the expenditure),
strengthening oversight to enhance project implementation, and helping to
ensure that the people of Lesotho will have access to all essential health services,
including family planning and effective communicable disease control.
Management decisions have been reached on each of the 11 recommendations.
Final action has also been taken on 6 of the 11 recommendations.


                          Management Capabilities

                                 Information Technology

Audit of the Millennium Challenge Corporation’s Implementation of
Selected Key Project Controls for the MCC Integrated Data Analysis
System (Report No. M-000-11-002-P). OIG initiated this audit to determine
whether MCC implemented selected key project controls to meet cost,




134    USAID OFFICE OF INSPECTOR GENERAL
schedule, and performance goals for the MIDAS project, an integrated data
analysis system.

MCC did not implement three key project controls to meet cost, schedule, and
performance goals. Specifically, MCC did not (1) manage MIDAS project risks,
(2) use earned value management, which is a required project management
control tool, or (3) effectively manage the MIDAS requirements, which specify
system capabilities and limitations.

OIG made nine recommendations to strengthen MCC’s project management
capabilities for information technology projects, and management decisions have
been reached on all of them.


                          Financial Management
Audit of the Millennium Challenge Corporation's Financial
Statements, Internal Controls, and Compliance for the Period Ending
September 30, 2010 and September 30, 2009 (Report No. M-000-11­
001-C). OIG contracted with an independent public accounting firm, Cotton
and Company LLP, to audit MCC’s financial statements as of September 30,
2010. The company expressed a qualified opinion on MCC’s FY 2010 and
FY 2009 financial statements.

The report stated that the auditors discovered certain errors that resulted in
understatements of previously reported advances as of September 30, 2009.
Consequently, the financial statements as of September 30, 2009, were restated
to reflect corrections to previously reported advances and the related effect on
expenses.

The report also stated that MCC’s process for compiling accruals was not
comprehensive enough to record accruals for material amounts of current-year
expenses that were not paid or invoiced until the subsequent period. Although
additional procedures were performed to compile such information for the
FY 2010 statements, these procedures did not extend to FY 2009, which—in the
independent auditors’ opinion—should have been included in accordance with
generally accepted accounting principles. FY 2009 expenses were understated by
accrual amounts, and FY 2010 expenses were overstated by those same
amounts.

In the auditors’ opinion, except for the concerns noted above, MCC’s financial
statements for FY 2010 and FY 2009 present fairly, in all material respects, the
financial position of MCC as of September 30, 2010 and 2009, and its net costs,
changes in net position, and budgetary resources for the applicable years.




                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   135
The audit report included 17 recommendations, and management decisions were
reached on all of them.


                          Fund Accountability Statements
The OIG financial audit team is responsible for reviewing and issuing semiannual
fund accountability statement audits of each accountable entity that is awarded a
compact. The audits are conducted by independent public auditors, as required
by compact agreements.

Under the terms of MCC compacts, funds expended by a recipient country must
be audited at least annually, but they are usually audited twice a year. The
recipient establishes a Millennium Challenge Account (MCA) and produces
financial statements documenting account activity. The audit of the fund
accountability statement is conducted by a firm that OIG has approved.

The selected audit firm issues an opinion on whether the financial statements
present fairly, in all material respects, the program revenues and costs incurred
and reimbursed, in conformity with the terms of a compact agreement and
related supplemental agreement for the period being audited. In addition, the
audit firm is required to employ generally accepted government auditing
standards in performing the audits. All audit reports are reviewed, approved, and
issued by OIG. During this reporting period, OIG issued 39 recommendations
for the 15 fund accountability statement audits conducted.

Armenia (Report No. M-000-11-011-N). The independent audit of MCA–
Armenia covered incurred costs totaling $22 million for the period January 1 to
June 30, 2010. The 5-year, $235.6 million compact with the Government of the
Republic of Armenia aims to reduce rural poverty through a sustainable increase
in the economic performance of the agricultural sector in Armenia.

The independent auditors reported that, except for unsupported questioned
costs of $28,077, the MCA–Armenia fund accountability statement presented
fairly, in all material respects, program revenues and costs incurred for the
period audited. The questioned costs related to payments that were missing
approval signatures. The auditors also identified a significant deficiency in the
internal control structure involving subsequent contract payments. In addition,
auditors noted a noncompliance issue related to a number of payment
authorization forms that were not approved by the Fiscal Agent staff prior to
approval of payment orders.

Benin (Report No. M-000-11-010-N). The independent audit of MCA–Benin
covered incurred costs totaling $30.5 million for the period January 1 to June 30,




136    USAID OFFICE OF INSPECTOR GENERAL
2010. On February 22, 2006, MCC signed a 5-year, $307 million compact with
the Government of the Republic of Benin for providing technical assistance to
achieve improved access to land, financial services, markets, and justice by its
citizens. The compact funds training for farmers in the production and marketing
of high-value horticultural crops, expands farmer access to credit through
technical assistance to financial institutions and loans, constructs and rehabilitates
feeder roads, and strengthens the institutional environment for business and
investment by improving the ability of judicial system to resolve claims.

The auditors reported that, except for unsupported questioned costs of
$29,166, the MCA–Benin fund accountability statement presented fairly, in all
material respects, program revenues and costs incurred for the period audited.
The auditors identified significant deficiencies in the internal control structure
involving (1) questioned costs related to $68,857 in outstanding advances
($29,166 of which was overdue as of June 30, 2010) and (2) inadequate
management information relating to variable analysis (comparing actual
expenditures with budgeted expenditures). In addition, the auditors reported a
material instance of noncompliance with fiscal accountability plan requirements
relating to the accounting of travel advances.

Burkina Faso (Report No. M-000-11-006-N). The MCA-Burkina Faso audit
covered incurred costs of more than $14 million for the period July 1, 2008, to
December 31, 2009. The $480.9 million, 5-year compact aims to reduce poverty
in Burkina Faso through economic growth.

The independent auditors reported that the fund accountability statement
presented fairly in all material respects, program revenues and costs incurred for
the period audited. The independent auditors also reported the following
significant internal control deficiencies: (1) absence of an antifraud program at
MCA–Burkina Faso, (2) poor assessment of the lease contract with GFA
Consulting Group, (3) noncompliance with reimbursement deadlines on travel
advances, (4) a lack of written procedures on salary advances management, (5) a
lack of fixed assets physical inventory, (6) a lack of formal steps in budget
planning, (7) absence of a contract for the party managing the cafeteria of MCA–
Burkina Faso, (8) a lack of control for vehicle log books, (9) the employment
contract of a foreign worker had not been signed or recorded by Labor
Inspection, (10) a lack of national social security numbers for 31 out of the 63
staff members, and (11) a lack of management of fixed assets. In addition, the
independent auditors reported one instance of noncompliance related to the tax
exoneration of MCA–Burkina Faso.

Georgia (Report No. M-000-11-007-N). The independent audit of MCG–
Georgia covered incurred costs totaling $77,065,382 for the period July 1 to
December 31, 2009. In September 2005, MCC signed a 5-year, $295.3 million
compact with the Government of the Republic of Georgia to improve the two



                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   137
main barriers to economic growth: a lack of reliable infrastructure and the slow
development of businesses, particularly agribusiness. In November 2008, MCC
and the Government of the Republic of Georgia signed a compact amendment
making up to $100 million in additional funds available to complete works in the
roads, regional infrastructure development, and energy rehabilitation activities
contemplated by the original compact.

The auditors reported that, except for unsupported questioned costs of
$2,184,327, the fund accountability statement presented fairly, in all material
respects, program revenues and expenditures for the period audited. The
unsupported costs related to interim payment applications for performed civil
works of $2,155,853, compensation invoices submitted by members of the
Board of Directors of the Georgian Regional Development Fund of $24,000,
excess room rental fees of $3,350, and excess mobile roaming charges of $1,124.

The independent auditors reported two internal control deficiencies that were
considered to be material weaknesses: (1) inadequate supporting documentation
for billed interim payment applications for civil works projects and (2) a lack of
documented, comprehensive procedures for reviewing cost-sharing
requirements. In addition, the auditors reported two deficiencies in internal
control that were considered to be significant: (1) undocumented compensation
to members of the Board of Directors while in attendance at a Board-related
business activity and (2) roaming charges for mobile phone services that are paid
without additional reviews to determine the allowability of the costs.

Ghana (Report No. M-000-11-015-N). The independent audit of MiDA
(Millennium Development Account)–Ghana covered MiDA-incurred costs in the
amount of $67,970,934. The 5-year compact for $547 million is meant to
(1) enhance the profitability of cultivation, (2) provide services to agriculture and
product handling in support of expansion of commercial agriculture among crops
of smallholder farms, (3) reduce the transportation costs affecting the
agricultural commerce regionally and subregionally, and (4) strengthen the rural
institutions that provide services to complement and support agricultural and
agribusiness development.

The independent auditor reported that, except for questioned costs totaling,
$2,007,480, the fund accountability presented fairly, in all material respects,
program revenues and expenditures for the period audited. In addition to these
questioned costs, OIG questioned $5,323 in refunds due to contractors by
MiDA–Ghana.

The independent auditors reported a significant deficiency in internal control
involving inadequate monitoring of employee travel advances and material
instances of noncompliance involving areas such as covered providers, untimely




138    USAID OFFICE OF INSPECTOR GENERAL
value-added tax (VAT) refunds, a contract change order, untimely payments,
awarded contractors omitted from the awards publication, statutory payroll
deductions, and refunds not being paid.

Honduras (Report No. M-000-11-003-N). The independent audit of MCA–
Honduras covered incurred costs totaling $50.9 million for the period July 1
through December 31, 2009. On June 13, 2005, MCC signed a 5-year,
$215 million compact with the Government of the Republic of Honduras aimed
at reducing poverty by alleviating two key impediments to economic growth: low
agricultural productivity and high transportation costs. On October 16, 2009,
MCC terminated $10 million of the road component of the compact because of
actions inconsistent with MCC’s selection criteria that had occurred in
Honduras in June 2009.

The MCA–Honduras’ fund accountability statement presented fairly, in all
material respects, program revenues, costs incurred and reimbursed, and
commodities and technical assistance procured directly by MCC for the period
under audit. The results of the audit did not disclose any instances of
noncompliance that are required to be reported under U.S. Government
Auditing Standards. However, the auditors identified a significant deficiency in
the internal control structure. The deficiency involved invoices that were not
stamped “PAID” to show that payment had been made to a vendor.

Lesotho (Report No. M-000-11-013-N). The independent audit of MCA–
Lesotho covered incurred costs totaling $14,736,051 for the period January 1 to
June 30, 2010. In July 2007, MCC signed a 5-year, $362.6 million compact with
the Kingdom of Lesotho.

The compact is designed to have a significant impact on projects intended to
improve access to clean water for industrial and domestic use, improve health
care through the provision of infrastructure and equipment, and increase private
sector economic activities by improving access to credit, reducing risk and costs
of doing business, and increasing the participation of women in the economy.

The MCA–Lesotho fund accountability statement presented fairly, in all material
respects, program revenues, costs incurred and reimbursed, and commodities
and technical assistance procured directly by MCC for the period ending
December 31, 2009. Deficiencies were noted in internal controls and compliance
with laws and regulations.

Mali (Report No. M-000-11-002-N). The independent audit of MCA–Mali
covered incurred costs totaling $33.7 million for the period July 1 to
December 31, 2009. On November 13, 2006, MCC signed a 5-year,
$460.8 million compact with the Government of the Republic of Mali. The




                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   139
compact aimed to reduce poverty by alleviating two key impediments to
economic growth: low agricultural productivity and high transportation costs.

The MCA–Mali fund accountability statement presented fairly, in all material
respects, program revenues, costs incurred and reimbursed, and commodities
and technical assistance procured directly by MCC for the period ending
December 31, 2009.

The results of the audit did not disclose any instances of noncompliance that are
required to be reported under U.S. Government Auditing Standards. However,
the auditors identified significant deficiencies in the internal control structure
involving (1) weaknesses related to the physical inventory of fixed assets and
(2) procurement procedures.

Mongolia (Report No. M-000-11-009-N). The MCA–Mongolia audit covered
incurred costs of $4.6 million for the period July 1 to December 31, 2009. The
5-year compact for $284.9 million funds projects in order to advance progress
towards achieving economic growth and poverty reduction.

Except for $116 in VAT paid, the fund accountability statement presented fairly,
in all material respects, program revenues as well as costs incurred and
reimbursed. The auditors found no internal controls or compliance problems
that were reported for the period.

Morocco—Two Audits

(Report No. M-000-11-008-N)

The MCA–Morocco audit covered incurred costs of $11,974,452 for the period
January 1 to June 30, 2009. The $697.5 million compact aims to reduce poverty
and stimulate economic growth through investments in fruit tree productivity,
small-scale fisheries, and artisan crafts. In addition, the compact supports small
business creation and economic growth through investments in financial services
and enterprise support.

The auditors reported that, except for ineligible questioned costs of $8,443, the
fund accountability statement presented fairly, in all material respects, program
revenues and expenditures for the period audited. The ineligible questioned
costs of $8,443 relate to VAT paid by MCA–Morocco.

The independent auditors reported the following eight significant deficiencies
involving internal controls and operations: (1) MCA–Morocco does not maintain
memoranda documentation for fixed assets; (2) MCA–Morocco does not
maintain acceptance notes for fixed assets in accordance with the fiscal




140    USAID OFFICE OF INSPECTOR GENERAL
accountability plan; (3) MCA–Morocco does not maintain documentation as to
when fixed assets are put into use; (4) MCA–Morocco does not always record
transactions in the proper account; (5) MCA–Morocco does not always stamp
invoices as recorded and paid; (6) MCA–Morocco does not perform a weekly
inventory of petty cash funds; (7) employee travel expense reports are not
completed within 7 days of the employee’s return to the workplace; and
(8) miscellaneous expenses exceed the 500 MAD (Moroccan Dirham) limit.

In addition, the auditors identified the following multiple material instances of
noncompliance: (1) MCA–Morocco did not submit transport allowance and
enterprise allowance to the income tax during the audited period, (2) MCA–
Morocco did not report amounts paid to an individual who provided cleaning
services to the National Social Security Fund, and (3) MCA–Morocco did not pay
the VAT of $1,550 on some invoices upon filing the exemption request form.

(Report No. M-000-11-012-N)

The MCA–Morocco audit covered incurred costs of $19,729,157 for the period
July 1 to December 31, 2009.

The auditors reported that, except for ineligible questioned costs of $17,369, the
fund accountability statement presented fairly, in all material respects, program
revenues and expenditures for the period audited. Of ineligible questioned costs,
$11,851 relates to VAT tax paid by MCA–Morocco, $4,321 relates to insurance
tax paid, and $1,197 relates to out-of-period costs.

The independent auditors reported a significant deficiency involving internal
control and operation in that the staff’s files reviewed were incomplete.

In addition, the auditors identified multiple material instances of noncompliance
involving lack of reimbursement for VAT paid and salaries for which income tax
was not withheld.

Mozambique (Report No. M-000-11-014-N). The MCA-Mozambique audit
covered incurred costs totaling $3.7 million during the period of January 1 to
June 30, 2009. In July 2007, MCC signed a 5-year, $506.9 million compact with
the Government of the Republic of Mozambique to increase the productive
capacity of the population in the northern districts, with the intended impact of
reducing the poverty rate, increasing household income, and reducing chronic
malnutrition in the targeted districts.

The MCA-Mozambique fund accountability statement presented fairly, in all
material respects, program revenues, costs incurred and reimbursed, and
commodities and technical assistance procured directly by MCC for the period
ending June 30, 2009. However, deficiencies were noted with the fund



                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   141
accountability statement and internal controls and compliance with laws and
regulations. The audit also identified unsupported questioned costs of $503,197.

Namibia—Two Audits

(Report No. M-000-11-001-N)

This MCA–Namibia audit covered incurred costs of nearly $3.9 million for the
period January 1 to December 31, 2009. The 5-year, $304.5 million compact
funds projects in education and training as well as increasing rural incomes
through tourism and agriculture.

The fund accountability statement presents fairly, in all material respects,
program revenues as well as costs incurred and reimbursed.

The audit found one internal control deficiency regarding bank reconciliations.
From January through December 2009, MCA–Namibia did not have an
independent review of all bank reconciliations. All bank reconciliations, after
independent review, should be signed by the independent reviewer as proof that
the internal control procedure was performed.

The audit also found several noncompliance issues: timesheets were submitted
only since October 2009; the MCA–Namibia employees’ housing allowance
scheme was not registered, as required, with the Government of the Republic of
Namibia; the required documentation regarding the employees’ housing
allowance was not kept in the employees’ personnel files; and MCA–Namibia
employees were not paid for overtime, as required, but were given leave instead.

(Report No. M-000-11-005-N)

This independent audit of MCA–Namibia covered incurred costs totaling
$9.1 million for the period January 1 to June 30, 2010.

The independent auditors reported that MCA–Namibia’s fund accountability
statement presented fairly, in all material respects, program revenues, costs
incurred and reimbursed, and commodities and technical assistance procured
directly by MCC for the period ending June 30, 2010. The results of the audit did
not disclose any instances of noncompliance that are required to be reported
under U.S. Government Auditing Standards. The independent auditors reported
internal control deficiencies such as (1) journals that were out of sequence, (2)
invoices that were posted in the wrong reporting period, and (3) a timesheet
that had not been approved by the human resources manager. The independent
auditors also reported the following material instances of noncompliance: (1) the
housing allowance scheme had not been approved by the Directorate of Inland




142    USAID OFFICE OF INSPECTOR GENERAL
Revenue and (2) the proof of rental agreement or bond repayment by employees
was not submitted.

Tanzania (Report No. M-000-11-004-N). The MCA–Tanzania audit covered
incurred costs of about $10.8 million for the period July 1 through
December 31, 2009. The 5-year compact for approximately $698 million
supports strategic investments in transportation, energy, and water
infrastructure.

The auditors reported that the fund accountability statement presented fairly, in
all material respects, program revenues, costs incurred and reimbursed, and
commodities and technical assistance procured for the period audited. However,
internal control deficiencies regarding leave forms not being completed, imprest
not being retired within 4 days after official travel, and the imprest register not
being updated were identified in the report.

Quality-Control Reviews—Ghana (Report No. M-000-11-001-Q). During
this reporting period, OIG conducted quality-control reviews of work
performed by the audit firm that conducted semiannual audits of the compact
funds in Ghana. In these reviews, OIG found that the audit work was adequately
planned and that the working papers supported the audit report conclusions in
accordance with generally accepted government auditing standards and other
guidelines.




                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   143
        Significant Recommendations Described
            Previously Without Final Action
                         MCC
                            October 1, 2010–March 31, 2011

Section 5(a)(3) of the Inspector General Act of 1978 requires each inspector
general to identity each significant recommendation described in previous
semiannual reports on which corrective action has not been completed.

                                                                                      Final
      Report                                        Issue     Rec.   Management      Action
                           Subject of Report
      Number                                        Date      No.    Decision Date   Target
                                                                                      Date
                      Audit of the MCC
M-000-09-002-P                                     03/31/09     7      03/31/09      05/11
                      Programs in Cape Verde
                      Audit of the Millennium
                      Challenge Corporation’s                   3
M-000-09-003-P                                     04/29/09            04/07/09      09/11
                      Management of the                         5
                      Threshold Program
                      Report No. M-000-09­
                      002-S regarding (a) MCA­
                      Lesotho’s compliance with
                      Chapter 37: Cost
                      Principles for Government
                      Affiliates Involved in MCC
                      Compact Implementation,
                      (b) MCA-Lesotho's
                      compliance with the
                      Millennium Challenge
M-000-009-002-S       Corporation (MCC)            09/30/09     1      01/22/10      05/11
                      "Policies and Procedures
                      for Common Payment
                      System" and its fiscal
                      accountability plan (FAP),
                      and (c) the establishment
                      of policies and procedures
                      to ensure that MCC's
                      accountable entities'
                      employees were hired at
                      reasonable salary levels




144      USAID OFFICE OF INSPECTOR GENERAL
                                                                                                      Final
   Report                                          Issue         Rec.       Management               Action
                     Subject of Report
   Number                                          Date          No.        Decision Date            Target
                                                                                                      Date
                                                                    1          09/30/09              06/11
                 Audit of Agricultural                              2          09/30/09              06/11
M-000-09-005-P                                  09/30/09
                 Credit Program in Ghana                            4          09/30/09              06/11
                                                                    5          09/30/09              06/11
                                                                    3          09/30/09              06/11
                 Audit of the Georgia
                                                                    4          09/30/09              06/11
M-000-09-006-P   Regional Development           09/30/09
                                                                    6          09/30/09              06/11
                 Fund
                                                                    7          09/30/09              06/11
                 Audit of the Millennium
                 Challenge Corporation’s
M-009-09-006-P   Regional Infrastructure        09/30/09            2          06/10/10              05/11
                 Rehabilitation Project in
                 Georgia
                 Audit of the Challenge
M-000-10-001-P   Corporation’s Access to        03/31/10            5          06/08/10              6/11
                 Markets Project in Benin
                 Management Letter: Audit                           1          03/31/10              06/11
                 of the Millennium                                  2          03/31/10              06/11
                 Challenge Corporation’s                            9          03/31/10              06/11
M-000-10-002-C   Financial Statements for       03/31/10           11          03/31/10              06/11
                 the Period Ending                                 12          03/31/10              06/11
                 September 30, 2009, and                           13          03/31/10              06/11
                 2008                                              14          03/31/10              06/11
                 Review of the Termination
                 of the Millennium
M-000-10-002-P                                  03/31/10            3          06/08/10              06/11
                 Challenge Corporation
                 Compact with Madagascar
                 Audit of the Millennium
                                                                    1          09/28/10              09/11
                 Challenge Corporation’s
M-000-10-005-P                                  09/30/10            3          09/28/10              09/11
                 Transport Infrastructure
                                                                    7          09/28/10              09/11
                 Project in Vanuatu
                 Audit of the Millennium                            1          09/23/10              09/11
M-000-10-006-P   Challenge Corporation’s        09/30/10            2          09/23/10              07/11
                 Programs in Burkina Faso                           3          09/23/10              09/11




                                 SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011     145
      Investigative Activities Including Matters
        Referred to Prosecutive Authorities
                        MCC
                          October 1, 2010–March 31, 2011

Investigative activities for MCC are incorporated into the totals appearing on
page 70.


        Incidents in Which OIG Was Refused
              Assistance or Information
                        MCC
                         October 1, 2010–March 31, 2011

During the reporting period, there were no reports of instances in which OIG
was refused information or assistance by MCC.




146    USAID OFFICE OF INSPECTOR GENERAL
                            Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of
       Recommendations That Funds Be Put to Better Use
                                      MCC
                   October 1, 2010–March 31, 2011
                                                                            Amt. of
                 Date of                                                                  Type of
Report Number                              Report Title                     Findings
                 Report                                                                   Findings
                                                                            ($000)
                             Programs and Operations
                              Audit of the Millennium Challenge
                              Corporation’s Financial Statements,
M-000-11-001-C   11/15/10     Internal Controls, and Compliance
                              for the Periods Ending
                              September 30, 2010 and 2009
                              Management Letter Related to the
                              Audit of the Millennium Challenge
M-000-11-002-C   03/30/11     Corporation’s Financial Statements
                              for the Period Ending September 30,
                              2010 and 2009
                             MCA Audits and Reviews
                              Audit of the Millennium Challenge
                              Corporation Resources Managed by
                              MCA–Namibia, Under the Compact
M-000-11-001-N   10/06/10     Agreement Between the MCC and
                              the Government of the Republic of
                              Namibia from January 1, 2009, to
                              December 31, 2009
                              Audit of the Millennium Challenge
                              Corporation Resources Managed by
                              MCA–Mali, Under the Compact
M-000-11-002-N   11/30/10     Agreement Between the MCC and
                              the Government of the Republic of
                              Mali from July 1, 2009, to
                              December 31, 2009
                              Audit of the Millennium Challenge
                              Corporation Resources Managed by
                              MCA–Honduras, Under the
M-000-11-003-N   12/30/10     Compact Agreement Between the
                              MCC and the Government of the
                              Republic of Honduras from July 1,
                              2009 to December 31, 2009




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   147
                                                                             Amt. of
                         Date of                                                          Type of
Report Number                                      Report Title              Findings
                         Report                                                           Findings
                                                                             ($000)
                                        Audit of the Millennium Challenge
                                        Corporation Resources Managed by
                                        the MCA–Tanzania, Under the
 M-000-11-004-N          12/30/10       Compact Agreement Between the
                                        MCC and the Republic of Tanzania
                                        from July 1, 2009, to December 31,
                                        2009
                                        Audit of the Millennium Challenge
                                        Corporation Resources Managed by
                                        MCA–Namibia, Under the Compact
 M-000-11-005-N          12/30/10       Agreement between the MCC and
                                        the Government of the Republic of
                                        Namibia from January 1, 2010, to
                                        June 30, 2010
                                        Audit of the Millennium Challenge
                                        Corporation Resources Managed by
                                        MCA–Burkina Faso, Under the
 M-000-11-006-N          12/30/10       Compact Agreement Between the
                                        MCC and the Government of
                                        Burkina Faso from July 1, 2008, to
                                        December 31, 2009
                                        Audit of the Millennium Challenge
                                        Corporation Resources Managed by
                                        Millennium Challenge Georgia Fund
                                        (MCG), Under the Compact              2,184         QC
 M-000-11-007-N          12/30/10
                                        Agreement Between the MCC and         2,184         UN
                                        the Government of the Republic of
                                        Georgia from July 1, 2009, to
                                        December 31, 2009
                                        Audit of the Millennium Challenge
                                        Corporation Resources Managed by
                                        MCA–Morocco, Under the
 M-000-11-008-N          12/30/10       Compact Agreement Between the            8          QC
                                        MCC and the Government of
                                        Morocco from January 1, 2009, to
                                        June 30, 2009
                                        Audit of the Millennium Challenge
                                        Corporation Resources Managed by
                                        MCA–Mongolia, Under the
 M-000-11-009-N          01/28/11       Compact Agreement Between the            0          QC
                                        MCC and the Government of
                                        Mongolia from July 1, 2009, to
                                        December 31, 2009


BU—Better Use of Funds      QC—Questioned Costs      UN—Unsupported Costs    Note: UN is part of QC




148     USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amt. of
                         Date of                                                                Type of
Report Number                                    Report Title                     Findings
                         Report                                                                 Findings
                                                                                  ($000)
                                    Audit of the Millennium Challenge
                                    Corporation Resources Managed by
                                    MCA–Benin, Under the Compact
                                                                                      29           QC
M-000-11-010-N           03/08/11   Agreement Between the MCC and
                                                                                      29           UN
                                    the Government of the Republic of
                                    Benin from January 1, 2010, to
                                    June 30, 2010
                                    Audit of the Millennium Challenge
                                    Corporation Resources Managed by
                                    MCA–Armenia, Under the Compact
                                                                                      28           QC
M-000-11-011-N           03/08/11   Agreement Between the MCC and
                                                                                      28           UN
                                    the Government of the Republic of
                                    Armenia from January 1, 2010, to
                                    June 30, 2010
                                    Audit of the Millennium Challenge
                                    Corporation Resources Managed by
                                    MCA–Morocco, Under the
M-000-11-012-N           03/08/11   Compact Agreement Between the                     17           QC
                                    MCC and the Government of
                                    Morocco from July 1, 2009, to
                                    December 31, 2009
                                    Audit of the Millennium Challenge
                                    Corporation Resources Managed by
                                    MCA–Lesotho, Under the Compact
M-000-11-013-N           03/08/11   Agreement Between the MCC and
                                    the Government of the Kingdom of
                                    Lesotho from January 1, 2010, to
                                    June 30, 2010
                                    Audit of the Millennium Challenge
                                    Corporation Resources Managed by
                                    MCA–Mozambique, Under the
                                                                                     503           QC
M-000-11-014-N           03/18/11   Compact Agreement Between the
                                                                                     503           UN
                                    MCC and the Government of the
                                    Republic of Mozambique from
                                    January1, 2009, to June 30, 2009
                                    Audit of the Millennium Challenge
                                    Corporation Resources Managed by
                                    Millennium Development Authority
                                    (MiDA)–Ghana, Under the Compact                 2,013          QC
M-000-11-015-N           03/18/11
                                    Agreement Between the MCC and                   2,013          UN
                                    the Government of the Republic of
                                    Ghana from January 1, 2010, to
                                    June 30, 2010


BU—Better Use of Funds     QC—Questioned Costs      UN—Unsupported Costs          Note: UN is part of QC




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   149
                              Performance Audits
           Questioned Costs, Unsupported Costs, and Value of
           Recommendations That Funds Be Put to Better Use
                                               MCC
                           October 1, 2010–March 31, 2011
                                                                              Amt. of
                       Date of                                                            Type of
Report Number                                     Report Title                Findings
                       Report                                                             Findings
                                                                              ($000)
                                       Economy and Efficiency
                                     Audit of the Millennium Challenge
 M-000-11-001-P        01/25/11      Corporation's Health Sector Project
                                     in Lesotho
                                     Audit of the Millennium Challenge
                                     Corporation’s Implementation of
 M-000-11-002-P        01/31/11
                                     Selected Key Project Controls for the
                                     MCC Integrated Data Analysis System
                                     Audit of the Millennium Challenge
 M-000-11-003-P        03/30/11      Corporation's Funding of Activities in
                                     Tanzania




BU—Better Use of Funds      QC—Questioned Costs       UN—Unsupported Costs    Note: UN is part of QC




150     USAID OFFICE OF INSPECTOR GENERAL
                  Miscellaneous Reports
 Associated Questioned Costs, Unsupported Costs, and Value of
      Recommendations That Funds Be Put to Better Use
                                    MCC
                  October 1, 2010–March 31, 2011
                                                                          Amt. of
                 Date of                                                                Type of
Report Number                            Report Title                     Findings
                 Report                                                                 Findings
                                                                          ($000)
                            Quality Control Reviews
                            Audit of the Fund Accountability
                            Statement of the Millennium
                            Challenge Corporation Resources
                            Managed by MiDA–Ghana under
M-000-11-001-Q   12/14/10   the Compact Agreement dated
                            August 1, 2006, between MCC and
                            the Government of the Republic of
                            Ghana for the audit period from
                            July 1, 2009, to December 31, 2009
                                       Other
                            Review of the Millennium Challenge
                            Corporation’s Approach to
M-000-11-001-S   01/12/11
                            Addressing and Deterring Trafficking
                            in Persons




                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   151
               Statistical Table of Reports With
              Questioned and Unsupported Costs*
                              MCC
                               October 1, 2010–March 31, 2011
                                                            Number of        Questioned Unsupported
                          Reports                             Audit            Costs      Costs**
                                                             Reports            ($)         ($)

A. For which no management decision had been
                                                                  9            1,108,840         417,362
   made as of October 1, 2010


B.     Add: Reports issued October 1, 2010–
                                                                  8            4,783,498        4,757,570
       March 31, 2011


        Subtotal                                                 17          5,892,338 5,174,932

C. Less: Reports with a management decision
                                                                  4             491,831          354,802
   made October 1, 2010–March 31, 2011

              Value of recommendations disallowed
                                                                                 4,387               0
              by Agency officials

              Value of recommendations allowed by
                                                                                487,444          354,802
              Agency officials

D. For which no management decision had been
                                                                  13           5,400,507        4,820,130
   made as of March 31, 2011


      * The ending balance on September 30, 2010, for questioned costs totaling $1,039,441 and for
     unsupported costs totaling $352,350 were increased by $69,399 and $65,012, respectively, to
     reflect adjustments in recommendations from prior periods.

     ** Unsupported costs, a subcategory of questioned costs, are reported separately as required by the
     Inspector General Act.




152         USAID OFFICE OF INSPECTOR GENERAL
            Statistical Table of Reports With
             Recommendations That Funds
                  Be Put to Better Use
                           MCC
                     October 1, 2010–March 31, 2011
                                                                   Number of
                                                                                          Value
                        Reports                                      Audit
                                                                                           ($)
                                                                    Reports

A. For which no management decision had been made as of
                                                                          0                  0
   October 1, 2010


B.   Add: Reports issued October 1, 2010–March 31, 2011                   0                  0


Subtotal                                                                 0                   0

C. Less: Reports with a management decision made
                                                                          0                  0
   October 1, 2010–March 31, 2011

          Value of Recommendations Disallowed by Agency
                                                                                             0
          Officials

          Value of Recommendations Allowed by Agency
                                                                                             0
          Officials

D. For which no management decision had been made as of
                                                                          0                  0
   March 31, 2011




                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   153
                Reports Over 6 Months Old
               With No Management Decision
                          MCC
                          October 1, 2010–March 31, 2011
      Report                                Issue
                            Auditee                          Recommendation Status
      Number                                Date
                                                      OIG expects management decisions to be
  M-000-10-004-S          MCA–Mali         09/30/10
                                                      reached by May 2011.
                                                      OIG expects a management decision to
  M-000-10-011-N       MCA–Morocco         04/23/10
                                                      be reached by May 2011.
                                                      OIG expects a management decision to
  M-000-10-013-N       MCA–Tanzania        05/05/10
                                                      be reached by May 2011.
                                                      OIG expects a management decision to
  M-000-10-016-N        MiDA–Ghana         08/13/10
                                                      be reached by May 2011.
                                                      OIG expects management decisions to be
  M-000-10-019-N       MCA–Mongolia        09/30/10
                                                      reached by May 2011.
                                                      OIG expects management decisions to be
  M-000-10-021-N       MCA–Armenia         09/30/10
                                                      reached by May 2011.
                                                      OIG expects a management decision to
  M-000-10-022-N       MCA–Tanzania        09/30/10
                                                      be reached by May 2011.
                                                      OIG expects management decisions to be
  M-000-10-024-N            Other          09/30/10
                                                      reached by May 2011.
                                                      OIG expects a management decision to
  M-000-10-025-N            Other          09/30/10
                                                      be reached by May 2011.
                                                      OIG expects management decisions to be
  M-000-10-026-N         MCA–Benin         09/30/10
                                                      reached by May 2011.
                                                      OIG expects management decisions to be
  M-000-10-027-N       MCA–Vanuatu         09/30/10
                                                      reached by May 2011.




154    USAID OFFICE OF INSPECTOR GENERAL
                    Significant Revisions of
                    Management Decisions
                             MCC
                     October 1, 2010–March 31, 2011

Section 5(a) (11) of the Inspector General Act requires a description and
explanation of the reasons for any significant revised management decision
during the reporting period. During the reporting period, MCC did not make any
significant revisions of previous management decisions.


      Management Decisions With Which the
          Inspector General Disagrees
                     MCC
                     October 1, 2010–March 31, 2011

The Inspector General Act of 1978, as amended, requires inspectors general to
provide information concerning any significant management decisions with which
the inspector general disagrees.

During the reporting period, the Inspector General disagreed with MCC’s
management decision not to implement Recommendation 1 from the Audit of
the Millennium Challenge Corporation’s Funding of Activities in Tanzania
(Report No. M-000-11-003-P). The recommendation asked MCC to amend its
compact development policy to identify the requisite studies that will be
completed prior to compact signing. MCC disagreed with the recommendation
and said that it was not possible to create a specific checklist or single list of
requisite studies to be completed prior to compact signing because potential
compact projects vary greatly from country to country, by sector, and by the
unique mix of activities or interventions proposed. Most if not all compacts
signed by MCC have been delayed, modified, or rescoped prior to being
completed. In some cases, these problems may have been prevented had the
feasibility studies been completed prior to the signing of the compact or prior to
entry-in-force. OIG believes that the identification of requisite studies to be
completed prior to compact signing would strengthen MCC’s due diligence
process and help reduce problems during implementation.




                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   155
The Inspector General also disagreed with MCC’s management decision not to
implement Recommendation 3 from the Audit of the Millennium Challenge
Corporation’s Management of the Threshold Program (Audit Report No. M-000­
09-003-P, April 29, 2009). The recommendation asked MCC to develop more
definitive guidance for selecting countries for the Threshold Program. MCC
disagreed with the recommendation and said that MCC's authorizing legislation
provides a significant degree of flexibility to the board regarding the selection of
threshold-eligible countries, and it does not believe that reducing this flexibility is
either necessary or advisable.




156    USAID OFFICE OF INSPECTOR GENERAL
   Noncompliance With the Federal Financial
       Management Improvement Act
                  MCC
                    October 1, 2010–March 31, 2011

Section 5(a)(13) of the Inspector General Act requires inspectors general to
provide an update on issues outstanding under a remediation plan required by
the Federal Financial Management Improvement Act (FFMIA, Public Law 104-208,
Section 05(b), 31 U.S.C. 3512). FFMIA requires agencies to comply substantially
with (1) federal financial management system requirements, (2) federal
accounting standards, and (3) the U.S. Standard Ledger at the transaction level.
An agency that is not substantially compliant with FFMIA must prepare a
remediation plan.

OIG had no instances of MCC noncompliance to report during the reporting
period.



          Significant Findings From Contract
                     Audit Reports
                          MCC
                    October 1, 2010–March 31, 2011

The National Defense Authorization Act for FY 2008 (Public Law 110-181,
Section 845) requires inspectors general to submit information on contract audit
reports that contain significant audit findings in semiannual reports to the
Congress. The act defines “significant audit findings” to include unsupported,
questioned, or disallowed costs in excess of $10 million and other contract-
related findings that the Inspector General determines to be significant.

During the reporting period, OIG had no significant findings from MCC contract
audit reports.




                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   157
                                     Peer Reviews
                                        MCC
                          October 1, 2010–March 31, 2011


The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law
111-203) was signed into law July 21, 2010. Section 989C of this law amends the
Inspector General Act to require federal inspectors general to report on results
of peer reviews in their semiannual reports. OIG’s peer review reporting
pursuant to this requirement is addressed on page 127 of our Semiannual Report
to the Congress for USAID, USADF, and IAF.




158    USAID OFFICE OF INSPECTOR GENERAL
                     ABBREVIATIONS

DCAA       Defense Contract Audit Agency

FAR        Federal Acquisition Regulation

FATA       Federally Administered Tribal Areas (Pakistan)

FFMIA      Federal Financial Management Improvement Act of 1978 (Public
           Law 104-208, Title VIII)

FISMA      Federal Information Security Management Act of 2002
           (E-Government Act of 2002, Public Law 107-347, Title III)
FY         fiscal year

GAO        Government Accountability Office

HIV/AIDS   human immunodeficiency virus/acquired immunodeficiency
           syndrome

IAF        Inter-American Foundation

IDP        internally displaced person

MCA        Millennium Challenge Account

MCC        Millennium Challenge Corporation

MOU        memorandum of understanding

NDAA       National Defense Authorization Act

NGO        nongovernmental organization

OIG        Office of Inspector General

OMB        Office of Management and Budget

PEPFAR     President’s Emergency Plan for AIDS Relief

PMI        President’s Malaria Initiative

PSC        private security contractor




                            SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   159
SAI                Supreme Audit Institution

TB                 tuberculosis

USADF              United States African Development Foundation

U.S.C.             United States Code

VAT                value-added tax




160      USAID OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2010–March 31, 2011   161
   United States Agency for International Development
               Office of Inspector General
               1300 Pennsylvania Avenue, NW
                        Room 6.6D
                  Washington, DC 20523
                    www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at
      www.usaid.gov/oig/public/semiann/semiannual_recent.htm
